OIG Report # 13-01   The Office of Inspector General's Report on the Railroad Retirement Board's Financial
November 15, 2012    Statements begins on page 100 of the RRB's FY 2012 Performance and Accountability Report.




           RAILROAD RETIREMENT BOARD 



 PERFORMANCE AND ACCOUNTABILITY 

            REPORT 





                             FISCAL YEAR 2012 

BLANK PAGE FOR PRINTING PURPOSES
                                           Railroad Retirement Board
                                     Performance and Accountability Report
                                                Fiscal Year 2012



                                                    TABLE OF CONTENTS
                                                                                                                                     PAGE

Message from the Board Members ........................................................................                                  3

Management’s Discussion and Analysis...............................................................                                       7
     Overview of the Railroad Retirement Board ....................................................................                       7
         Mission .....................................................................................................................    7
         Major Program Areas................................................................................................              7
             Railroad Retirement Act ......................................................................................               8
             Railroad Unemployment Insurance Act ...............................................................                          9
         Reporting Components .............................................................................................              10
         RRB Organizational Structure ...................................................................................                10
         Financial Highlights...................................................................................................         13
             Comparison of Net Cost of Operations and Financing Sources ..........................                                       15
             Railroad Retirement Investments at Treasury .....................................................                           19
             National Railroad Retirement Investment Trust ...................................................                           20
     Program, Operations, and Financial Performance and Results ......................................                                   21
     Strategic Goals and Objectives.......................................................................................               22
         Future Plans/Objectives ............................................................................................            30
             Program Improvements ......................................................................................                 30
             Improper Payments Information Act (IPIA) .......................................................                            30
             Systems and Controls .........................................................................................              31
                 Management Assurances .............................................................................                     33
             Financial Management Systems Strategy ...........................................................                           34
             Summary of Actuarial Forecast ...........................................................................                   34
     Social Insurance: Key Measures ................................................................................                     35
     American Recovery and Reinvestment Act of 2009 ........................................................                             37
     Worker, Homeownership and Business Assistance Act of 2009 .....................................                                     37
     Tax Relief, Unemployment Insurance Reauthorization, and Job Creation Act of 2010                                                    38
     Middle Class Tax Relief and Job Creation Act of 2012 ...................................................                            38
     Limitations of the Financial Statements ..........................................................................                  38

Performance Section – Government Performance and Results Act (GPRA)
 Report ......................................................................................................................... 41


                                                                    I
                                                   TABLE OF CONTENTS
                                                                                                                                  PAGE

Financial Section ..................................................................................................... 57
     Message from the Chief Financial Officer .......................................................................                 57
     Financial Statements ......................................................................................................      58
        Consolidated Balance Sheet ....................................................................................               58
        Consolidated Statement of Net Cost .........................................................................                  59
        Consolidated Statement of Changes in Net Position .................................................                           60
        Combined Statement of Budgetary Resources .........................................................                           62
        Statement of Social Insurance ..................................................................................              63
        Statement of Changes in Social Insurance Amounts ................................................                             64
     Notes to the Financial Statements ..................................................................................             66
     Required Supplementary Information .............................................................................                 85
        Social Insurance .......................................................................................................      85
            Benefits ..............................................................................................................   85
            Program Finances and Sustainability ..................................................................                    86
        Disaggregate of Budgetary Resources .....................................................................                     95
     Auditor’s Report .............................................................................................................   96

Other Accompanying Information .......................................................................... 109
     Inspector General’s Statement on Management and Performance Challenges ..............                                            109
     Management’s Comments..............................................................................................              114
     Improper Payments Information Act (IPIA) Reporting Details .........................................                             117
     Summaries of Financial Statement Audit and Management Assurances ........................                                        125

Appendices .............................................................................................................. 129
     Glossary of Acronyms and Abbreviations ....................................................................... 129
     RRB Board Members, Inspector General, and Executive Committee ............................. 132



RRB’s fiscal year 2012 Performance and Accountability Report is available on the Internet at: www.rrb.gov




                                                                  II
MESSAGE FROM THE BOARD MEMBERS
PAGE INTENTIONALLY LEFT BLANK
                           Message from the Board Members

This fiscal year 2012 Performance and Accountability Report highlights the goals and
accomplishments of the Railroad Retirement Board (RRB) in achieving its mission of administering
the retirement, disability, and survivor benefit program provided under the Railroad Retirement Act
(RRA) and the unemployment and sickness insurance benefit program provided under the Railroad
Unemployment Insurance Act (RUIA). This report describes our continuing efforts to provide timely
and useful information to RRB managers, the Office of Management and Budget (OMB), the
Congress, and our constituents. We are proud of the agency’s dedicated employees whose
achievements are reflected in this report.

The RRB has a long and distinguished tradition of excellence in serving our customers and
safeguarding the agency’s trust funds. In recent years, we have achieved high levels of
accuracy and timeliness in the benefit programs we administer. In December 2011, the RRB
conducted an American Customer Satisfaction Index (ACSI) Survey, which focused on railroad
workers receiving unemployment or sickness insurance benefits. The RRB earned a score of
81 which was 14 points higher than the latest Federal government average of 67, and 6 points
higher than the previous survey on the same customer segment done in 2002. In July 2012, we
conducted another ACSI survey focusing on initial survivor annuitants. In this survey the RRB
earned an overall satisfaction score of 90, which was 23 points higher than the latest Federal
government average (67) and the same as the previous survey on the same segment
conducted in 2005.

This year we implemented the Middle Class Tax Relief and Job Creation Act of 2012, which
further extended the provisions of the Worker, Homeownership and Business Assistance Act of
2009 by providing for the payment of additional extended unemployment benefits for benefit
periods beginning no later than December 31, 2012. The RRB began making payments under
this Act on February 22, 2012, and has paid approximately $3.1 million of these extended
benefits through May 30, 2012.

We believe the performance and financial data presented in this report are complete and reliable in
accordance with OMB guidance. The adequacy and effectiveness of our management controls and
the compliance of our financial management systems with governmentwide requirements are
delineated in the Systems and Controls part of the Management’s Discussion and Analysis section.
That part also provides the status of the actions we are taking and progress we are making to
correct material weaknesses identified by the Office of Inspector General in the internal control
environment for information security (risk management and configuration management), and
budgetary reporting.

We will continue to apply information technology and innovation to provide excellent customer
service to the railroad employers, railroad employees, and the beneficiaries whom we serve. We are
also committed to prudent stewardship over the agency trust funds and the administrative resources
entrusted to us.

                                                                                  Original signed by:

                                                                   Michael S. Schwartz, Chairman
                                                                 Walter A. Barrows, Labor Member
                                                            Jerome F. Kever, Management Member

                                                                                  November 6, 2012


                                                -3-
PAGE INTENTIONALLY LEFT BLANK
MANAGEMENT’S DISCUSSION AND ANALYSIS
PAGE INTENTIONALLY LEFT BLANK
                        Management’s Discussion and Analysis

Overview of the Railroad Retirement Board

Mission

The RRB is an independent agency in the executive branch of the Federal Government. The
agency’s mission statement is as follows:

       The RRB’s mission is to administer retirement/survivor and unemployment/sickness insurance
       benefit programs for railroad workers and their families under the Railroad Retirement Act and the
       Railroad Unemployment Insurance Act. These programs provide income protection during old
       age and in the event of disability, death or temporary unemployment and sickness. The RRB
       also administers aspects of the Medicare program and has administrative responsibilities under
       the Social Security Act and the Internal Revenue Code. In carrying out its mission, the RRB will
       pay benefits to the right people, in the right amounts, in a timely manner, and will take appropriate
       action to safeguard our customers’ trust funds. The RRB will treat every person who comes into
       contact with the agency with courtesy and concern, and respond to all inquiries promptly,
       accurately and clearly.


Major Program Areas

The RRB was created in the 1930’s by legislation establishing a retirement benefit program for
the nation’s railroad workers. Private industrial pension plans had been pioneered in the
railroad industry; the first industrial pension plan in North America was established on a railroad
in 1874. By the 1930’s, pension plans were far more developed in the rail industry than in most
other businesses or industries, but these plans had serious defects which were magnified by the
Great Depression.

The economic conditions of the 1930’s demonstrated the need for retirement plans on a national
basis because few of the nation’s elderly were covered under any type of retirement program.
While the social security system was in the planning stage, railroad workers sought a separate
railroad retirement system which would continue and broaden the existing railroad programs
under a uniform national plan. The proposed social security system was not scheduled to begin
monthly benefit payments for several years and would not give credit for service performed prior
to 1937, while conditions in the railroad industry called for immediate benefit payments based
on prior service.

Legislation was enacted in 1934, 1935, and 1937 to establish a railroad retirement system
separate from the social security program legislated in 1935. Such legislation, taking into
account particular circumstances of the rail industry, was not without precedent. Numerous
laws pertaining to rail operations and safety had already been enacted since the Interstate
Commerce Act of 1887. Since passage of the Railroad Retirement Acts of the 1930’s,
numerous other railroad laws have subsequently been enacted.

While the railroad retirement system has remained separate from the social security system, the
two systems are closely coordinated with regard to earnings credits, benefit payments, and


                                                   -7-
taxes. The financing of the two systems is linked through a financial interchange under which,
in effect, the portion of railroad retirement annuities that is equivalent to social security benefits
is coordinated with the social security system. The purpose of this financial coordination is to
place the social security trust funds in the same position they would be in if railroad service were
covered by the social security program instead of the railroad retirement program.

Legislation enacted in 1974 restructured railroad retirement benefits into two tiers, so as to
coordinate them more fully with social security benefits. The first tier is based on combined
railroad retirement and social security credits, using social security benefit formulas. The
second tier is based on railroad service only and is comparable to the private pensions paid
over and above social security benefits in other industries.

The railroad unemployment insurance system was also established in the 1930’s. The Great
Depression demonstrated the need for unemployment compensation programs, and State
unemployment programs had been established under the Social Security Act in 1935. While the
State unemployment programs generally covered railroad workers, railroad operations which
crossed State lines caused special problems. Unemployed railroad workers were denied
compensation by one State because their employers had paid unemployment taxes in another
State. Although there were cases where employees appeared to be covered in more than one
State, they often did not qualify in any.

A Federal study commission, which reported on the nationwide State plans for unemployment
insurance, recommended that railroad workers be covered by a separate plan because of the
complications their coverage had caused the State plans. The Congress subsequently enacted
the Railroad Unemployment Insurance Act (RUIA) in June 1938. The RUIA established a
system of benefits for unemployed railroad workers, financed entirely by railroad employers and
administered by the RRB. Sickness insurance benefits were added in 1946.

   Railroad Retirement Act

Under the Railroad Retirement Act (RRA), retirement and disability annuities are paid to railroad
workers with at least 10 years of service. Such annuities are also payable to workers with
5 years of service if performed after 1995.

Full age annuities are payable at age 60 to workers with 30 years of service. For those with
less than 30 years of service, reduced annuities are payable at age 62 and unreduced annuities
are payable at full retirement age, which is gradually rising from 65 to 67, depending on the year
of birth. Disability annuities can be paid on the basis of total or occupational disability.
Annuities are also payable to spouses and divorced spouses of retired workers and to
widow(er)s, surviving divorced spouses, remarried widow(er)s, children, and parents of
deceased railroad workers. Qualified railroad retirement beneficiaries are covered by Medicare
at age 65, or earlier if disabled, in the same way as social security beneficiaries.

Jurisdiction over the payment of retirement and survivor benefits is shared by the RRB and the
Social Security Administration (SSA). The RRB has jurisdiction over the payment of retirement
benefits if the employee had at least 10 years of railroad service, or 5 years if performed after
1995; for survivor benefits, there is an additional requirement that the employee’s last regular
employment before retirement or death was in the railroad industry. If a railroad employee or
his or her survivors do not qualify for railroad retirement benefits, the RRB transfers the
employee’s railroad retirement credits to SSA, where they are treated as social security credits.



                                                -8-
Payroll taxes paid by railroad employers and their employees are the primary source of funding
for the railroad retirement and survivor benefit programs. By law, railroad retirement taxes are
coordinated with social security taxes. Employees and employers pay tier 1 taxes at the same
rate as social security taxes. In addition, both employees and employers pay tier 2 taxes which
are used to finance railroad retirement benefit payments over and above social security levels.
Tier 2 taxes are based on the ratio of certain asset balances to the sum of benefit payments and
administrative expenses. Historically, railroad retirement taxes have been considerably higher
than social security taxes.

Revenues in excess of benefit payments are invested to provide additional trust fund income,
and legislation enacted in 2001 allows for Railroad Retirement (RR) Account funds transferred
to the National Railroad Retirement Investment Trust (NRRIT) to be invested in
non-governmental assets, as well as in governmental securities. Funds transferred from the
Social Security Equivalent Benefit (SSEB) Account to the NRRIT are allowed to be invested
only in governmental securities. The legislation also established the NRRIT, whose Board of
seven trustees oversees these investments. The Board of Trustees is comprised of three
members selected by rail labor, three members selected by rail management, and one
independent member selected by a majority of the other six members.

Another major source of income to the railroad retirement and survivor benefit program consists
of transfers from the social security trust funds under a financial interchange between the two
systems. The financial interchange is intended to place the social security trust funds in the
same position in which they would have been had railroad employment been covered by the
Social Security Act and Federal Insurance Contributions Act (FICA). In fiscal year 2012, the
RRB trust funds realized a net of almost $4.2 billion, representing 42 percent of RRB financing
sources (excluding transfers to/from the NRRIT and the decrease in NRRIT net assets), through
the financial interchange.

Other sources of income currently include revenue resulting from Federal income taxes on
railroad retirement benefits (tier I, tier II, and vested dual benefits), and appropriations from
general Department of the Treasury (Treasury) revenues provided after 1974 as part of a
phase-out of certain vested dual benefits.

   Railroad Unemployment Insurance Act

Under the RUIA, unemployment insurance benefits are paid to qualified railroad workers who
are unemployed but ready, willing, and able to work and sickness insurance benefits to railroad
workers who are unable to work because of illness, injury, or pregnancy. The RRB also
operates a placement service to assist unemployed railroad workers in securing employment.

A new unemployment and sickness insurance benefit year begins every July 1, with eligibility
generally based on railroad service and earnings in the preceding calendar year. Up to
26 weeks of normal unemployment and 26 weeks of sickness insurance benefits are payable to
an individual in a benefit year. Additional extended benefits are payable for up to 13 weeks to
persons with 10 or more years of service.

The railroad unemployment and sickness insurance benefit program is financed by taxes on
railroad employers under an experience rating system initiated in 1991. Each employer’s
payroll tax rate is determined annually by the RRB on the basis of benefit payments to the
railroad’s employees.



                                                 -9-
Reporting Components

The RRB, as an independent agency in the executive branch of the U.S. Government, is
responsible for administering the RRA and the RUIA. The financial statements include the
accounts of all funds under the control of the RRB and the Office of Inspector General (OIG).
These funds consist of two administrative funds, three trust funds, two general funds, six
American Recovery and Reinvestment Act of 2009 (ARRA) funds, and two Worker,
Homeownership and Business Assistance Act of 2009 (WHBAA) funds.

RRB Organizational Structure

The RRB is headed by three Board Members appointed by the President of the United States,
with the advice and consent of the Senate. One member is appointed upon recommendation of
railroad employers; one is appointed upon recommendation of railroad labor organizations; and
the third, who is the Chairman, is appointed to represent the public interest. The Board
Members’ terms of office are 5 years and are scheduled to expire in different years. The
Chairman of the Board is Michael S. Schwartz, the Labor Member is Walter A. Barrows, and the
Management Member is Jerome F. Kever. The President also appoints an Inspector General
for the RRB; the Inspector General is Martin J. Dickman.

The primary function of the RRB is the determination and payment of benefits under the railroad
retirement and survivor and the unemployment and sickness insurance programs. To this end,
the RRB employs field representatives to assist railroad personnel and their families in filing
claims for benefits, examiners to adjudicate the claims, and information technology staff,
equipment, and programs to maintain earnings records, calculate benefits, and process
payments. The RRB also employs actuaries to predict the future income and outlays of the
agency’s trust funds and accounts, statisticians and economists to provide vital data, and
attorneys to interpret legislation and represent the RRB in litigation. Internal administration
requires a procurement staff, a budget and accounting staff, quality assurance staff, and
personnel specialists. The Inspector General employs auditors and investigators to detect
waste, fraud, or abuse in the benefit programs.

The RRB’s headquarters is located at 844 North Rush Street in Chicago, Illinois. The RRB field
structure is comprised of 53 offices located throughout the United States as shown on page 12.




                                             - 10 -
                                                                     U.S. RAILROAD RETIREMENT BOARD

                                                                                         THE BOARD                     CHIEF ACTUARY *
                                           OFFICE OF
                                          INSPECTOR                        Chairman, Michael S. Schwartz                 BUREAU OF
              OFFICE OF                     GENERAL
               EQUAL                                                      Labor Member, Walter A. Barrows               THE ACTUARY
                                         Martin J. Dickman                                                               Frank J. Buzzi
            OPPORTUNITY                                                 Management Member, Jerome F. Kever
            Lynn E. Cousins


                                                                                  EXECUTIVE COMMITTEE
            MEMBER                        MEMBER                           MEMBER              SENIOR EXECUTIVE            MEMBER               MEMBER
         George V. Govan                 Karl T. Blank                   Keith B. Earley            OFFICER            Martha M. Barringer    Terri S. Morgan
                                                                                               Dorothy A. Isherwood


             CHIEF                     OFFICE OF                         OFFICE OF                  OFFICE OF              BUREAU OF               CHIEF
           FINANCIAL                GENERAL COUNSEL                    ADMINISTRATION              PROGRAMS              FIELD SERVICE         INFORMATION
            OFFICER                    Karl T. Blank                    Keith B. Earley         Dorothy A. Isherwood    Martha M. Barringer       OFFICER

          BUREAU OF                                                                                                                             BUREAU OF
             FISCAL                   OFFICE OF                        ACQUISITION                POLICY AND                                   INFORMATION
                                     LEGISLATIVE                       MANAGEMENT                  SYSTEMS
- 11 -




          OPERATIONS                                                                                                                             SERVICES
         George V. Govan               AFFAIRS                          Paul T. Ahern             Ronald Russo                                 Terri S. Morgan
                                   Margaret S. Lindsley
                                                                      REAL PROPERTY
                                                                       MANAGEMENT                 PROGRAM
                                      BUREAU OF                          Scott Rush            EVALUATION AND
                                     HEARINGS AND                                                MANAGEMENT
                                       APPEALS                                                     SERVICES
                                    Rachel L. Simmons                BUREAU OF HUMAN            Janet M. Hallman
                                                                        RESOURCES
                                                                         Marguerite V.
                                     SECRETARY TO                                                RETIREMENT
                                                                           Daniels
                                      THE BOARD                                                    BENEFITS
                                      Martha P. Rico                                            Cecilia A. Freeman
                                                                     PUBLIC AFFAIRS
                                                                     Michael P. Freeman           SURVIVOR
                                                                                                  BENEFITS
                                                                                                 Valerie F. Allen

                                                                                                  DISABILITY
                                                                                                   BENEFITS
                                                                                                 John A. Bognar

                                                                                                UNEMPLOYMENT
              The Inspector General reports administratively to the Chairman.
                                                                                                AND PROGRAMS
              The Director of Equal Opportunity reports administratively to the                    SUPPORT
              Director of Administration and programmatically to the Board.                     Micheal T. Pawlak

    * Non-voting member of the Executive Committee                                                                                             OCTOBER 2012
                                                                          U.S. RAILROAD RETIREMENT BOARD
                             WAS
                                HING
                                                                                    District Office Map
                                    TON

                                                         MONTA                                                                                                                                                                                                                                  MAINE
                           Bellevue                           NA
                                          Spokane

                                                                                                        NORTH DAKOTA
                                                                                                                                    MINNESOTA


                Portland
                                      OREGON                                                                                                           Duluth
                                                                                                                                                                                                                                                                                  V.T.
                                                                                                                            Fargo                                              MICHIGAN
                                                                               Billings                                                                                                                                                                                RK
                                                                                                                                                                                                                                                                     YO
                                                                                                                                                              WISCONSIN                                                                                          W
                                                                                                       SOUTH DAKOTA                                                                                                                                            NE

                                                                          WYOMING                                                               St. Paul                                                                                                                                 N.H.   Boston
                                                                IDAHO                                                                                                                           MICHIGAN
                                                                                                                                                                                                                                                                                           .
                                                                                                                                                                                                                                                                         Albany       MASS
         CAL                                                                                                                                                                                                                                      Buffalo                                   .
            IFOR                                                                                                                                                                                                                                                                      CONN
                NIA
                            NEVA                                                                                                                                                                                                                                                            Westbury
                                DA                                                                                                                                          Milwaukee
                                                                                                                                        IOWA                                                                                                    ANIA           Scranton
                                                                                                                                                                                                             Detroit                        SYLV                             NJ       New York
                                                                                                      NEBRASKA                                                                                                                          PENN
                                                         UTAH                                                                                                                                                                                                                       Newark
                                                                                                                                                                                Chicago                                                                     Harrisburg
                                                                                                                                                                                                               OHIO                                                                 lphia
                                                                                                                                                                                              INDIANA                       Cleveland
                                                                                                                                                                                                                                                                            Philade
                                                                                                                                                                                                                                                 Altoona
                                                                                                                                                                                   Joliet                                                 Pittsburgh               D
                                                                                                                                                Des Moines                                                                                                     YLANBaltimore
            Roseville                                    Salt Lake City       COLORADO                                                                                                                                                                      MAR
                                                                                                                                Omaha                                       ILLINOIS                                                                                        DE

                                                                                                                                           MISSOURI                                           Indianapolis       Cincinnati           WEST
                                                                                                                                                                               Decatur
          Oakland                                                                                                                                                                                                                    VIRGINIA
                                                                                                            KANSAS
                                                                                                                                                                                                                                                    VIRGINIA
- 12 -




                                                                                             Denver
                                                                                                                                                  Kansas City
                                                                                                                                                                                                                                 Huntington
                                                                                                                                                                St. Louis                                                                              Richmond
                                                                                                                                                                                                         Louisville

                                                                                                                                                                                                                                         Roanoke
                                                    ARIZO                                                                                                                                                                                           INA
                                                         NA                                                                                                                                                                                    CAROL
                                                                                                                          Wichita
                                                                                                                                                                                                KENTUCKY                                 NORTH
                                                                            NEW MEXICO
                                                                                                                                                                                                                                        Charlotte
                                                                                                                       OKLAHOMA
                                                                                                        TEXAS                                                                          TENNESSEE   Nashville
                                                                                                                                                    ARKANSAS

                                                                               Albuquerque                                                                                                                                        SOUTH CAROLINA
                           Covina
                                                                                                                                                                                                                 GEORGIA
                                                                                                                                                                                              ALABAMA
                                                                                                                                                                                MISSISSIPPI
                                                                                                                                                             Little Rock
                                                        Mesa                                                                                                                                                           Atlanta
                                                                                                                                                                                               Birmingham


                                                                                                                                                           LOUISIANA
                                                                                                                            Ft. Worth



                                                                                                                                                                                                    FLORIDA                        Jacksonville



                                                                                                                                        Houston
                                                                                                                                                                           New Orleans

                                                                                                                                                                                                                                              Tampa

                           LEGEND

                           District Office




                                                                                                                                                                                                                                                                                                10-12
Financial Highlights

Amounts in the RR Account not needed to pay current benefits and administrative expenses are
transferred to the NRRIT whose Board of seven trustees is empowered to invest NRRIT assets
in non-governmental assets, such as equities and debt, as well as in governmental securities.
Amounts in the SSEB Account not needed to pay current benefits and administrative expenses
are transferred to either the RR Account or the NRRIT.

On February 17, 2009, President Obama signed the ARRA. Under the ARRA, the RRB has two
major benefit programs to administer, economic recovery payments, and extended
unemployment insurance benefits. For additional information on the ARRA, see page 37.

On November 6, 2009, President Obama signed the WHBAA. The legislation authorized
payment of extended unemployment insurance benefits to rail workers. For additional
information on WHBAA, see page 37.

On December 17, 2010, President Obama signed the Tax Relief, Unemployment Insurance
Reauthorization, and Job Creation Act of 2010. The legislation provides a 1-year reduction in
employee payroll taxes and provides more extended unemployment benefits for railroad
workers. For additional information on the Tax Relief Act, see page 38.

On February 22, 2012, President Obama signed the Middle Class Tax Relief and Job Creation
Act of 2012. For additional information on the Middle Class Tax Relief and Job Creation Act,
see page 38.

Shown on the following page are snapshots of the net position, financing sources, and benefit
payments (before elimination of inter-fund transactions) for the RRB accounts. All dollar
amounts are in millions.




                                             - 13 -
                                  Net Position, Financing Sources, and Benefit Payments
                                                        (In millions)

                                                                                                              2012              2011

NET POSITION AT SEPTEMBER 30
  Social Security Equivalent Benefit Account                                                                    $798.5         $ 319.9
  Railroad Retirement Account 1/                                                                              23,959.2          22,466.7
  Railroad Retirement Administration Fund                                                                          8.0               3.3
  Railroad Unemployment Insurance Trust Fund –
    Benefit Payments                                                                                             162.5              40.3
    Administrative Expenses                                                                                       11.4              11.7
  Limitation on the Office of Inspector General                                                                     .7                .8
  Dual Benefits Payments Account                                                                                   9.7               9.0
  Federal Payments to the Railroad Retirement Accounts                                                            24.9              21.0

      American Recovery and Reinvestment Act of 2009
      Railroad Unemployment Insurance Extended Benefit Payments – Recovery Act (no year dollars)                     9.6                9.5
      Economic Recovery Payments – Recovery Act                                                                      5.0                5.0
      Administrative Expenses – Recovery Act (no year dollars)                                                         -                  -
      Administrative Expenses – Recovery Act                                                                           -                  -
      Limitation on Administration – Recovery Act (no year dollars)                                                    -                  -
      Limitation on Administration – Recovery Act                                                                     .7                 .7

      Worker, Homeownership and Business Assistance Act of 2009
      Railroad Unemployment Insurance Extended Benefits Payments (no year dollars)                               141.4             147.8
      Administrative Expenses, Railroad Unemployment Insurance Extended Benefit Payments                                               -

        Total                                                                                                $25,131.6         $23,035.7

FINANCING SOURCES FOR FISCAL YEAR
   Social Security Equivalent Benefit Account                                                                 $7,232.8         $ 6,272.1
   Railroad Retirement Account 2/                                                                              6,142.6           3,008.7
   Railroad Retirement Administration Fund                                                                       117.8             118.6
   Railroad Unemployment Insurance Trust Fund –
     Benefit Payments                                                                                            198.8             158.1
     Administrative Expenses                                                                                      (0.3)              3.4
   Limitation on the Office of Inspector General                                                                    8.6              8.7
   Dual Benefits Payments Account                                                                                 48.6              55.2
   Federal Payments to the Railroad Retirement Accounts 3/                                                       771.0             698.1

      American Recovery and Reinvestment Act of 2009
      Railroad Unemployment Insurance Extended Benefit Payments – Recovery Act (no year dollars)                           -            (.5)
      Economic Recovery Payments – Recovery Act                                                                        -                   -
      Administrative Expenses – Recovery Act (no year dollars)                                                         -                   -
      Administrative Expenses – Recovery Act                                                                           -                   -
      Limitation on Administration – Recovery Act (no year dollars)                                                    -                   -
      Limitation on Administration – Recovery Act                                                                      -                   -

      Worker, Homeownership and Business Assistance Act of 2009
      Railroad Unemployment Insurance Extended Benefits Payments, (no year dollars)                                  6.5                7.8
      Administrative Expenses, Railroad Unemployment Insurance Extended Benefit Payments                              .5                  -

        Total                                                                                                $14,526.9         $10,330.2


 1/     NRRIT-held net assets are a financing source and are included in the Railroad Retirement Account above.
 2/     Change in NRRIT-held net assets is included in the Railroad Retirement Account above.
 3/     Includes funds subsequently transferred to other accounts. Such inter-fund transfers are eliminated in the preparation of the
        consolidated statements.




                                                                 - 14 -
                                                                                                       2012             2011

BENEFIT PAYMENTS FOR FISCAL YEAR 4/
  Social Security Equivalent Benefit Account                                                           $6,631.9       $ 6,384.6
  Railroad Retirement Account                                                                           4,648.7         4,522.4
  Railroad Unemployment Insurance Trust Fund –
   Unemployment Insurance                                                                                 34.6               36.8
   Sickness Insurance                                                                                     41.4               54.1
  Dual Benefits Payments Account                                                                          48.6               55.2

     American Recovery and Reinvestment Act of 2009
     Railroad Unemployment Insurance Extended Benefit Payments – Recovery Act (no year dollars)                 -               .5
     Economic Recovery Payments – Recovery Act                                                                  -                -

     Worker, Homeownership and Business Assistance Act of 2009
     Railroad Unemployment Insurance Extended Benefits Payments (no year dollars)                             6.4              7.8

       Total                                                                                       $11,411.6          $11,061.4


4/     Net of recoveries and offsetting collections; excludes SSA benefit payments.


The RRB’s financial statements are comprised of: Balance Sheet and Statements of Net Cost,
Changes in Net Position, Budgetary Resources, and Social Insurance and notes which are an
integral part of the statements. We also present as required supplementary information a
discussion of the actuarial outlook for the railroad retirement program and the Disaggregate of
Budgetary Resources.

       Comparison of Net Cost of Operations and Financing Sources

The net cost of operations for fiscal years 2012 and 2011 was $11,657.7 million and
$11,321.8 million, respectively. The details of the net cost of operations by type, amount,
increase or decrease, and percentage change from fiscal year 2011 to fiscal year 2012 are
shown below. Additional information regarding the net cost of operations and financing sources
for fiscal years 2012 and 2011 is shown on the following pages.


                                              NET COST OF OPERATIONS
                                                    (In millions)

                                                                                            Amount of            Percent of
                                                                                             Increase             Increase
                                                           FY 2012            FY 2011      (Decrease)           (Decrease)
  Interest expense – Treasury borrowing                     $ 121.4            $ 132.2        ($10.8)               (8.2%)
  Salaries and expenses                                         125.2              127.7       (2.5)                (2.0%)
  Benefit payments – RRB                                     11,433.2           11,083.3      349.9                  3.2%
  Other expenses                                                 11.7               11.6        0.1                  1.0%
    Subtotal                                                 11,691.5           11,354.8      336.7                  3.0%
  Less: Earned revenues                                          33.8               33.0        0.8                  2.4%
    Net cost of operations                                  $11,657.7          $11,321.8     $335.9                  3.0%




                                                                - 15 -
                                         FY 2012
                                NET COST OF OPERATIONS
                                       (In millions)


                                                                               Benefit Payments
                                                                                   $11,433.2
                                                                                    97.79%




Salaries and
 Expenses
   $125.2                                  Other Expenses
    1.07%                                       $11.7
                                                0.10%
                  Interest Expense
                       $121.4
                       1.04%

     Totals $11,691.5 million, excluding reimbursements and earned revenues of $33.8 million.



                                         FY 2011
                                NET COST OF OPERATIONS
                                       (In millions)


                                                                               Benefit Payments
                                                                                   $11,083.3
                                                                                    97.61%




Salaries and
 Expenses
   $127.7                                  Other Expenses
    1.12%                                        $11.6
                                                 0.10%
                  Interest Expense
                       $132.2
                       1.17%

     Totals $11,354.8 million, excluding reimbursements and earned revenues of $33.0 million.




                                             - 16 -
The following table shows financing sources (excluding changes in unexpended appropriations)
by type, amount, increase or decrease, and percentage change from fiscal year 2011 to fiscal
year 2012.


                                              FINANCING SOURCES
                                                  (In millions)

                                                                                 AMOUNT            PERCENT
                                                                                   OF                OF
                                                                                INCREASE          INCREASE
                                                 FY 2012        FY 2011        (DECREASE)        (DECREASE)

Appropriations used                              $    826.5     $    760.5        $     66.0             8.7

Taxes and other non-exchange revenues:
 Payroll taxes                                       4,768.6        4,696.7             71.9             1.5
 Interest revenue and other income                      42.2           41.6              0.6             1.4
 Carriers refunds – principal                           (5.7)          (2.4)            (3.3)         (138.5)
 Railroad Unemployment Insurance (RUI)
   revenue                                           209.7          172.8            36.9              21.4
     Subtotal                                    $ 5,014.8       $4,908.7         $ 106.1               2.2

Imputed financing (amount to be provided
 by the Office of Personnel Management
 (OPM) to pay future retirement benefits to
 RRB employees)                                          9.9          11.2               (1.3)         (11.6)

Transfers in:
  Financial Interchange, net                       4,248.1        3,885.6           362.5               9.3
  NRRIT                                            2,026.0        1,744.0           282.0              16.2
     Subtotal                                    $ 6,274.1       $5,629.6         $ 644.5              11.4

Other:
 Change in NRRIT net assets                          1,495.3     (1,641.0)            3,136.4         191.1

 Subtotal                                        $13,620.6       $9,669.0         $3,951.6             40.9

Less: Transfers out to NRRIT                            0.0             0.0              0.0            0.0
Add: Gain/(Loss) in Contingency                       134.8           (37.9)           172.7          455.7
    Subtotal                                          134.8           (37.9)           172.7          455.7

 Total                                           $13,755.4       $9,631.1         $4,124.3             42.8




The most significant difference between the RRB’s financial statements for fiscal year 2011 and
fiscal year 2012 was the change in NRRIT net assets. The increase in NRRIT net assets of
$1,495 million is due to market fluctuations during the past year. There is a section on page 20
that describes the NRRIT, and the NRRIT net assets balances for 2011 and 2012 are shown in
the RRB’s Financial Section of this publication.




                                                       - 17 -
                           FINANCING SOURCES (In Millions)
              $6,274.1                FY 2012
     6,000
                                             $5,014.8

     4,000



     2,000                                                                     $1,495.3
                             $826.5
                                                                 $9.9
         0
              Transfers   Appropriations   Taxes and Other     Imputed      Change in NRRIT
                 In           Used          Non-Exchange      Financing       Net Assets
                                              Revenues
    (2,000)



    (4,000)


Total Financing Sources $13,620.6 million, excluding $134.8 million gain contingency.



                           FINANCING SOURCES (In Millions)
                                      FY 2011
     6,000    $5,629.6
                                              $4,908.7


     4,000



     2,000
                              $760.5
                                                                                ($1,641.0)
                                                                 $11.2
         0
              Transfers   Appropriations   Taxes and Other Imputed Financing Change in NRRIT
                 In           Used          Non-Exchange                       Net Assets
                                              Revenues
    (2,000)



    (4,000)


 Total Financing Sources $9,669.0 million, excluding $37.9 million loss contingency.




                                            - 18 -
   Railroad Retirement Investments at Treasury

The book value of all railroad retirement investments, including accrued interest, increased to
$1,632.8 million as of September 30, 2012, from $1,494.2 million on September 30, 2011
(excludes NRRIT net assets). The graph below reflects the book value of the railroad retirement
investments from September 30, 2008, through September 30, 2012.


                INVESTMENT BALANCES HELD AT TREASURY (AT BOOK VALUE)
                                AT SEPTEMBER 30, 2008 - 2012

                               (In millions, excluding NRRIT net assets)



     $1,700.0                                                                         $1,632.8
     $1,600.0                                                         $1,494.2
     $1,500.0      $1,407.3
     $1,400.0                                       $1,299.9
     $1,300.0                      $1,191.2
     $1,200.0
     $1,100.0
                     2008              2009             2010               2011         2012


The following chart shows the portfolio of the railroad retirement investments as of
September 30, 2012.


                 RAILROAD RETIREMENT INVESTMENTS HELD AT TREASURY
                                       AS OF SEPTEMBER 30, 2012

                                 (In millions, excluding NRRIT net assets)


                                                                                  RR Account
                                                                                    $704.5
                                                                                     43%




                      SSEB
                     Account
                     $928.3
                       57%



                   AT BOOK VALUE
                      Total $1,632.8




                                               - 19 -
     Railroad Retirement Account

On September 30, 2012 and 2011, the book values of the RR Account investments, excluding
NRRIT assets, including accrued interest, totaled $704,533,913 and $697,396,746, respectively.
The balance on September 30, 2012, consisted of $703,531,000 in 3.000 percent par value
specials (with market value equal to face value) maturing on October 1, 2012, and $1,002,913
in accrued interest. The balance on September 30, 2011, consisted of $696,280,000 in
3.000 percent par value specials (with market value equal to face value) maturing on October 3,
2011, and $1,116,746 in accrued interest. Par value specials mature on the first working day of
the month following the month of issue and have a yield based on the average yield of
marketable Treasury notes with maturity dates at least 3 years away.

     Social Security Equivalent Benefit Account

On September 30, 2012 and 2011, the book values of the SSEB Account investments, including
accrued interest, totaled $928,271,039 and $796,827,566, respectively. The balance on
September 30, 2012, consisted of $926,882,000 in 3.000 percent par value specials maturing
on October 1, 2012, and $1,389,039 in accrued interest. The balance on September 30, 2011,
consisted of $795,547,000 in 3.000 percent par value specials maturing on October 3, 2011,
and $1,280,566 in accrued interest.

   National Railroad Retirement Investment Trust

The NRRIT was established by the Railroad Retirement and Survivors’ Improvement Act of
2001 (RRSIA). The sole purpose of the NRRIT is to manage and invest railroad retirement
assets. The NRRIT is a tax-exempt entity, independent from the Federal Government and not
subject to Title 31, United States Code (USC). The NRRIT is domiciled in and subject to the
laws of the District of Columbia.

The NRRIT is comprised of a Board of seven Trustees, three selected by railroad labor unions
and three by railroad companies. The seventh Trustee is an independent Trustee selected by
the other six. Members of the Board of Trustees are not considered officers or employees of
the Government of the United States.

The RRSIA authorizes the NRRIT to invest railroad retirement assets in a diversified investment
portfolio in the same manner as those of private sector retirement plans. Prior to the RRSIA,
investment of railroad retirement assets was limited to U.S. Government securities.

The NRRIT and the RRB are separate entities. The RRB remains a Federal agency and
continues to have full responsibility for administering the railroad retirement program, including
eligibility determinations and the calculation of benefit payments. The NRRIT has no powers or
authority over the administration of benefits under the railroad retirement program. Under the
RRSIA, the NRRIT is required to act solely in the interest of the RRB, and through it, the
participants and beneficiaries of the programs funded under the RRA. The RRSIA does not
delegate any authority to the RRB with respect to day-to-day activities of the NRRIT, but the
RRSIA provides that the RRB may bring a civil action to enjoin any act or practice of the NRRIT
that violates the provisions of the RRSIA or to enforce any provision of the RRSIA.




                                                  - 20 -
Under the RRSIA, the financial statements of the NRRIT are required to be audited annually by
an independent public accountant. In addition, the NRRIT must submit an annual management
report to the Congress on its operations, including a Statement of Financial Position, a
Statement of Operations, a Statement of Cash Flows, a Statement on Internal Accounting and
Administrative Control Systems, the independent auditor’s report, and any other information
necessary to inform the Congress about the operations and financial condition of the NRRIT. A
copy of the annual report must also be submitted to the President, the RRB, and the Director of
OMB.

Program, Operations, and Financial Performance and Results

During fiscal year 2012 (ended September 30, 2012), railroad retirement and survivor benefit
payments totaled $11.4 billion, net of recoveries and offsetting collections. Railroad
unemployment and sickness insurance benefit payments totaled $76 million in fiscal year 2012,
net of recoveries and offsetting collections. During fiscal year 2012, the RRB also paid benefits
on behalf of SSA (for which the RRB is reimbursed) amounting to $1.4 billion to about 114,000
beneficiaries.

In fiscal year 2012, the RRB continued to focus its efforts on providing excellent customer
service to current and former railroad workers and their family members. Our regular workloads
in fiscal year 2012 included:

   •   Providing payments to 573,000 retirement and survivor beneficiaries.
   •   Providing payments to 10,000 unemployment insurance beneficiaries.
   •   Providing payments to 17,000 sickness insurance beneficiaries.
   •   Processing 29,708 retirement, survivor, and disability applications for benefits and then
       determining eligibility (through May 2012).
   •   Processing 164,647 applications and claims for unemployment and sickness insurance
       benefits (through May 2012).
   •   Issuing 262,253 certificates of employee railroad service and compensation (mailed on
       June 15, 2012).

During fiscal year 2012, the RRB used 18 specific program performance objectives, including
several with multiple indicators, to manage and track progress in meeting its long-term strategic
plan goals. These objectives were accomplished with a direct appropriation of $108,649,264 for
ongoing administration of the RRB. (A breakdown of administrative expenses by strategic goal
is not available at the time of this report.) Agency performance with respect to the key
performance indicators is covered in the following section. For most performance measures,
actual full-year performance results for fiscal year 2012 were not available at the time this report
was published. For those objectives, we reported part-year performance information for fiscal
year 2012, if available. We also reported actual results from prior years, as applicable.

Summary of Achievement by Strategic Goal

Strategic Goal I: Provide Excellent Customer Service. For fiscal year 2012, we expect to
meet or exceed most of our timeliness goals and increase Internet services available to
employers.




                                               - 21 -
Strategic Goal II: Serve as Responsible Stewards for Our Customers’ Trust Funds and
Agency Resources. The RRB is committed to fulfilling its fiduciary responsibilities to the rail
community. For fiscal year 2012, we expect that benefit payment accuracy rates will exceed
99 percent.

Strategic Goals and Objectives

The RRB has a long and distinguished tradition of excellence in serving our customers, and we
will strive to continue that tradition in the coming years. We have achieved high levels of
accuracy and timeliness in processing retirement/survivor and unemployment/sickness
insurance benefits, while embracing new technology, especially in areas where it can improve
customer service and efficiency. We have also achieved very high scores for customer service
in independent assessments of our operations related to initial railroad retirement applications,
unemployment and sickness insurance benefits, survivor applications and disability applications.

The two overriding strategic issues for the upcoming planning period relate to customer service
and trust fund stewardship. The service issue involves our ability to continue to meet our
customers’ expectations for personal, high quality service, and our ability to position the agency
to meet rising customer expectations for new and improved services in the future. The
stewardship issue has multiple aspects, some of which arise from legislative changes and
others which relate to our ongoing ability to meet our program integrity responsibilities and to
maintain effective, efficient and secure agency operations. To effectively address these issues,
we have established two strategic goals on which we will focus our efforts.

 Provide excellent customer service

We aim to satisfy our customers’ expectations for quality service both in terms of service
delivery options and levels and manner of performance. Our Annual Performance Plan for
Fiscal Year 2012 reflects two strategic objectives that focus on the specifics of achieving this
goal.

   •   Pay benefits timely.
   •   Provide a range of choices in service delivery methods.

 Serve as responsible stewards for our customers’ trust funds and agency resources

The RRB is committed to fulfilling its fiduciary responsibilities to the rail community. Our
performance budget reflects four objectives that direct our focus on this goal.

   •   Ensure that trust fund assets are protected, collected, recorded and reported
       appropriately.
   •   Ensure the accuracy and integrity of benefit programs.
   •   Ensure effectiveness, efficiency, and security of operations.
   •   Effectively carry out responsibilities with respect to the NRRIT.

The RRB of the future will continue to be customer-focused, quality-driven, and fiscally
responsible. Our overall mission and responsibilities as a Federal agency will remain
unchanged, even though our organization may be smaller in terms of staff and budget
resources. We will use creativity, automation and innovation to continue to deliver best-in-class
service while ensuring cost-effective and efficient operations.



                                               - 22 -
Our customers will have a broad range of choices for conducting their business with the agency,
including more Internet options that will allow for private, secure transactions from their homes
at any time of the day. Railroad employers will be able to conduct most, if not all, of their routine
transactions with the RRB through secure and efficient electronic systems. Direct customer
feedback will shape our planning efforts and enhance our responsiveness. Our customer
service levels will serve as a standard of excellence for the rest of the Federal community.

The agency’s internal culture will reflect a strong commitment to its employees, and a drive to
ensure continual learning at all levels. Given the large percentage of employees who will be
eligible for retirement in the near future, senior employees will engage in knowledge transfer
and sharing as a top priority.

Our ultimate measures of success will be the sustained satisfaction level of our customers and
our ability to respond to their needs and concerns.

Validation of Performance Information. The RRB has implemented comprehensive
administrative procedures to ensure that reported performance information is accurate and
valid. Administrative Circular RRB-2 establishes standards and assigns responsibility for
collecting, documenting, validating, certifying, reporting and retaining information related to the
actual performance data reported for objectives in the RRB’s Annual Performance Plan and
Government Performance and Results Act Report.

The procedures require that reporting managers develop and maintain written procedures for:

   •   Collecting data related to each objective,
   •   Testing and validating performance data to ensure accuracy,
   •   Retaining source documents for future reference, and
   •   Attesting to the accuracy of performance information reported.

Members of the RRB’s Planning Council review the certified performance data and attestations
for completeness and identify any problems. The Planning Council also compiles the
performance data for agency reports, and monitors compliance with the requirements of
Administrative Circular RRB-2.

Members of the RRB’s Executive Committee review performance issues related to their areas of
responsibility and assign follow-up action, as necessary. The Executive Committee also
reviews and approves performance reports before releasing the drafts for approval by the Board
Members.

                            __________     __________      __________


The following begins a discussion of our key performance indicators.




                                               - 23 -
Discussion of Key Performance Indicators

The RRB has identified the following 10 key performance indicators, which represent our most
important responsibilities.

Key performance indicator 1: Initial recurring retirement payment accuracy
(Objective II-B-1a)

Our overall strategic goal is to achieve a railroad retirement benefit payment recurring accuracy
rate of at least 99 percent on our initial processing of applications for retirement (employee,
spouse and widow) benefits.

FY 2012 goal:            99.75%
Our FY 2012 performance: Not available                       Initial Retirement Payment Accuracy

Full-year data will be available in fiscal year            100%
2013.
                                                            99%
FY 2011 goal:            99.75%
Our FY 2011 performance: 99.79%                             98%
                                                                    FY 09    FY 10    FY11     FY12

We met our goal.                                           Goal     99.75%   99.75%   99.75%   99.75%
                                                           Actual   99.59%   99.58%   99.79%    N/A
Automation plays a key role in assuring initial
benefit payment accuracy by reducing the
number of erroneous payments. Automation will become more critical in this area as
experienced personnel retire in the coming years.

Data definition: This is the percentage of the dollar value of initial recurring retirement benefit
payments paid correctly as a result of adjudication actions performed, based on a review of a
sample of cases.




                                                  - 24 -
Key performance indicator 2: Unemployment insurance payment accuracy
(Objective II-B-2a)

Our overall strategic goal is to achieve a railroad unemployment insurance benefit payment
accuracy rate of at least 99 percent.

FY 2012 goal:               99.60%
Our FY 2012 performance: 99.66%                           Unemployment Insurance Payment
              through the quarter                                     Accuracy
                                                           (FY 12 actual is through 3/31/12)
We are achieving our goal. Automation plays
a key role in assuring benefit payment accuracy        100%
by reducing the number of erroneous payments.
                                                        99%
FY 2011 goal:            99.60%
Our FY 2011 performance: 100%                           98%
                                                                 FY09      FY10      FY11         FY 12

Data definition: This is the percentage of the        Goal      99.25%    99.40%    99.60%        99.60%
dollar value of unemployment insurance benefit        Actual    98.93%     100%      100%         99.66%
payments paid correctly as a result of
adjudication actions performed, based on a
review of a sample of cases.


Key performance indicator 3: Sickness insurance payment accuracy (Objective II-B-2b)

Our overall strategic goal is to achieve a railroad sickness insurance benefit payment accuracy
rate of at least 99 percent.

FY 2012 goal:                  99.85%
Our FY 2012 performance: 100%                                 Sickness Insurance Payment
                through the quarter                                    Accuracy
                                                             (FY 12 actual is through 3/31/12.)
We are achieving our goal. Automation plays
a key role in assuring benefit payment accuracy
by reducing the number of erroneous payments.          100%


FY 2011 goal:            99.85%                         99%
Our FY 2011 performance: 99.71%
                                                        98%
                                                                 FY09      FY 10     FY 11        FY 12
Data definition: This is the percentage of the
dollar value of sickness insurance benefit            Goal      99.80%    99.80%     99.85%       99.85%
payments paid correctly as a result of                Actual    99.70%    99.94%     99.71%       100%
adjudication actions performed, based on a
review of a sample of cases.




                                             - 25 -
Key performance indicator 4: Timeliness of initial railroad retirement annuity payments,
when advanced filed (Objective I-A-1)

FY 2012 goal:              95.00%
Our FY 2012 performance: 96.1%
              through the quarter                       The RRB makes a decision to pay or
                                                        deny a railroad retirement employee
We are exceeding our goal. Automation plays a           or spouse initial annuity application
key role in assuring benefit payment timeliness for    within 35 days of the annuity beginning
this performance indicator.                                    date, if advanced filed.
                                                          (FY 12 actual is through 3/31/12.)
FY 2011 goal:            92.75%
Our FY 2011 performance: 96.0%                         100%

                                                        95%
Data definition: This goal is included in the RRB
Customer Service Plan.                                  90%

                                                        85%
                                                                FY09     FY 10    FY 11     FY 12

                                                       Goal     92.00%   92.75%   92.75%    95.0%
                                                       Actual   94.86%   96.16%   96.0%     96.1%




Key performance indicator 5: Timeliness of initial railroad retirement annuity payments, if
not advanced filed (Objective I-A-2)

FY 2012 goal:               96.8%
                                                          The RRB makes a decision to pay or
Our FY 2012 performance: 98.0%
                                                        deny a retirement employee or spouse
              through the quarter                          initial annuity application within 60
                                                          days of the date the application was
We are exceeding our goal. Automation plays a           filed. (FY 12 actual is through 3/31/12.)
key role in assuring benefit payment timeliness for
this performance indicator.
                                                       100%

FY 2011 goal:            96.8%                          98%
Our FY 2011 performance: 97.9%
                                                        96%
Data definition: This goal is included in the RRB
Customer Service Plan.                                  94%
                                                                FY 09    FY 10    FY 11     FY 12

                                                       Goal     96.8%    96.8%    96.8%     96.8%
                                                       Actual   97.0%    96.9%    97.9%     98.0%




                                              - 26 -
Key performance indicator 6: Timeliness of new survivor benefit payments
(Objective I-A-3)

FY 2012 goal:               94.0%
Our FY 2012 performance: 94.4%
              through the quarter                              RRB m akes a decision to pay, deny or transfer
                                                                  to SSA an initial annuity application for a
We are achieving our goal. Automation                           retirem ent survivor not already receiving a
plays a key role in assuring benefit payment                   benefit w ithin 60 days of the annuity beginning
                                                                   date or date filed, (w hichever is later).
timeliness for this performance indicator.
                                                                           (FY 12 is through 3/31/12.)
                                                              100%
FY 2011 goal:            93.5%
Our FY 2011 performance: 96.3%                                 95%

Data definition: This goal is included in the                  90%
RRB Customer Service Plan. The indicator
was restated in our final performance budget                   85%
for fiscal year 2010 to more accurately
describe how timeliness is measured. The                       80%
                                                                       FY 09       FY 10      FY 11      FY 12
current goal is stated in the chart at the right.
                                                             Goal      94.0%       93.0%      93.5%      94.0%
                                                             Actual    94.4%       96.1%      96.3%      94.4%




Key performance indicator 7: Timeliness of spouse to survivor benefit payment
conversions (Objective I-A-4)

FY 2012 goal:               95.2%
Our FY 2012 performance: 94.7%
                                                                  RRB makes a decision to pay, deny or
              through the quarter                              transfer to SSA an initial annuity application
                                                              for a survivor already receiving benefits as a
We are not yet achieving our goal, but we                       spouse within 30 days of the RRB's receipt
expect to meet the goal by the end of                             of first notice of the employee's death.
fiscal year 2012. Automation plays a key                              (FY 12 actual is through 3/31/12.)
role in assuring benefit payment timeliness
for this performance indicator.                              100%

FY 2011 goal:            95.2%                                95%
Our FY 2011 performance: 95.8%
                                                              90%

Data definition: This goal is included in the                 85%
RRB Customer Service Plan. The indicator
was restated in our final performance budget                  80%
                                                                      FY 09       FY 10      FY 11       FY 12
for fiscal year 2010 to more accurately
describe how timeliness is measured. The                     Goal     95.1%      95.1%       95.2%      95.2%
current goal is stated in the chart at the right.            Actual   95.4%      95.3%       95.8%      94.7%




                                                    - 27 -
Key performance indicator 8: Timeliness of unemployment or sickness insurance
payments (Objective I-A-6)

FY 2012 goal:               99.8%
Our FY 2012 performance: 99.9%                            RRB certifies a payment or releases a
              through the quarter                           letter of denial of UI or SI benefits
                                                           within 10 days of the date the RRB
We are meeting our goal. Automation plays a key                     receives the claim.
role in assuring benefit payment timeliness for this         (FY 12 actual is through 3/31/12.)
performance indicator.
                                                        100.0%
FY 2011 goal:            99.8%                           99.8%
Our FY 2011 performance: 99.9%                           99.6%
                                                         99.4%
Data definition: This goal is included in the RRB
                                                         99.2%
Customer Service Plan.
                                                         99.0%
                                                                    FY 09     FY 10    FY 11    FY 12

                                                         Goal       99.8%     99.8%    99.8%    99.8%
                                                         Actual     99.8%     99.9%    99.9%    99.9%




Key performance indicator 9: Timeliness of disability decisions (Objective I-A-7)

FY 2012 goal:               70.0%
Our FY 2012 performance: 74.3%
                                                         The RRB makes a decision to pay or
              through the quarter
                                                        deny a benefit for a disabled applicant
                                                         or family member within 100 days of
We are exceeding our goal.
                                                            the date the application is filed.
                                                           (FY 12 actual is through 3/31/12.)
FY 2011 goal:            70.0%
Our FY 2011 performance: 67.5%
                                                       100%

Data Definition: This goal is included in the RRB       80%
Customer Service Plan.
                                                        60%

                                                        40%
                                                                  FY 09     FY 10     FY 11    FY 12

                                                       Goal       70.0%     70.0%     70.0%    70.0%
                                                       Actual     62.5%     68.9%     67.5%    74.3%




                                              - 28 -
Key performance indicator 10: Return on investment in program integrity activities
(Objective II-B-4)

FY 2012 goal:            $4.28 : $1
Our FY 2012 performance: Not available                       Achieve a return of at least $3.60 for
                                                            each dollar spent on program integrity
FY 2011 data will be available in FY 2012.                                activities.

FY 2011 goal:            $3.60 : $1                        $6.00
Our FY 2011 performance: $5.46 : $1
                                                           $4.00

We exceeded our goal. In November 2010, we                   $2.00
discovered that not all program integrity cost
information was being used to compile the                    $0.00
                                                                    FY 09   FY 10   FY 11   FY 12
program integrity ratio – most significantly, the
cost of a major monitoring activity was not being           Goal    $5.36   $5.48   $3.60   $4.28
captured, even though the benefits of that                  Actual  $4.20   $5.51   $5.46    N/A
process were included. As a result, we
recomputed the program integrity ratio for fiscal
year 2009 using the updated cost amounts. We have also adjusted the fiscal year 2011 target
for this indicator from $5.48: $1.00, to an adjusted level of $3.60: $1.00, which is consistent with
the initial statement of the objective.

As part of our fiduciary responsibilities to the rail community, we must ensure that the correct
benefit amounts are being paid to the right people. We match our benefit payments against
SSA’s earnings and benefits database, the Centers for Medicare & Medicaid Services’ utilization
and death records, the Office of Personnel Management’s benefit records, and State wage
reports, usually via computer tapes, and administer other benefit monitoring programs to identify
and prevent erroneous payments. We also refer some cases to the RRB’s OIG for investigation.
After investigation, the OIG may pursue more aggressive collection methods, which include civil
and criminal prosecution.

Data definition: This is the ratio of the sum of the dollar recoveries and savings, to the labor
dollars spent.




                                               - 29 -
Future Plans/Objectives

    Program Improvements

•     Patient Protection and Affordable Care Act The Patient Protection and Affordable
      Care Act of 2010 provides for an Income-Related Monthly Adjustment Amount (IRMAA) to
      be added to the Medicare prescription drug plan (Part D) premiums paid by high-income
      beneficiaries beginning in January 2011. This provision allows for the collection of Part D
      IRMAA through withholding from railroad retirement benefit checks or through direct
      billing. We implemented Part D IRMAA collection in January 2011 through direct billing,
      utilizing the existing Program Accounts Receivable system. Work is now proceeding to
      implement premium withholding from railroad retirement benefit checks.

•     Employer Reporting System (ERS) – Internet Site In Phase 4 of the ERSNet project,
      we are currently developing automated access to the Forms ID-40 series of RUIA
      contribution notices; the ID-6 series of tax notices; and the Form G-88a.2, which requests
      annuity eligibility information from rail employers. This will result in three additional on-line
      services implemented by the end of fiscal year 2012.

      In fiscal year 2013, we will continue our development of automated processes to notify
      employers of errors or the need for additional information and provide a means for
      correcting the data. These include requests for verification of last date on the payroll
      (Form G-88a.1) and for the payment of supplemental annuities (Form G-88p). We also
      plan to develop an automated referral process to notify employers of the agency's right to
      reimbursement of benefits paid under section 12(o) of the RUIA. Development of the
      ID-30 series and ID-3 series notices will result in three (3) additional services for a total of
      five in fiscal year 2013.

      Starting in fiscal year 2014, we plan to develop additional record correction forms (Forms
      GL-99, Deemed Service Questionnaire and GL-132, Notice of Service After ABD).
      Automating these processes will give us direct contact with the responsible official and
      provide a means for immediate correction of the data. We plan to develop another on-line
      employer reporting form (Form BA-9, Report of Separation Allowance or Severance Pay)
      and the contact official form (G-117a). When implemented, these will add four more
      services to the system. Replacing these paper-based processes continues to improve
      customer service by accelerating initial annuity processing, and enhances stewardship of
      the trust funds by securing and protecting personally identifiable information.

    Improper Payments Information Act (IPIA)

•     Improper Payment Related Initiatives To improve the accuracy of our benefit
      payments, we are pursuing the following initiatives:

      o   development of an enhanced automated retirement payment system to replace the
          current legacy system that processes retirement applications, planned for calendar
          year 2012,
      o   development of an interface between systems to ensure accurate use of military
          service in the calculation of benefits, tentatively scheduled for completion in calendar
          year 2012,




                                                - 30 -
     o work on the expansion of a Medicare premium collection database to include Part B
       premium withholding history is expected to begin in fiscal year 2013,
     o development of an interface between ORCS (Overpayment Recovery Correspondence
       System) and payment programs to insure that the most current data is retrieved and
       used in the development of cases involving overpayment recovery. Current plans are
       to complete this initiative by the end of fiscal year 2012,
     o continued development of SPEED (System Processing Excess Earnings Data), a
       multi-phase automation initiative designed to process annuity adjustments resulting
       from excess earnings and work deductions on a timely basis. We are currently
       working on SPEED Version 6.1 which we expect to complete by the end of calendar
       year 2012.
     o development in fiscal year 2012 of enhanced electronic data processing (EDP) policing
       to monitor earnings information and reduce manual handlings of records.

See the IPIA reporting details for further discussion of these automation initiatives.

   Systems and Controls

The RRB continually evaluates the effectiveness and efficiency of its operations using ongoing
assessments and reviews of management controls, internal and external audits, quality control
and assurance reviews, program integrity activities, and customer satisfaction surveys.

Under the direction of a Management Control Review Committee (MCRC) composed of senior
managers from its legal program, information services, administrative, and financial operations,
the RRB has divided these operations functionally into 44 assessable units. The number of
assessable units can vary from year to year as operations are restructured to accommodate
changes precipitated by such factors as new and revised missions, reduced resources, and
increased automation.

The mission, key performance indicators, workflow, control objectives and techniques,
guidance, automated systems support, impact, and vulnerability of each assessable unit are
documented. The RRB maintains and annually updates a 5-year plan for review of the
assessable units. The official responsible for each assessable unit prepares an annual
assessment of key indicators and open or new issues requiring management’s attention. High
impact and vulnerable assessable units are scheduled for more frequent, in-depth reviews as
deemed necessary by the MCRC in consultation with senior management. During fiscal year
2012, responsible officials performed in-depth reviews of 6 assessable units, assessed all 44,
and certified 40.

In fiscal year 2011, the OIG identified Budgetary Reporting as a material weakness. In fiscal
year 2012 the OIG has determined that there is still a material weakness in Budgetary
Reporting. The agency has developed three new controls for budgetary reporting.

During the fiscal year 2011 evaluation of the agency’s information security pursuant to the
provisions of the Federal Information Security Management Act (FISMA), the OIG identified a
new significant deficiency regarding Information Technology Security – Configuration
Management. FISMA significant deficiencies are reported as material weaknesses for the
financial statement audit. In fiscal year 2012 the OIG has determined that there is still a
material weakness in Information Technology Security – Configuration Management. The
agency is implementing the MAVE project to upgrade all current applications residing on


                                               - 31 -
Windows 2000 servers. This project will allow the agency to remove the Windows 2000 servers
after implementation.

In fiscal year 2012, the OIG has determined that there is still an Information Technology
Security – Risk Management Framework material weakness in the security authorization
(previously C&A) and continuous monitoring review process that includes complete, accurate,
and trustworthy documentation. Their inspection determined that the activities conducted by the
RRB for the authorization and continuous monitoring process do not fully comply with existing
policy, procedures, guidance, and standards. The agency is addressing these concerns and the
Chief Information Security Officer has been tasked to develop training to ensure that RRB staff
involved in the authorization and continuous monitoring process can perform this process
adequately and meet the requirements set forth by the OIG.

The agency is committed to resolving these reported weaknesses and will closely monitor
progress during fiscal year 2013.




                                            - 32 -
                                  Management Assurances


The Railroad Retirement Board states and assures that to the best of our knowledge:

1. In accordance with OMB Circular No. A-123, Section VI (B), we are issuing a qualified
   statement of assurance considering the OIG-identified material weaknesses indicated under
   paragraph (4). Except as indicated under (4), the system of internal control of this agency is
   functioning and provides reasonable assurance as to the: efficiency and effectiveness of
   programs and operations; reliability of financial and performance information; and
   compliance with laws and regulations. These controls satisfy the requirements of the
   Federal Managers’ Financial Integrity Act (FMFIA) §2.

2. The financial management systems of this agency maintain accountability for assets and
   provide reasonable assurance that obligations and costs are in compliance with applicable
   law, and that performance data and proprietary and budgetary accounting transactions
   applicable to the agency are properly recorded and accounted for to permit the timely
   preparation of accounts and reliable performance information. The financial management
   systems at this agency satisfy the requirements of the FMFIA §4.

3. The financial management systems of this agency provide the agency with reliable, timely,
   complete, and consistent performance and other financial information to make decisions and
   efficiently operate and evaluate programs and substantially satisfy the requirements of the
   GPRA and OMB Circular No. A-11.

4. The RRB’s Inspector General, in his auditor’s report, identifies Information Technology
   Security – Risk Management Framework, Information Technology Security – Configuration
   Management, and Budgetary Reporting as material weaknesses.


                     Description of OIG-Identified Material Weaknesses

1. During fiscal year 2011, the OIG inspected the internal control environment regarding the
   authorization and continuous monitoring process, which includes risk assessments and
   testing and evaluation of security controls and is still considered to be a material weakness
   for Information Technology Security – Risk Management Framework.

   In fiscal year 2012, the RRB continued to strengthen the information security review process
   but the material weakness still exists and will continue to be reported as such for fiscal year
   2012.

2. The OIG also identified Information Technology Security – Configuration Management as a
   material weakness in fiscal year 2011. Corrective actions are in place but the material
   weakness still exists and will continue to be reported as such for fiscal year 2012.

3. During fiscal year 2011, the OIG identified Budgetary Reporting as a material weakness.
   The agency has added additional controls for the budgetary reporting process, but the
   material weakness still exists and will continue to be reported as such for fiscal year 2012.

                                                                                Original signed by:

                                                                  Michael S. Schwartz, Chairman
                                                                Walter A. Barrows, Labor Member
                                                           Jerome F. Kever, Management Member

                                              - 33 -
   Financial Management Systems Strategy

The RRB has continually upgraded its financial system structure to meet evolving standards and
requirements. Our strategy is, and has been, to continually upgrade and improve the financial
management systems structure. The RRB is committed to an integrated and automated
financial management system that focuses on the agency’s mission and accountability. Our
goals are to (1) achieve compliance with applicable laws, regulations, standards, and
requirements; (2) identify requirements for financial systems support; (3) improve and facilitate
user access to financial information; (4) reduce redundant data entry, storage, and processing;
and (5) improve security, control, and disaster recovery capability for information processed and
stored on mainframe, local area network, and personal computer systems.

The financial management system of the RRB is considered a major application for certification
and accreditation purposes. Other major applications include the financial interchange and the
payment of benefits under the RUIA and RRA.

In the current financial management system area, core financial management functions are
centralized in a mainframe-based system (the Federal Financial System (FFS)) which continues
to be under a maintenance contract between the RRB and CGI. FFS met the Core Financial
System Requirements that were established by the former Joint Financial Management
Improvement Program. The last major upgrade to the system by the contractor was in 1999 to
make the system year 2000 compliant. Since then, the RRB has relied on its own
administrative and information technology (IT) staff to ensure that the RRB’s core financial
system remains able to meet current and future requirements.

Following the KPMG LLP assessment of the RRB’s core financial management system (FFS) in
2010, the agency completed an OMB Exhibit 300 (Capital Asset Plan and Business Case
Summary) for submission with its fiscal year 2013 budget request that secured the
Development/Modernization Enhancement (DME) funding required for migration. In addition,
fiscal year 2011 funds were used to retain contractual services for pre-migration activities that
were completed in fiscal year 2012 and resulted in the award of a contract to CGI Federal, Inc.
for the implementation, migration and hosting of the Financial Management Integrated System
(FMIS). The award, which followed a full and open competition, was based on a comprehensive
technical evaluation by a panel representing major stakeholders in the RRB’s financial
management system combined with the offeror’s cost proposal to reach the best value for the
agency. The RRB’s current financial management system, FFS, will be migrated to CGI’s
proprietary software platform – Momentum Financials. Momentum Financials represents the
next generation of financial management software after FFS. The migration of the RRB’s
financial management system will close performance gaps with Federal Systems Integration
Office (FSIO) requirements, eliminate the future risk of maintaining a legacy system in-house
and comply with OMB initiatives on cloud-first computing and Financial Management Line of
Business (FMLOB) guidance for migration planning.

   Summary of Actuarial Forecast

The Statement of Social Insurance presents an actuarial analysis of the financial position of the
railroad retirement system as of January 1, 2012, under our intermediate employment
assumption. The Required Supplementary Information presents sensitivity analyses showing
the impact of changes in employment and investment return assumptions. Although under our
intermediate assumption no cash flow problems arise over the period 2012-2086, the sensitivity
analyses show that, under the current financing structure, actual levels of railroad employment
and investment return over the coming years will determine whether additional corrective action
is necessary.

                                              - 34 -
Section 7105 of the Technical and Miscellaneous Revenue Act of 1988 requires the RRB to
submit an annual report to Congress on the financial status of the railroad unemployment
insurance system. Projections were made for the various components of income and outgo
under each of 3 employment assumptions for the 11 fiscal years 2012-2022. The results
indicate that, except for short-term cash flow problems under the pessimistic assumption, the
Railroad Unemployment Insurance (RUI) Account will be solvent during the 11-year projection
period.

Social Insurance: Key Measures

Balance Sheet: The Balance Sheet displayed on page 58 presents our assets, liabilities, and
net position. Total assets for fiscal year 2012 are $30.1 billion, a 6.6% increase over last year.
Of the total assets, $23.6 billion relates to funds held by the National Railroad Retirement
Investment Trust (NRRIT). The net asset value of funds held by the NRRIT increased from
fiscal year 2011 by 6.8%. Our investments total $1.6 billion and we invest those funds not
needed to pay current expenses or benefits in interest bearing Treasury securities. A chart of
investment balances held at Treasury can be found on page 19. Total liabilities for fiscal year
2012 are $4.9 billion. Liabilities decreased in fiscal year 2012 principally because of a decrease
of borrowing from Treasury. Also, benefits due decreased by $7.5 million. By statute, benefits
due in September are not paid until October.

Statement of Net Cost: The Statement of Net Cost displayed on page 59 presents the annual
cost of operating our two major programs: railroad retirement and railroad unemployment
insurance. In fiscal year 2012, our net cost of operations was $11.7 billion, an increase over
last year of $336.0 million, or 3.0%. A chart for the net cost of operations for fiscal years 2012
and 2011 can be found on page 15.

Statement of Changes in Net Position: The Statement of Changes in Net Position displayed
on page 60 reflects the changes that occurred within cumulative results of operations and
unexpended appropriations. Total net position for 2012 is $25.1 billion. The statement shows
an increase in the net position of the agency of $2.1 billion attributable to the change in
cumulative results of operations. Total financing sources for 2012 are $13.8 billion. A chart for
financing sources for fiscal years 2012 and 2011 can be found on page 17.

Statement of Social Insurance: Federal accounting standards require the presentation of a
Statement of Social Insurance as a basic financial statement. The Statement of Social
Insurance presents estimates of the present value of the income to be received from or on
behalf of current and future participants of the Railroad Retirement program, the present value
of the cost of providing scheduled benefits to those same individuals, and the difference
between the income and cost. The Statement of Social Insurance covers a period of 75 years
in the future, and the information and disclosures presented are deemed essential to the fair
presentation of this statement.

The open group as of the valuation date includes current participants who have attained
retirement age under the Railroad Retirement program, current participants who have not yet
attained retirement age, and those expected to become participants, or new entrants. The
closed group as of the valuation date includes only current participants: (1) those who have not
yet retired but are active workers paying payroll taxes, (2) those who have retired and are
receiving benefits, and (3) those who are not currently working but have sufficient service to be
eligible for future benefits. The closed group measure represents a reasonably good estimate
of the extent to which benefits of the closed group are funded by members of the closed group.
The open group measure is inherently more sensitive to assumptions about the distant future

                                              - 35 -
    than the closed group measure. The open group measure gives a more complete assessment
    of the long-term financial stability of the program because it includes all those who are projected
    to be participants in the program over the given projection period, whether paying payroll taxes
    or receiving benefits.

    The net present value (NPV) of future expenditures less future revenue (net expenditures) for all
    participants over the next 75 years (open group) decreased from $25.2 billion as of
    December 31, 2010 to $22.7 billion as of December 31, 2011, a net change in the open group
    measure of ($2.5) billion.

    As can be seen on the Statement of Changes in Social Insurance Amounts, the largest change
    in the open group measure, $2.2 billion, is due to changes in economic data and assumptions.
    Both ultimate and select assumptions for COLA, wage increase rate, and investment return
    were updated in 2012, as described in the footnotes to the Statement of Changes. Between
    December 31, 2010 and December 31, 2011, the fund balance decreased by about $2.1 billion.
    The change in the valuation period (from 2011-2085 to 2012-2086) had a lesser effect, resulting
    in a change of about $0.1 billion in the open group measure. There were changes in
    demographic assumptions, as described in the Notes to the Statement of Changes, as well as
    updates to demographic data, but these had a relatively small effect, resulting in a change of
    about $0.3 billion. This year there were no changes in law, policy, or methodology and
    programmatic data.


                                       TABLE               OF         KEY           MEASURES
                                                                                                                  Increase        /    (Decrease)
               Dollars in MILLIONS                                FY 2012                  FY 2011
                                                                                                                      $                    %



Total Financing Sources                                              $13,755.4               $ 9,631.1             4,124.3                   42.82
     Less: Net Cost                                                   11,657.7                11,321.8               336.0                    2.97
Net Change of Cumulative Results of Operations                         2,097.7                ($1,690.7)           3,788.3                 224.07


NET
Assets                                                               $30,054.9               $28,201.2             1,853.7                    6.57
Liabilities                                                            4,923.3                  5,165.5              (242.2)                 (4.69)
Net Position (Assets minus Liabilities)                               25,131.6               $23,035.7             2,095.9                    9.10



                                                                                                                  Increase        /    (Decrease)
               Dollars in BILLIONS                               1/1/2012                  1/1/2011
                                                                                                                      $                    %

SOCIAL
Social Insurance Net Expenditures (Open Group)                           $22.7                    $25.2                  ($2.5)                (9.9%)

1   Source: Consolidated Statement of Net Cost and Statement of Changes in Net Position.
2   Source: Consolidated Balance Sheet.
3   Source: Statement of Social Insurance (SOSI). Social insurance amounts cover calendar year timeframes January 1 through December 31. Amounts
    equal estimated present value of projected revenues and expenditures for scheduled benefits over the next 75 years. The Statement of Social
    Insurance shows future revenue less future expenditures while the Key Measure above shows future expenditures less future revenue. This change in
    presentation is done to eliminate any ambiguity in the interpretation of percentage changes in negative amounts.




                                                                       - 36 -
American Recovery and Reinvestment Act of 2009

Under the ARRA, the RRB administered two major benefit programs. These are:

    Economic Recovery Payments (ERP). This program, authorized by Section 2201 of the
     ARRA, provided for one-time payments of $250 to eligible adult beneficiaries under the
     RRA. The RRB paid $128,718,500 to 514,874 individuals in late May 2009. Additional
     people were paid through six quarterly catch-up runs scheduled through the end of the
     program on December 31, 2010. The catch-up runs resulted in an additional $1,405,500
     paid to an additional 5,622 individuals.

       In accordance with guidance from OMB, we conducted a risk assessment of this
       program to ensure that funds are being awarded and distributed as authorized by law
       and that risks of waste, fraud and abuse are mitigated through reasonable and effective
       management controls.

       The results of the risk assessment indicated that the risks associated with the ERP
       program were low. This was primarily due to the following factors:

          we were able to use many previously existing, tested and reliable systems to assist
           in making these payments;
          we had experienced staff in place who were familiar with claims adjudication;
          the benefit to be paid was a standard, fixed amount for all beneficiaries; and
          we were working with other agencies that also had experienced staff and existing
           systems in place to assist with the overall program.

    Extended Unemployment Benefits. This program, authorized by Section 2006 of the
     ARRA, provided for up to 13 weeks of additional extended unemployment benefits to rail
     employees who had already exhausted their unemployment benefits under the RUIA.
     An appropriation of $20 million was made available to fund this program. The RRB
     began making payments and mailing claims for these special extended unemployment
     benefits on June 30, 2009. As of May 2011, claims and payments of unemployment
     benefits under ARRA have ended and the RRB had paid out over $11 million.

       Because the Extended Unemployment Benefits program is directly related to the regular
       unemployment insurance program, it is assessed as part of our normal quality
       assurance process for the RUIA program.

For more detailed information on the RRB’s ARRA programs, see
http://www.rrb.gov/recovery/default.asp.

Worker, Homeownership and Business Assistance Act (WHBAA) of 2009

In November 2009, the President signed the WHBAA which extended the previous ARRA
provisions. WHBAA provided for the payment of extended unemployment benefits to anyone
who claimed unemployment benefits during the period July 1, 2008, through June 30, 2010,
thus increasing the pool of eligible recipients. WHBAA allowed for the same number of days of
extended benefits (65 days) and also included an additional appropriation of $175 million. The
RRB began making payments under WHBAA on November 6, 2009, and has paid
approximately $20.2 million of these extended benefits through December 16, 2010. The latest
date that a WHBAA extended benefit period could begin was December 31, 2010.



                                             - 37 -
Tax Relief, Unemployment Insurance Reauthorization, and Job Creation Act of 2010

In December 2010, President Obama signed the Tax Relief, Unemployment Insurance
Reauthorization and Job Creation Act of 2010 (“the Tax Relief Act”) which extended the
previous WHBAA provisions. The Tax Relief Act provided for the payment of up to 65 days of
additional extended unemployment benefits to anyone who claimed unemployment benefits
during the period July 1, 2010 through June 30, 2011. These benefits were paid from the above
mentioned WHBAA appropriation of $175 million. It also sustained the voluntary tax withholding
rate for unemployment claims at 10% and reduced the Tier 1 tax rate (during calendar year
2011 only) for sickness benefits by 2 percentage points.

The RRB began making payments under this Act on December 17, 2010, and paid
approximately $10 million of these extended benefits through February 21, 2012. The latest
date that an extended benefit period could begin under the Tax Relief Act is December 31,
2011.

Middle Class Tax Relief and Job Creation Act of 2012

In February 2012, President Obama signed the Middle Class Tax Relief and Job Creation Act of
2012 which further extended the WHBAA provisions by providing for the payment of additional
extended unemployment benefits to anyone who claimed through June 30, 2012. The benefits
will be paid from the remaining WHBAA appropriation of $175 million. It also sustains the
2 percentage point reduction of the Tier 1 tax rate during calendar year 2012 for sickness
benefits.

The RRB began making payments under this Act on February 22, 2012, and has paid
approximately $3.1 million of these extended benefits through May 30, 2012. The latest date
that an extended benefit period may begin under the Middle Class Tax Relief and Job Creation
Act is December 31, 2012.

Limitations of the Financial Statements

The limitations of the principal financial statements are as follows:

   1. The principal financial statements have been prepared to report the financial position and
      results of operations of the entity, pursuant to the requirements of 31 USC 3515(b).

   2. While the statements have been prepared from the books and records of the entity in
      accordance with U.S. generally accepted accounting principles for Federal entities and
      the formats prescribed by OMB, the statements are in addition to the financial reports
      used to monitor and control budgetary resources which are prepared from the same
      books and records.

   3. The statements should be read with the realization that they are for a component of the
      U.S. Government, a sovereign entity.




                                               - 38 -
            PERFORMANCE SECTION –

GOVERNMENT PERFORMANCE AND RESULTS ACT (GPRA)
                  REPORT
PAGE INTENTIONALLY LEFT BLANK
Performance Section - Government Performance and Results Act (GPRA) Report


The following performance report is based on the major goals and objectives for fiscal year 2012
from the RRB’s Annual Performance Plan. The indicators we developed support our mission
and communicate our intentions to meet challenges and seek opportunities for greater
efficiency, effectiveness and economy.

To achieve our performance goals, the RRB holds managers accountable for achieving program
results and improving program effectiveness by focusing on results, service quality and
customer satisfaction. In addition, the annual performance plan is used to help managers
improve service delivery by requiring that they plan for meeting program objectives and by
providing them with information about program results and service quality. To provide
reasonable assurance that the reported performance information is relevant and reliable,
performance goals are incorporated into performance standards for managers and supervisors
and monitored on an agency-wide basis.

Automation, e-Government and Customer Service Initiatives

The RRB is continuing with long-term plans to implement significant automation initiatives and
other improvements. These changes have enabled the agency to operate with reduced
resources in recent years and continue to streamline our operations with the assistance of
information technology. We believe that significant new investments in information technology
and further management improvements will help us to meet or exceed our customer service
goals efficiently.

Phase 3 of the Employer Reporting System (ERS), which was completed in fiscal year 2011,
implemented an Internet-based version of Forms BA-3, Annual Report of Service and
Compensation, and BA-11, Report of Gross Earnings. In fiscal year 2012, we continued to work
on Phase 4 to automate access to the Forms ID-40 series Railroad Unemployment Insurance
Act (RUIA) contribution notices; the ID-6 series tax notices; and the Form G-88a.2, which
transmits annuity eligibility information. This will result in three additional on-line services to rail
employers when the work is completed.

Work continued on SPEED (System Processing Excess Earnings Data), an automation initiative
designed to process post-entitlement annuity adjustments in both retirement and survivor cases
that result from excess earnings and work deductions. SPEED allows the RRB to adjust annuity
payments for earnings on a timely basis, which minimizes any underpayments or overpayments
that may result from changes in earnings. SPEED Phases 1 through 5 are currently in
production. Phase 6 is divided into two parts: Retirement Processing and Survivor Processing,
to be worked simultaneously. Phase 6 Retirement is expected to initiate or adjust regular and/or
Last Pre-retirement Non-Railroad Employer (LPE) work deductions when an estimated work
report is entered. Phase 6 Survivor is expected to download survivor current-year earnings
estimates from the survivor payments system, create an estimate report, suspend the annuity (if
necessary), calculate withholding, establish a reinstatement call-up and release a notification
letter to the annuitant. Current plans are to complete the next phase of the survivor processing
by the end of calendar year 2012. The next phase of the retirement processing is expected to
be competed in calendar year 2013.




                                                 - 41 -
Work continued during fiscal year 2012 on an enhanced automated retirement payment system
which will replace the current legacy system that processes retirement applications. The
enhanced process will improve the accuracy and efficiency of retirement initial claims, as it will
automatically interface with the Social Security Administration’s benefit payment system to
provide real-time offset data. The new system will also allow for the payment of such application
types as divorced spouse annuitants, which previously could not be processed automatically. As
of June 2012, the target for completion of the enhanced system is calendar year 2012. Future
enhancements include the development of a system interface to ensure the accurate use of
military service in the calculation of benefits.

Work also continued during fiscal year 2012 on an initiative to redesign the Overpayment
Recovery and Correspondence System (ORCS) to automatically interface with other on-line and
mainframe applications. The redesigned system will completely automate the retrieval of
overpayment recovery data for benefits under the Railroad Retirement Act (RRA), RUIA and
Medicare. The system will also include a letter writing and calculation summary process.

The Patient Protection and Affordable Care Act of 2010 provides for an Income-Related Monthly
Adjustment Amount (IRMAA) to be added to the Medicare Part D premiums paid by high-income
beneficiaries beginning in January 2011. This provision allows for the collection of Part D
IRMAA through withholding from railroad retirement benefit checks or through direct billing. We
implemented Part D IRMAA collection in January 2011 through direct billing, utilizing the existing
Program Accounts Receivable system. During fiscal year 2012, work continued on
implementing premium withholding from railroad retirement benefit checks.

Treasury regulations now require recipients of Federal nontax payments to receive payment by
electronic funds transfer (EFT) effective May 1, 2011. However, the effective date is delayed
until March 1, 2013, for individuals who filed claims for Federal benefits before May 1, 2011, and
requested check payments when they filed. Individuals who do not choose direct deposit of their
payments to an account at a financial institution are enrolled in the Direct Express® Debit Master
Card® program, a prepaid card program established pursuant to terms and conditions approved
by Treasury. RRB began offering Direct Express® to RRA beneficiaries in March 2011. As of
June 1, 2012, there were 1,103 beneficiaries enrolled in the program. Additionally, RRB began
offering International Direct Deposit (IDD) in April 2011, to our RRA beneficiaries who reside in
foreign countries. As of June 1, 2012, there were 1,283 beneficiaries enrolled in the IDD
program. RRB is currently working with Treasury on program changes that will allow child
support payments that are withheld from RRB Benefits and paid to State agencies to be made
by EFT.

In fiscal year 2012, work began on a project to enhance our Electronic Data Processing (EDP)
policing program, which will address the internal handling and automated matching of earnings
information received from our data match with the Social Security Administration. The project
involves the automation and capture of earnings information stored on the Retirement On-Line
Calculations (ROC) system, which is an on-line system for calculating and paying retirement
annuities. Earnings information on ROC is currently stored for only three months and then
purged. The improved system will extend the retention period and create additional data files for
matching against recent activity received via the LPE earnings monitoring process. We will also
update the LPE process to capture the latest monthly earnings and average monthly earnings
amounts. The information will be used in the EDP process to monitor earnings information,
eliminate redundant information, and reduce the number of records referred to the claims
adjudication units.




                                              - 42 -
As directed by the Improper Payments and Recovery Improvement Act of 2010, the RRB
implemented in May 2012 a new initiative for preventing improper payments. Our annual
improper payments analysis indicates that a delay in reporting a beneficiary’s death is a major
cause of improper payments. To better inform our customers of the requirements for reporting a
death and the consequences of a delay in reporting, the RRB implemented the following
communication enhancements:

   •   Established a new prompt on the RRB’s toll-free telephone line to provide information on
       how to report a death and what to do with benefit payments received after the date of
       death.

   •   Added detailed instructions to the frequently asked questions section on the agency’s
       website, www.rrb.gov. This additional information includes how to report a death, what to
       do with payments received after the date of death, and a link to the nearest RRB field
       office that can assist in death reporting and returning payments.

In December 2011, the RRB conducted an American Customer Satisfaction Index (ACSI)
survey, which focused on railroad workers receiving unemployment or sickness benefits. The
RRB earned a score of 81, which was 14 points higher than the latest Federal government
average (67) and 6 points higher than the previous survey on the same segment done in 2002.
In July 2012, we conducted another ACSI survey focusing on initial survivor annuitants. In this
survey the RRB earned an overall satisfaction score of 90, which was 23 points higher than the
latest Federal government average (67) and the same as the previous survey on the same
segment conducted in 2005.

Succession Planning and Training

Like many agencies, the RRB has an aging workforce. About 70 percent of our employees have
20 or more years of service and nearly 35 percent of the current workforce will be eligible for
retirement by fiscal year 2013. To prepare for the expected turnover, the agency is placing
increased emphasis on strategic management of human capital. Each organization has
completed workforce planning documents that identify the current staffing levels, projected
attrition and planned hiring in fiscal years 2012 and 2013, subject to available funding. Each
executive also completed a gap analysis for his/her organization that identified potential areas of
skills and knowledge gaps that will need to be addressed, identified areas where additional
training may be necessary or where mentoring may be desirable to prepare employees for more
senior positions, and identified areas of new skills that may need to be addressed through
outside hires.

Recently, the agency has been able to utilize the re-employment of retirees to allow retirees
under the Civil Service Retirement System and the Federal Employees Retirement System to be
temporarily rehired without losing entitlement to their retirement annuities under Section 1122(a)
of Public Law 111-84, which amended sections 8344 and 8468 of Title 5 of the United States
Code. The agency has been able to rehire several annuitants on a temporary basis to assist in
areas that have knowledge gaps due to attrition.




                                              - 43 -
The RRB is also devoting more attention and resources to training. The agency-wide Training
Council coordinates this activity, recently offering courses in the areas of managerial and
supervisory development. We also make use of technology in this area, utilizing our on-line
presentation facility, RRBVision, which allows employees to view training, including a video
component, in an online format. This is particularly useful to employees and managers in the
agency’s field offices.

Systems Security

Information security is a critical consideration for government agencies where maintaining the
public’s trust is essential. The RRB relies extensively on computerized systems to support its
mission operations and store the sensitive information that it collects. The RRB’s information
security program is established and maintained to reasonably protect systems data and
resources against internal failures, human errors, attacks and natural catastrophes that might
cause improper disclosure, modification, destruction, or denial of services.

To ensure mission continuity, plans and procedures exist to maintain continuity of operations
after a calamity for information systems that support the operations and assets of the RRB. The
RRB’s Continuity of Operations plan consists of a number of components, including an
Occupant Emergency Plan, a Business Continuity Plan, a Crisis Communication Plan, and
technically specific plans for mainframe, local area network (LAN), data communications, and
desktop recovery. The agency regularly conducts semi-annual off-site disaster recovery
exercises. System programmers restore the systems and applications of the agency from back-
ups retrieved from an alternate data storage facility. Program libraries are re-created and
production databases established. Finally, business analysts verify that the systems recovered
correctly.

Federal agencies are required to provide annual computer security awareness training for
employees and contractors. Security awareness efforts are designed to change behavior or
reinforce good security practices by focusing attention on security. We continue to develop new
approaches for refreshing the awareness initiative by providing updated and innovative
presentations for the agency staff. We have a full training program that combines a security
awareness presentation with additional role-based training appropriate to the RRB’s information
technology environment. Every employee and contractor with computer network access
participates in this annual event. Individuals who do not use a computer receive physical
security awareness information. In addition to the awareness presentation, computer analysts,
software developers and network/system engineers also receive specialized technical education
necessary to maintain their skills and enhance proficiency. The formal awareness-training
program is supplemented by a weekly Security News feature story, prominently headlined on the
Intranet’s home page, reminding employees to protect their computers and information
throughout the year. Every year, the RRB awareness program has been able to report
exemplary levels of participation.

The RRB kicked off its basic security awareness training in March of 2012 using a web based
basic awareness program offered by SANS (an industry leader in security training) called
“Securing the Human” at www.securingthehuman.org. Employees and contractors were allowed
until August 2012 to complete 16 assigned training topics such as how to identify social
engineering, how to develop good passwords, and more. Additionally, all employees with
increased security responsibilities at the agency were required to view the “Applying the Risk
Management Framework to Federal Information Systems” course at csrc.nist.gov.




                                              - 44 -
Faced with an increasingly dangerous threat environment, the RRB relies on a sophisticated
hardware and software defense that utilizes carefully monitored and maintained firewall
technology, anti-virus software and intrusion detection systems to prevent viruses, worms, spam
and malicious content from infiltrating the network, as well as to ensure that critical data and
sensitive information are not compromised. To buttress these proactive threat management
resources in the event of a successful malware attack, the agency has implemented a robust
incident response capability. Utilizing the capabilities of a special forensic analysis workstation,
the RRB Computer Emergency Response Team has the ability to conduct forensic collection
and analysis of electronic evidence from almost any type of digital media in use today. The RRB
has also established an Agency Core Response Group to determine if there is a reasonable
expectation that an incident may be a data breach with the potential for identity theft, and notifies
the Board members who will make the final decisions regarding breach notification.

The Security Authorization process is integral to the information security programs of Federal
agencies. Performing the security authorization process helps provide an understanding of the
risks and other factors that could adversely affect the agency’s mission for all of the agency
information systems. The RRB developed a Security Authorization strategy for fiscal year 2012
that is in line with the National Institute for Standards and Technology (NIST) Risk Management
Framework (RMF) strategy. The agency will employ a continuous monitoring strategy that will
increase the effectiveness of our current information security program by performing annual risk
assessments as well as testing all security controls applicable to the information system.

Integrating security into the System Development Life Cycle (SDLC) in the RRB Information
System program is essential. To ensure that all RRB applications are developed securely,
standards need to be identified using industry standards identified by security professionals.
The RRB plans on drafting a secure RRB SDLC procedure, implementing standards from
guidelines such as:

   •   Microsoft Security Development Lifecycle,
   •   Open Web Application Security Project (OWASP) Guide to Building Secure Web
       Applications, and
   •   The OWASP secure coding practices.




                                               - 45 -
                                      Program Evaluations


   Program Evaluation                              Results in Fiscal Year 2012
Federal Managers’
                              See “Systems and Controls” in the “Management’s Discussion and
Financial Integrity Act
                              Analysis” section.
Reports

Twenty-Fifth Actuarial        The Chief Actuary’s report describes the results of three valuations,
Valuation of the Assets and   each valuation differing from the others as to the employment
Liabilities Under the         assumption on which it is based. Cash flow problems arise only under
Railroad Retirement Act as    the most pessimistic employment assumption. Even under that
of December 31, 2010          assumption, the cash flow problems do not occur until the year 2035.

Railroad Unemployment         The report, which was released in June 2012, addresses the 11 fiscal
Insurance System, annual      year period 2012 through 2022. The report indicated that even as
report required by section    maximum benefits are expected to increase 44 percent from 2011 to
7105 of the Technical and     2022, experience-based contribution rates are expected to keep the
Miscellaneous Revenue Act     unemployment insurance system solvent. The report did not include any
of 1988                       recommendations for financing changes at this time.

                              The RRB continuously monitors the timeliness and accuracy of our
Customer service              performance in managing program workloads. These results are
performance reports           reflected in the performance objectives shown in the chart on the
                              following pages, and published on our website at www.rrb.gov.

                              The RRB’s program integrity report for fiscal year 2011, released in
                              November 2011, showed that program integrity activities resulted in the
Program integrity report      establishment of about $21.6 million in recoverables, recovery of
                              $13.5 million, benefit savings of $846 thousand, and referral of 207
                              cases to the Office of Inspector General.

                              RRA adjudicative and payment accuracy is measured in regular
                              diagnostic reviews conducted by quality assurance staff within the
Quality assurance reviews
                              RRB’s Program Evaluation and Management Services (PEMS)
and special studies
                              component. PEMS also evaluates policies and processes through
                              special studies, as needed. PEMS reports to the Director of Programs.

                              Advisory doctors, representing the rail industry (labor and management),
                              are authorized by law to review agency medical decisions. An audit was
Occupational disability       done in 2000; another audit was completed in 2008. In addition,
reviews                       consulting physicians from Consultative Examinations, Ltd. perform a
                              quarterly quality review of disability documentation to ensure it is
                              adequate to support medical decisions.

                              See “Inspector General’s Statement on Management and Performance
RRB Office of Inspector
                              Challenges” and “Management’s Comments” in the “Other
General audits
                              Accompanying Information” section.




                                                - 46 -
   Program Evaluation                             Results in Fiscal Year 2012
                           Results of performance budget monitoring are shown in the chart of
                           performance objectives on the following pages. Actual performance
Performance budget
                           data are reviewed, validated and certified prior to inclusion in this report.
monitoring
                           Validation and certification processes are documented as part of the
                           RRB’s management control review process.

                           All of the RRB’s general support systems and all major applications are
Computer security and      fully certified and accredited in compliance with the Federal Information
privacy assessment         Security Management Act, Office of Management and Budget directives
                           and National Institute of Standards and Technology guidance.

Electronic government
                           See pages 41 and 42 of this section.
(e-Gov) activities

Improper payment           See “Improper Payments Information Act (IPIA)” in the “Other
evaluation                 Accompanying Information” section.



  The next page begins a consolidated presentation of our actual performance in fiscal
  year 2009 through March 31, 2012 (except as noted), followed by a discussion of our
  unmet performance goals and objectives for fiscal year 2011. At the time this report was
  prepared, we had incomplete information on our fiscal year 2012 performance. The
  discussion of any unmet fiscal year 2012 performance goals and indicators will be
  presented in next year’s report. This performance report was prepared by RRB
  employees.




                                              - 47 -
         Railroad Retirement Board                              2009 Actual    2010 Actual       2011 Actual   2012 Planned 1/   2012 Actual 1/
         FY 2012 Performance Plan                              (At $105.5m)   (At $109.1m)      (At $108.9m)    (At $108.6m)      (At $108.6m)



         STRATEGIC GOAL I: Provide Excellent Customer Service


         Performance Goal I-A: Pay benefits timely.
          Goal leader for objectives I-A-1 through I-A-8: Dorothy A. Isherwood, Director of Programs
          Goal leader for objective I-A-9: Rachel L. Simmons, Director of Hearings and Appeals


         I-A-1. RRB makes a decision to pay or deny a
         railroad retirement employee or spouse initial
         annuity application within 35 days of the annuity       94.86%         96.16%             96.0%           95.0%            96.1%
         beginning date, if advanced filed.
- 48 -




         (Measure: % ≤ 35 days)



         1-A-2. RRB makes a decision to pay or deny a
         railroad retirement employee or spouse initial
         annuity application within 60 days of the date           97.0%          96.9%             97.9%           96.8%            98.0%
         the application was filed.
         (Measure: % ≤ 60 days)


         I-A-3. RRB makes a decision to pay, deny or
         transfer to SSA an initial annuity application for
         a railroad retirement survivor not already
         receiving a benefit within 60 days of the annuity        94.4%          96.1%             96.3%           94.0%            94.4%
         beginning date, or date filed (whichever is later).

         (Measure: % ≤ 60 days)
         Railroad Retirement Board                                 2009 Actual        2010 Actual    2011 Actual   2012 Planned 1/   2012 Actual 1/
         FY 2012 Performance Plan                                 (At $105.5m)       (At $109.1m)   (At $108.9m)    (At $108.6m)      (At $108.6m)


         I-A-4. RRB makes a decision to pay, deny or
         transfer to SSA an initial annuity application for
         a railroad retirement survivor already receiving
                                                                     95.4%              95.3%          95.8%           95.2%            94.7%
         the benefits as a spouse within 30 days of the
         RRB’s receipt of first notice of the employee’s
         death. (Measure: % ≤ 30 days)

         I-A-5. RRB makes a decision to pay or deny a
         lump sum death benefit within 60 days of the
                                                                     97.43%             98.3%          98.3%           98.0%            97.8%
         date the application was filed.
         (Measure: % ≤ 60 days)

         I-A-6. RRB certifies a payment or releases a
         letter of denial of UI or SI benefits within 10 days
- 49 -




                                                                     99.80%             99.9%          99.9%           99.8%            99.9%
         of the date RRB receives the claim.
         (Measure: % < 10 days)

         I-A-7. RRB makes a decision to pay or deny a
         benefit for a disabled applicant or family
                                                                     62.5%              68.9%          67.5%           70.0%            74.3%
         member within 100 days of the date the
         application is filed. (Measure: % ≤ 100 days)


         I-A-8. RRB makes a payment to a disabled
         applicant within 25 days of the date of decision
                                                                     96.5%              96.2%          96.0%           95.0%            96.8%
         or earliest payment date, whichever is later.
         (Measure: % < 25 days)


         I-A-9. Reduce the number of days elapsed
         between the date the appeal is filed and a
                                                                231 (Estimated) 2/       252            300             375               316
         decision is rendered. (Measure: average
         elapsed days)
         Railroad Retirement Board                              2009 Actual        2010 Actual      2011 Actual       2012 Planned 1/      2012 Actual 1/
         FY 2012 Performance Plan                              (At $105.5m)       (At $109.1m)     (At $108.9m)        (At $108.6m)         (At $108.6m)



         Performance Goal I-B: Provide a range of choices in service delivery methods.
          Goal leader: Dorothy A. Isherwood, Director of Programs

         I-B-1. Offer electronic options to our customers,
         allowing them alternative ways to perform
                                                                18 services       18 services       19 services          19 services        19 services
         primary services via the Internet or interactive
                                                                 available         available         available            available          available
         voice response systems. (Measure: Number of
         services available through electronic media)
         I-B-2. Enable employers to
         use the Internet to conduct
         business with the RRB, in          a) Employers
                                                                  77.0%              81.2%             84%                 80.0%               84%
         support of the Government            using ERS:
         Paperwork Elimination Act.
- 50 -




         (Measures: percentage of
         employers who use the on-
         line Employer Reporting                                                   10 Internet
                                               b) Internet      10 Internet                         17 Internet          20 Internet
         System (ERS); number of                                                    services                                                 Pending
                                                services:    services available                  services available   services available
         services available through                                                 available
         electronic media)


         STRATEGIC GOAL II: Serve as Responsible Stewards for Our Customers’ Trust Funds and Agency Resources



         Performance Goal II-A: Ensure that trust fund assets are protected, collected, recorded, and reported appropriately.
          Goal leader: George V. Govan, Chief Financial Officer
         Railroad Retirement Board                               2009 Actual    2010 Actual    2011 Actual   2012 Planned 1/   2012 Actual 1/
         FY 2012 Performance Plan                               (At $105.5m)   (At $109.1m)   (At $108.9m)    (At $108.6m)      (At $108.6m)

         II-A-1. Debts will be collected through billing,
         offset, reclamation, referral to outside collection
         programs, and a variety of other collection
         efforts. (Measure for fiscal years through 2011:
          funds collected vs. total debts outstanding.             56%             59%            54%             85%             96.6%
         Measure for fiscal years 2012 and following:
         total overpayments recovered in the fiscal year /
         total overpayments established in the fiscal
         year.)

         Performance Goal II-B: Ensure the accuracy and integrity of benefit programs.
           Goal leader: Dorothy A. Isherwood, Director of Programs
- 51 -




                                                   a) Initial
         II-B-1. Achieve a railroad                               99.59%         99.58%         99.79%          99.75%         Not available
                                                 payments:
         retirement benefit payment
         recurring accuracy rate 3/ of
         at least 99%. (Measure:            b) Sample post
         percent accuracy rate)                   recurring        100%         Deferred 4/    Deferred 4/      99.75%         Not available
                                                 payments:


         II-B-2. Achieve a railroad                  a)
                                                                  98.93%          100%           100%           99.60%            99.66%
         unemployment/sickness             Unemployment:
         insurance benefit payment
         accuracy rate 3/ of at least
         99%. (Measure: percent
         accuracy rate)                        b) Sickness:       99.70%         99.94%         99.71%          99.85%             100%
         Railroad Retirement Board                               2009 Actual         2010 Actual      2011 Actual       2012 Planned 1/     2012 Actual 1/
         FY 2012 Performance Plan                               (At $105.5m)        (At $109.1m)     (At $108.9m)        (At $108.6m)        (At $108.6m)


         II-B-3. Maintain the level of Railroad Retirement
         Act (RRA) improper payments below 2.5% of
                                                                                                   New indicator for
         RRA outlays. (Measure: percent of improper                                                                          0.64%              0.59%
                                                                                                   fiscal year 2012
         RRA payments as reported for the Improper
         Payments Information Act)

         II-B-4. Achieve a return of at least $3.60 for
         each dollar spent on program integrity activities.
          (Measure for fiscal years through 2011:
                                                                 $4.20: $1.00       $5.51: $1.00     $5.46: $1.00         $4.28: $1.00       Not available
         recoveries and savings per dollar spent.
         Measure for fiscal years 2012 and following:
         recoverables and savings per dollar spent.)
- 52 -




         Performance Goal II-C: Ensure effectiveness, efficiency, and security of operations.
           Goal leader: Terri S. Morgan, Chief Information Officer

                                                                                                                                            No. The scope
                                                                                                                                             of the project
                                                                                                                                            was increased.
                                                                                                                         Yes. The target
                                                                                                                                              The updated
                                                                                                                        date for the RUIA
                                                                                                                                               completion
                                                               Yes. The project                                         conversion is now
                                                                                      Yes. The      Yes. We expect                           date for RUIA
         II-C-1. Complete modernization of RRB                was in the analysis                                          2/29/12. We
                                                                                      Medicare     to finish the RUIA                         is 05/31/13.
         processing systems in accordance with long-            and planning                                               have begun
                                                                                    database was        database                              Conversion
         range planning goals. (Measure: Meet target            phase and on                                             conversion work
                                                                                    converted on     conversion by                            work on the
         dates for the project. Yes/No)                          schedule as                                                  on the
                                                                                       9/26/10.          2/29/12.                                 EDM
                                                                 anticipated.                                           Employment Data
                                                                                                                                               database,
                                                                                                                          Maintenance
                                                                                                                                                however,
                                                                                                                        (EDM) database.
                                                                                                                                            continues to be
                                                                                                                                              on target for
                                                                                                                                                12/31/12.
         Railroad Retirement Board                             2009 Actual         2010 Actual         2011 Actual       2012 Planned 1/   2012 Actual 1/
         FY 2012 Performance Plan                             (At $105.5m)        (At $109.1m)        (At $108.9m)        (At $108.6m)      (At $108.6m)



         Performance Goal II-D: Effectively carry out responsibilities with respect to the National Railroad Retirement Investment Trust.
           Goal leader: Karl T. Blank, General Counsel

         II-D-1. Timely review information reported by
         the National Railroad Retirement Investment
         Trust to carry out RRB’s oversight responsibility
                                                                                                     New indicator for
         under section 15(j)(5)(F) of the Railroad                                                                                 Yes          Yes
                                                                                                     fiscal year 2012
         Retirement Act. Reports are to be reviewed
         within 30 days of receipt.
         (Measure: Yes/No)
- 53 -




         1/ Planned amounts reflect the fiscal year 2012 performance targets shown in the RRB’s Congressional Justification of Budget Estimates,
            released on February 13, 2012. Actual results represent status as of March 31, 2012, unless otherwise noted.

         2/ The figure for fiscal year 2009 was stated as an estimate due to problems with the computer program which produced it.

         3/ The payment accuracy rate is the percentage of dollars paid correctly as a result of adjudication actions performed.

         4/ The quality review of post recurring payments was deferred in fiscal year 2010 because the accuracy rates historically had been very high, and
            the findings minimal. The return on measuring this area every year had diminished over time. Review was deferred again in fiscal year 2011 to
            allow staff to complete work on a special quality assurance case review started in fiscal year 2010.
    Discussion of Unmet Performance Goals and Indicators for Fiscal Year 2011


                  INDICATOR                                    DISCUSSION OF VARIANCE

Performance indicator I-A-7. Make a decision          The lack of clerical staff and extended
to pay or deny a benefit for a disabled applicant     absences of several claims examiners directly
or family member within 100 days of the date          impacted our ability to meet our timeliness goal.
the application is filed.                             The hiring of clerical staff and the monitoring of
(Measure: % ≤ 100 days)                               aging cases will enhance future performance.

Our fiscal year 2011 goal was 70.0%, and the
actual was 67.5%.


Performance indicator I-B-1. Offer electronic         The target of 20 services was not met because
options to our customers, allowing them               the service, Retirement Application Online,
alternative ways to perform primary services via      could not be done without funding at the request
the Internet or interactive voice response            level.
systems.
(Measure: number of services available through
electronic media)

Our fiscal year 2011 goal was 20 services, and
the actual was 19 services.


                                                      Our target goal of 55% was missed by 1%
                                                      because we had an unusually large increase
Performance indicator II-A-1. Debts will be           ($7.5 million) in new receivables caused by
collected through billing, offset, reclamation,       claimants receiving benefits while receiving
referral to outside collection programs, and a        wages in excess of statutory limits.
variety of other collection efforts.
(Measure for fiscal year 2011: funds collected        It should be noted that our target goal for this
vs. total debts outstanding)                          performance indicator was changed in fiscal
                                                      year 2012 to conform with guidance contained
Our fiscal year 2011 goal was 55%, and the            in the Improper Payments Elimination and
actual was 54%.                                       Recovery Act, which challenges agencies to
                                                      achieve an annual recapture target of 85%. As
                                                      of mid-year, we were exceeding our goal.


Performance indicator II-B-2 (b). Achieve a           Our payment accuracy is determined by a
railroad retirement sickness insurance benefit        sample review. The performance goal was set
payment accuracy rate of at least 99%.                at an approximate target level, and the deviation
(Measure: percent accuracy rate)                      of 0.14% was not statistically significant related
                                                      to our projected accuracy range. There was no
Our fiscal year 2011 goal was 99.85%, and the         effect on overall program or activity
actual was 99.71%.                                    performance.




                                                  - 54 -
FINANCIAL SECTION
PAGE INTENTIONALLY LEFT BLANK
                                        Financial Section

Message from the Chief Financial Officer

I am pleased to present the RRB’s Performance and Accountability Report for fiscal year 2012. This
report incorporates the annual performance report under the Government Performance and Results
Act of 1993, the internal control report under the Federal Managers’ Financial Integrity Act, and
audited consolidated financial statements under OMB guidance.

The RRB is committed to integrated and automated financial management systems that focus on the
agency’s mission and accountability. We strive to maintain an environment in which program and
financial managers work in partnership to ensure the integrity of financial information and use that
information to make decisions, measure performance, and monitor outcomes. In this environment,
we envision integrated financial management systems with appropriate internal review and controls
that provide agency managers with timely, accurate, and easily accessible information. We expect
managers throughout the agency to use that information to achieve program objectives in a
cost-effective manner and to ensure accountability.

The RRB continued to provide high quality financial management and financial reporting during fiscal
year 2011.

       We received a disclaimer audit opinion on our consolidated financial statements for fiscal
        year 2012. We continued to prepare unaudited quarterly financial statements and met the
        accelerated schedule of releasing these statements to OMB.

       We implemented audit recommendations as follows:

        At the beginning of fiscal year 2012, the agency’s audit follow-up tracking system reported
        187 audit recommendations as being open. During the fiscal year, audit reports containing
        another 74 recommendations were issued. As a result, the total number of open
        recommendations during the year was 261. At the same time, final action was completed on
        60 audit recommendations and 6 audit recommendations were rejected, resulting in a
        balance at the end of the fiscal year of 195 open recommendations. Additionally, the status
        of the OIG-identified material weaknesses and planned corrective action are presented in the
        Management’s Discussion and Analysis’ Management Assurances section.

In fiscal year 2010, the RRB contracted for an assessment of our core financial system. In fiscal
year 2011, the agency took the next step towards the recommended solution to migrate to a
designated shared service provider. The agency, with contractual assistance, completed an OMB
Exhibit 300 (Capital Asset Plan and Business Case Summary) for submission with its fiscal year
2013 budget request to secure the Development/Modernization Enhancement (DME) funding
required for migration. In addition, fiscal year 2011 funds were used to retain contractual services
for pre-migration activities and resulted in the award of a contract in fiscal year 2012 to CGI Federal,
Inc. for implementation, migration, and hosting of the Financial Management Integrated System
(FMIS).

The RRB will continue to provide financial information that is timely, accurate and useful in the
coming years. We are committed to continuing our tradition of providing high quality financial
services to agency management, the Congress, OMB, and the constituents we serve.


                                                                                     Original signed by:

                                                                                     George V. Govan
                                                                                 Chief Financial Officer

                                                 - 57 -
RAILROAD RETIREMENT BOARD
CONSOLIDATED BALANCE SHEET
AS OF SEPTEMBER 30, 2012 AND 2011
(in dollars)

                                                                           FY 2012                  FY 2011

ASSETS

Intragovernmental:
  Fund Balance with Treasury (Note 3)                                       $239,740,171              $229,770.395
  Investments (Note 4)                                                     1,632,804.952             1,494,224,312
  Accounts Receivable (Note 6)                                             4,497,442.952             4,286,650,547

Total Intragovernmental                                                    6,369,988,075             6,010,645,254

 NRRIT Net Assets (Note 5) 
                                              23,641,360,813            22.146,037.531
 Accounts Receivable. Net (Note 6) 
                                          41,426,279                42,865,125
 Inventory and Related Property, Net (Note 7) 
                                   91,118                   101,450
 General Property. Plant and Equipment, Net (Note 8) 
                         1.992.640                 1,498,480
 Other 
                                                                          50,289                    52,366

TOTAL ASSETS                                                             $30,054,909,214           $28,201,200,206

LIABILITIES (Note 9)

Intragovernmental :
  Accounts Payable                                                          $504,725,619              $513,563.639
  Debt                                                                      3,445.603,447            3.536.280,762
  Other                                                                         1,122,091                1,033,794

Totallntragovernmental                                                      3,951,451,157            4,050,878,195

 Accounts Payable 
                                                              415,677                  376,347
 Benefits Due and Payable 
                                                  950.926,348              958,400,783
 Other 
                                                                      20,481.001              155,829,406

TOTAL LIABILITIES                                                          4,923,274,183             5,165,484,731

COMMITMENTS AND CONTINGENCIES (Note 10)

NET POSITION
Unexpended Appropriations - Earmarked Funds (Note 17)                         24,889,493                21,045,822
Unexpended Appropriations - Other Funds                                      165.734,487               171,324,503
Cumulative Results of Operations - Earmarked Funds (Note 17)              24,940.353,973            22.842,686.914
Cumulative Results of Operations - Other Funds                                   657.078                   658,236

TOTAL NET POSITION                                                        25,131,635,031            23,035,715,475

TOTAL LIABILITIES AND NET POSITION                                       $30,054,909,214           $28,201,200,206


                      The accompanying notes are an integral part of these financial statements.



                                                          58 ­
RAILROAD RETIREMENT BOARD
CONSOLIDATED STATEMENT OF NET COST
FOR THE YEARS ENDED SEPTEMBER 30, 2012 AND 2011
(in dollars)
                                                                    FY 2012             FY 2011

Program Costs:
 Railroad Retirement Program
     Gross Costs (Note 11)                                      $11,569,123,333     $11,216,536,778
     Less: Earned Revenue                                            13,208,883          11,092,913
     Net Program Costs                                           11,555,914,450      11,205,443,865


 Railroad Unemployment and Sickness Insurance Program
     Gross Costs (Note 11) 
                                        122,457,724          138,253,996
     Less: Earned Revenue 
                                          20,611,899            21,885,559
     Net Program Costs 
                                            101,845,825          , 16,368,437


Costs Not Assigned to Programs                                                 o                    o
Less: Earned Revenues Not Attributed to Programs                         28,071                 30,628

NET COST OF OPERATIONS                                          $11,657,732,204      $11,321,781,674

                   The accompanying notes are an integral part of these financial statements.




                                               - 59­
RAILROAD RETIREMENT BOARD
CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
FOR THE YEAR ENDED SEPTEMBER 30,2012
(in dollars)
                                                                                 FY 2012


                                                 Earmarked           All Other                           Consolidated
                                                   Funds              Funds            Eliminations         Total

Cumulative Results of Operations:

  Beginning Balances                           $22,842,686,914         $658,236                          $22,843,345,150

Budgetary Financing Sources:
 Appropriations Used                               771,007,122        55,491,483                             826,498,605
  Non"Exchange Revenue                           5,785,741,383           118,149       (771,007,122)       5,014,852,410
 Transfers in from NRRIT (Note 12)               2,026,000,000                                             2,026,000,000
 Transfers in/out Without Reimbursement          4,248,582,000                             (500,000)       4,248,082,000

Other Financing Sources (Non-Exchange):
  Imputed Financing                                   9,851,806                                                9,851,806
  Change in NRRIT Assets                          1,495,323,282                                            1,495,32_3,282
  Other Gains                                       134,790,002                                              134,790,002

  Total Financing Sources                       14,471,295,595        55,609,632       (771,507,122)      13,755,398,105
  Net Cost Of Operations                        12,373,628,536        55,610,790       (771,507,122)      11,657,732,204
  Net Change                                     2,097,667,059            (1,158)                          2,097,665,901

  Cumulative Results of Operations              24,940,353,973          657,078                           24,941,011,051


Unexpended Appropriations:
 Beginning Balances                                 21,045,822       171,324,503                             192,370,325

Budgetary Financing Sources:
 Appropriations Received                            774,911,855       51,500,000                             826,411,855
 Other Adjustments                                      (61,062)      (1,598,533)                             (1,659,595)
 Appropriations Used                               (771,007,122)     (55,491,483)                           {826,498,605)

  Total Budgetary Financing Sources                   3,843,671       (5,590,016)

  Total Unexpended Appropriations                   24,889,493       165,734,487                            190,623,980

  Net Position                                 $24,965,243,466


                             The accompanying notes are an integral part of these financial statements




                                                             - 60­
RAILROAD RETIREMENT BOARD
CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
FOR THE YEAR ENDED SEPTEMBER 30, 2011
(in dollars)

                                                                           FY 2011



                                            Earmarked          All Other                             Consolidated
                                              Funds             Funds            Eliminations           Total

Cumulative Results of Operations:

 Beginning Balances                       $24,533,250,962         $741,253                           $24,533,992,215

Budgetary Financing Sources:
 Appropriations Used                           698,086,236       62,464,682                              760,550,918
 Non-Exchange Revenue                        5,607,764,685           51,592     $ (699,116,647)        4,908,699,630
 Transfers in from NRRIT (Note 12)           1,744,000,000                                             1,744,000,000
 Transfers in/out Without Reimbursement      3,885,574,000                                             3,885,574,000

Other Financing Sources (Non-Exchange):
 Imputed Financing                              11,246,803                                                11,246,803
 Change in NRRIT Assets                     (1,641,046,742)                                           (1,641,046,742)
 Loss Contingency                              (37,890,000)                                              (37,890,000)

 Total Financing Sources 
                  10,267,734,982       62,516,274          (699,116,647)     9,631,134,609
 Net Cost Of Operations 
                   11,958,299,030       62,599,291          (699,116,647)    11,321,781,674
 Net Change 
                               (1,690,564,048)          (83,017)                         (1,690,647,065)

 Cumulative Results of Operations           22,842,686,914          658,236                           22,843,345,150



Unexpended Appropriations:
 Beginning Balances                               546,185       177,907,363                              178,453,548



Budgetary Financing Sources:
 Appropriations Received                       718,650,000       57,000,000                              775,650,000
 Other Adjustments                                 (64,127)      (1,118,178)                              (1,182,305)
 Appropriations Used                          (698,086,236)     (62,464,682)                            (760,550,918)

 Total Budgetary Financing Sources              20,499,637       (6,582,860)                              13,916,777

 Total Unexpended Appropriations                21,045,822      171,324,503                              192,370,325

  Net Position                             $22,863,732,736     $171,982,739                          $23,035,715,475

                   The accompanying notes are an integral part of these financial statements




                                                     - 61 ­
RAILROAD RETIREMENT BOARD
COMBINED STATEMENT OF BUDGETARY RESOURCES
FOR THE YEARS ENDED SEPTEMBER 30, 2012 AND 2011
(in dollars)

                                                                                FY 2012

Budgetary Resources
Unobligated balance brought forward, October 1                                    $190,388,577           $183,033,165
Adjustment to unobligated balance brought forward, October 1 (Note 23)               4,133,792
   Unobligated balance brought forward, October 1, as adjusted                     194,522,369
Recoveries of prior year unpaid obligations                                          1,660,283                 859,130
Other changes in unobligated balance                                                (1,574,543)             (1,068,305)
Unobligated balance from prior year budget authority, net                          194,608,109             182,823,990
Appropriations (discretionary and mandatory)                                     8,653,710,195           8,199,808,248
Borrowing authority (discretionary and mandatory) (Note 19 and Note 20)          3,768,500,000           3,820,427,882
Spending authority from offsetting collections (discretionary and                  152,990,225
Total budgetary resources                                                      $12,769,808,529

Status of Budgetary Resources
Obligations incurred (Note 18)                                                 $12,576,701,992         $12,164,738,483
Unobligated balance, end of year:
   Apportioned                                                                     155,436,231             149,132,322
   Unapportioned                                                                    37,670,306
Total unobligated balance, end of year                                             193,106,537
Total budgetary resources                                                      $12,769,808,529

Change in Obligated Balance 

Unpaid obligations, brought forward, October 1 
                                  $986,741,632           $975,707,985
Uncollected customer payments from Federal sources, brought forward, 

October 1 (-) 
                                                                       (252,119)
   Obligated balance, start of year (net) before adjustments                       986,489,513
Adjustment to obligated balance, start of year (Note 23)                              (119,256)                      o
Obligated balance, start of year (net), as adjusted                                986,370,257             975,454,173
Obligations incurred                                                            12,576,701,992          12,164,738,483
Outlays (gross) (-)                                                            (12,586,272,185)        (12,152,845,706)
Change in uncollected customer payments from Federal sources                            30,790                   1,693
Recoveries of prior year unpaid obligations (-)                                     (1,660,283)               (859,130)

Obligated balance, end of year
  Unpaid obligations, end of year (gross) (Note 13)                                975,391,901            986,741,632
  Uncollected customer payments from Federal sources, end of year                     (221,330)              (252,119)
Obligated balance, end of year (net)                                              $975,170,571           $986,489,513

Budget Authority and Outlays, Net (Note 14) 

Budget authority, gross (discretionary and mandatory) 
                        $12,575,200,420         $12,172,303,071
Actual offsetting collections (discretionary and mandatory) H 
                   (153,021,015)           (152,068,633)
Change in uncollected customer payments from Federal sources 

  (discretionary and mandatory)                                                         30,790                  (1,693)
Budget authority, net(discretionary and mandatory)                             $12,422,210,195         $12,020,232,745

Outlays, gross (discretionary and mandatory) 
                                 $12,586,272,185         $12,152,845,706
Actual offsetting collections (discretionary and mandatory) (-) 
                 (153,021,015)           (152,068,633)
Outlays, net (discretionary and mandatory) 
                                    12,433,251,170          12,000,777,073
Distributed offsetting receipts (-) 
                                                                   (4,584,640,447)
Agency outlays, net (discretionary and mandatory) 
                                                     $7,416,136,626


                          The accompanying notes are an integral part of these financial statements.




                                                                    - 62­
                                                       Railroad Retirement Board

                                           Statement of Social Insurance (Note 15, Note 16)

                                                     Actuarial Surplus or (Deficiency)

                                                75-year Projection as of January 1, 2012

                                                   (Present values in billions of dollars)

                                                                                             1/1/2012   1/1/2011   1/1/2010   1/1/2009 1/1/2008

Current participants who have attained retirement age:
  Contributions and earmarked taxes                                                            $79.0      $73.1      $70.3      $69.0    $66.2
  Expenditures for scheduled future benefits                                                   118.8      109.3      104.8      102.1     97.0
    Present Value of future revenue less future expenditures                                   (39.8)     (36.2)     (34.6)     (33.1)   (30.8)

Current participants not yet having attained retirement age:
  Contributions and earmarked taxes                                                             81.3       71.7       72.9       75.9      69.6
  Expenditures for scheduled future benefits                                                    94.7       86.2       88.0       91.2      88.4
    Present Value of future revenue less future expenditures                                   (13.4)     (14.6)     (15.0)     (15.3)    (18.8)

Net present value of future revenue less future expenditures for
current participants (closed group measure)                                                    (53.1)     (50.8)     (49.6)     (48.5)    (49.6)
Plus: Treasury securities and assets held by the program                                        24.2       26.3       24.9       21.8      33.2
Closed group surplus/(unfunded obligation)                                                    ($29.0)    ($24.6)    ($24.7)    ($26.6)   ($16.4)

Future participants:
  Contributions and earmarked taxes                                                            $64.0      $53.2      $53.2      $57.2    $43.3
  Expenditures for scheduled future benefits                                                    33.5       27.6       27.4       29.5     26.0
     Present Value of future revenue less future expenditures                                   30.5       25.6       25.8       27.7     17.3

Net present value of future revenue less future expenditures for
current and future participants (open group measure)                                           (22.7)     (25.2)     (23.8)     (20.7)    (32.3)
Plus: Treasury securities and assets held by the program                                        24.2       26.3       24.9       21.8      33.2
Open group surplus/(unfunded obligation)                                                        $1.5       $1.0       $1.0       $1.1      $0.9




Detail may not add to totals due to rounding.
The accompanying notes are an integral part of these financial statements.




                                                                      - 63 -
                                     Railroad Retirement Board

                      Statement of Changes in Social Insurance Amounts

                                        Open Group Measure

                         For the Two-Year Period Ended December 31, 2011

                                        (in billions of dollars)


Net Present Value beginning of year 2010                                    $ (23.8)

Reasons for changes in the NPV during the year:

Changes in valuation period                                                      0.2
Changes in demographic data and                                                    0
Changes in economic data and                                                   (1.6)
Changes in law or                                                                NA
Changes in methodology and programmatic                                          NA
Changes in Medicare healthcare and other healthcare                              NA
Other changes                                                                    NA

Net change during 2010                                                         (1.4)



Net Present Value end of year 2010/beginning of year 2011                   $ (25.2)

Reasons for changes in the NPV during the year:

Changes in valuation period                                                      0.1
Changes in demographic data and                                                  0.3
Changes in economic data and                                                     2.2
Changes in law or                                                                NA
Changes in methodology and programmatic                                          NA
Changes in Medicare healthcare and other healthcare                              NA
Other changes                                                                    NA

Net change during 2011                                                           2.5



Net Present Value end of year 2011                                          $ (22.7)




Detail may not add to totals due to rounding.
The accompanying notes are an integral part of these financial statements



                                                 - 64 -
NOTES:

1. Changes in demographic data and assumptions -
   Between 1/1/2010 and 1/1/2011:
   Demographic assumptions were not changed between the Statement of Social Insurance as of
   1/1/2010 and the Statement of Social insurance as of 1/1/2011. Changes in demographic data had a
   minimal effect (less than 0.1 billion) on the open group measure between 1/1/2010 and 1/1/2011.

    Between 1/1/2011 and 1/1/2012:
    Some demographic assumptions, such as the Annuitants Mortality Table, the Disabled Mortality
    Table for Annuitants with Disability Freeze, the Disabled Mortality Table for Annuitants without
    Disability Freeze, the Active Service Mortality Table, the Spouse Total Termination Table, the
    probability of a spouse, the rates of immediate age retirement, the rates of immediate disability
    retirement, the rates of eligibility for disability freeze, the rates of final withdrawal, service months,
    salary scales, and family characteristics, were changed between the Statement of Social Insurance
    as of 1/1/2011 and the Statement of Social Insurance as of 1/1/2012. These changes and the
    changes in demographic data had a relatively small effect (about 0.3 billion) on the open group
    measure between 1/1/2011 and 1/1/2012.

2. Changes in economic data and assumptions –
   Between 1/1/2010 and 1/1/2011:
   Ultimate economic assumptions were not changed between the Statement of Social Insurance as of
   1/1/2010 and the Statement of Social Insurance as of 1/1/2011, but the select economic assumptions
   were. The actual COLA of 0.0% was used for 2011 in place of the 0.5% COLA assumed for 2011 in
   the prior year’s report. A wage increase rate of 2.4% was used for 2010 rather than the assumed 4%
   wage increase rate used for 2010 in the prior year’s report. Also, the actual 2010 investment return of
   14.4% was higher than the assumed 7.5% investment rate used for 2010 in the prior year’s report.
   The fund balance increased from about $24.9 billion on December 31, 2009 to about $26.3 billion on
   December 31, 2010. Economic data and assumptions had the greatest effect on the open group
   measure, resulting in a change of about ($1.6) billion from 1/1/2010 to 1/1/2011.

    Between 1/1/2011 and 1/1/2012:
    Both select and ultimate economic assumptions were changed between 1/1/2011 and 1/1/2012. The
    actual COLA of 3.6% was used for 2012 in place of the 3.0% COLA assumed for 2012 in the prior
    year’s report. Assumed COLAs of 2.0% in 2013, 2.4% in 2014, and 2.8% in 2015 and thereafter were
    used rather than the 3.0% COLA assumed in the prior year’s report. A wage increase rate of 3.5%
    was used for 2011 rather than the assumed 4% wage increase rate used for 2011 in the prior year’s
    report. A wage increase rate of 3.8% was used for 2012 and thereafter rather than the 4% wage
    increase rate used in the prior year’s report. Also, the actual 2011 investment return of (1.6%) was
    lower than the assumed 7.5% investment rate used for 2011 in the prior year’s report. An assumed
    investment return of 7% was used for 2012 and all subsequent years rather than the 7.5% rate used
    in the prior year’s report. Economic data and assumptions had the greatest affect on the open group
    measure, resulting in a change of about $2.2 billion from 1/1/2011 to 1/1/2012.

3. There were no changes in law or policy.

4. There were no changes in methodology and programmatic data.

5. Medicare healthcare and other healthcare assumptions are not applicable to the Railroad Retirement
   program.




                                                     - 65 -
Notes to the Financial Statements: Fiscal Years Ended September 30, 2012 and 2011


1. Summary of Significant Accounting Policies

A. Basis of Presentation
Public Law 107-289, the Accountability of Tax Dollars Act of 2002, added the Railroad
Retirement Board (RRB) as an agency required to prepare audited financial statements for
fiscal year 2003, and subsequent years. Office of Management and Budget (OMB) guidance
requires that Performance and Accountability Reports (P&AR) for fiscal year 2012 are to be
submitted to the President, the Congress, and the Director of OMB by November 15, 2012. As
required by law, OMB has also prescribed the form and content of financial statements under
OMB Circular A-136. The RRB’s financial statements were prepared in accordance with the
form and content prescribed by OMB and with generally accepted accounting principles and
standards prescribed by the Federal Accounting Standards Advisory Board (FASAB).

The principal statements (prepared on a consolidated basis, except for the Statement of
Budgetary Resources which was prepared on a combined basis, and eliminating all significant
interfund balances and transactions) are comprised of the Balance Sheet and Statements of Net
Cost, Changes in Net Position, Budgetary Resources, Social Insurance, and Changes in Social
Insurance Amounts. These statements are different from the financial reports, also prepared by
the RRB pursuant to OMB directives, used to monitor and control the RRB's use of budgetary
resources.

The RRB changed its accounting policy with regard to the accrual of Medicare insurance
premiums paid by annuitants. This change affected the Balance Sheet, Statement of Net Cost,
Changes in Net Position, and Statement of Budgetary Resources.

B. Reporting Entity
The railroad retirement and the railroad unemployment and sickness insurance programs are
financed through the following accounts:

●   Railroad Retirement (RR) Account, 60X8011, funds retirement, survivor, and disability
    benefits in excess of social security equivalent benefits from payroll taxes on employers and
    employees and other income sources. Account 60X8011 is considered an earmarked fund.
    Our authority to use these collections is 45 United States Code (USC) §231f(c)(1).

●   Social Security Equivalent Benefit (SSEB) Account, 60X8010, funds the portion of railroad
    retirement benefits equivalent to a social security benefit from various income sources
    related to these benefits. Account 60X8010 is considered an earmarked fund. Our authority
    to use these collections is 45 USC §231n-1(c)(1).

●   Dual Benefits Payments (DBP) Account, 60 0111, funds the phase-out costs of certain
    vested dual benefits from general appropriations. Account 60 0111 is considered a general
    fund. Our authority to use these collections is 45 USC §231n(d).

●   Federal Payments to the Railroad Retirement Accounts, 60X0113, was established by OMB,
    not by legislation, and is used as a conduit for transferring certain income taxes on benefits;
    receiving credit for the interest portion of uncashed check transfers; and funds provided by
    the Tax Relief, Unemployment Insurance Reauthorization, and Job Creation Act of 2010.
    Account 60X0113 is considered an earmarked fund. This account has no basis in law.


                                              - 66 -
●   Limitation on Administration Account, 60 8237, pays salaries and expenses to administer
    the railroad retirement program and the railroad unemployment and sickness insurance
    program. This account is financed by the RR Account, the SSEB Account, and the Railroad
    Unemployment Insurance Trust Fund, Administrative Expenses. Account 60 8237 is
    considered an earmarked fund. Our authority to use these collections is 45 USC §231n-1(c)
    and 45 USC §231n(h).

●   Limitation on Administration Account, 60X8237, Public Law 107-217, Sec. 121(d)(3),
    authorizes Federal agencies to retain indefinitely as “no-year money” any unexpended
    portion of the fiscal year appropriated funds, up to the estimated cost of the operation and
    maintenance (O&M) of the delegated properties. Funds carried over may only be expended
    for O&M and repair of the facility. In addition, this fund contains the Limitation on
    Administration funds for extended unemployment benefits provided under Public
    Laws 111-92 and 112-96. Account 60X8237 is considered an earmarked fund.

●   Railroad Unemployment Insurance Trust Fund, Benefit Payments, 60X8051.001, funds
    railroad unemployment and sickness insurance benefits from contributions by railroad
    employers. Account 60X8051.001 is considered an earmarked fund. Our authority to use
    these collections is 45 USC §360.

●   Railroad Unemployment Insurance Trust Fund, Administrative Expenses, 60X8051.002, was
    established to pay salaries and expenses to administer the program. Account 60X8051.002
    is considered an earmarked fund. This fund is financed by contributions from railroad
    employers. Monies are transferred from this fund, based on cost accounting estimates and
    records, to the Limitation on Administration Account (60 8237) from which salaries and
    expenses are paid for both the railroad retirement program and the railroad unemployment
    and sickness insurance program. Our authority to use these collections is 45 USC §361.

●   Limitation on the Office of Inspector General, 60 8018, was established to fund the
    administration of the Inspector General's Office. Account 60 8018 is considered an
    earmarked fund. Our authority to use these collections is Public Law 112-74.

●   Railroad Unemployment Insurance Extended Benefit Payments – Recovery Act, 60X0114:
    Funds provided under Public Law 111-5, American Recovery and Reinvestment Act of
    2009.

●   Economic Recovery Payments – Recovery Act, 60 0115: Funds provided under Public Law
    111-5, American Recovery and Reinvestment Act of 2009.

●   Administrative Expenses – Recovery Act, 60X0116: Funds provided under Public Law
    111-5, American Recovery and Reinvestment Act of 2009.

●   Administrative Expenses – Recovery Act, 60 0116: Funds provided under Public Law
    111-5, American Recovery and Reinvestment Act of 2009.

●   Limitation on Administration – Recovery Act, 60X8262: Funds provided under Public Law
    111-5, American Recovery and Reinvestment Act of 2009.

●   Limitation on Administration – Recovery Act, 60 8262: Funds provided under Public Law
    111-5, American Recovery and Reinvestment Act of 2009.



                                             - 67 -
●   Railroad Unemployment Insurance Extended Benefit Payments, for Limitation Account –
    60X0118: Funds provided under Public Law 111-92, Worker, Homeownership, and
    Business Assistance Act of 2009, and Public Law 112-96, Middle Class Tax Relief and Job
    Creation Act of 2012.

●   Railroad Unemployment Insurance Extended Benefit Payments – 60X0117: Funds provided
    under Public Law 111-92, Worker, Homeownership, and Business Assistance Act of 2009.

C. Budgets and Budgetary Accounting
Budget requests are prepared and submitted by the RRB in accordance with OMB Circular A-11
and other specific guidance issued by OMB. The RRB prepares and submits to OMB
Apportionment and Reapportionment Requests (SF-132) in accordance with OMB Circular A-11
for all funds appropriated by the Congress or permanently appropriated. Although OMB may
apportion funds by category, time period, or object class of expense, the RRB controls and
allocates all apportioned funds by three-digit object class codes of expense. For budgetary
accounting, all receipts are recorded on a cash basis of accounting and obligations are recorded
against the object class codes when they are incurred, regardless of when the resources
acquired are to be consumed. Obligations are amounts of orders placed, contracts awarded,
services received, and similar transactions during a given period that will require payments
during the same or a future period. Quarterly, the RRB prepares and submits Reports on
Budget Execution (SF-133) to OMB, reporting all obligations incurred against the amounts
apportioned.

D. Basis of Accounting
As required by law, the DBP Account is on a cash basis of accounting. Payroll taxes and
unemployment contributions are recorded on a modified cash basis in accordance with
Statement of Federal Financial Accounting Standards (SFFAS) No. 7. All other transactions are
recorded on an accrual basis of accounting and a budgetary basis. Under the accrual method,
revenues (except payroll taxes and unemployment contributions which are on a modified cash
basis) are recognized when earned and expenses are recognized when a liability is incurred.
For budgetary accounting, financial transactions are recorded when obligations are incurred,
regardless of when the resources acquired are to be consumed.

The accompanying consolidated financial statements of the RRB include all funds maintained
by the RRB, after elimination of all significant interfund balances and transactions.

E. Concepts
The Fund Balance with Treasury (FBWT) is the aggregate amount of funds on deposit with the
Department of the Treasury (Treasury), excluding seized cash deposited. The FBWT is
increased by (1) receiving appropriations, reappropriations, continuing resolutions, appropriation
restorations, and allocations; and (2) receiving transfers and reimbursements from other
agencies. It also is increased by amounts borrowed from the Bureau of the Public Debt (BPD),
the Federal Financing Bank, or other entities, and amounts collected and credited to
appropriation or fund accounts. The FBWT is reduced by (1) disbursements made to pay
liabilities or to purchase assets, goods, and services; (2) investments in U.S. securities
(securities issued by BPD or other Federal Government agencies); (3) cancellation of expired
appropriations; (4) transfers and reimbursements to other entities or to the General Fund of the
Treasury; and, (5) sequestration or rescission of appropriations.




                                              - 68 -
F. Earmarked Funds
SFFAS No. 27, Identifying and Reporting Earmarked Funds, requires separate presentation and
disclosure of earmarked funds balances in the financial statements. Earmarked funds are
financed by specifically identified revenues, often supplemented by other financing sources,
which remain available over time. Earmarked funds meet the following criteria:

    •   A statute committing the Federal Government to use specifically-identified revenues and
        other financing sources only for designated activities, benefits, or purposes;
    •   Explicit authority for the earmarked fund to retain revenues and other financing sources
        not used in the current period for future use to finance the designated activities, benefits,
        or purposes; and
    •   A requirement to account for and report on the receipt, use, and retention of the
        revenues and other financing sources that distinguishes the earmarked funds from the
        Government’s general revenues.

Refer to Note 17, Earmarked Funds, for additional information.

G. Application of Critical Accounting Estimates
The financial statements are based on the selection of accounting policies and the application of
significant accounting estimates, some of which require management to make significant
assumptions. Further, the estimates are based on current conditions that may change in the
future. Actual results could differ materially from the estimated amounts. The financial
statements include information to assist in understanding the effect of changes in assumptions
to the related information.


2. Related Parties

The RRB has significant transactions with the following governmental and nongovernmental
entities:

●   Treasury collects payroll taxes from the railroads on behalf of the RRB. The taxes collected
    are credited by Treasury to the RRB’s trust fund account via an appropriation warrant. In
    fiscal years 2012 and 2011, net payroll taxes transferred to the RRB by Treasury were
    $4.8 billion and $4.7 billion, respectively.

    Treasury provides payment services to Federal agencies and operates collections and
    deposit systems. The RRB invests in government account securities through BPD. In fiscal
    years 2012 and 2011, investments, including accrued interest, totaled $1.6 billion and
    $1.5 billion, respectively. In addition, Treasury advances funds to the RRB for the financial
    interchange which are repaid annually. The amount paid by the RRB to Treasury in fiscal
    year 2012 due to the financial interchange advances during fiscal year 2011 included
    principal of $3.8 billion and interest of $130 million. The amount paid by the RRB to
    Treasury in fiscal year 2011 due to the financial interchange advances during fiscal year
    2010 included principal of $3.8 billion and interest of $134 million.

●   The Social Security Administration (SSA) and RRB participate in an annual financial
    interchange. The financial interchange is intended to place the social security trust funds in
    the same position in which they would have been had railroad employment been covered by
    the Social Security Act and Federal Insurance Contributions Act (FICA). In fiscal year 2012,
    the RRB trust funds realized $4.7 billion through the financial interchange.


                                                - 69 -
    Under Section 7(b)(2) of the Railroad Retirement Act of 1974, the RRB is required to pay
    certain individuals, described in this section, monthly social security benefits on behalf of
    SSA. SSA reimburses the RRB for benefits paid on behalf of SSA. The amounts
    reimbursed were $1.4 billion for fiscal year 2012 and $1.4 billion for fiscal year 2011.

●   The Centers for Medicare & Medicaid Services (CMS) participates in the annual financial
    interchange in the same manner as described for SSA. The RRB transferred $511 million
    and $477 million to CMS in fiscal years 2012 and 2011, respectively. In addition to the
    financial interchange transactions, CMS reimburses the RRB for certain expenses it incurs
    associated with administering the Medicare program. The amounts reimbursed in fiscal
    years 2012 and 2011 were $13 million and $10.9 million, respectively.

●   The General Services Administration (GSA) provides payroll processing and human
    resources services to the RRB. In addition, the RRB paid rent to GSA in the amount of
    $3.4 million for fiscal year 2011 and $3.2 million for fiscal year 2012.

●   The Department of Labor (DOL) invests Railroad Unemployment Insurance Act (RUIA)
    contributions. Accounts receivable with the DOL amounted to $171 million and $55 million
    for fiscal years 2012 and 2011, respectively.

●   The National Railroad Retirement Investment Trust (NRRIT) transfers funds to the RRB for
    payment of railroad retirement benefits. During fiscal years 2012 and 2011, the NRRIT
    transferred $2,026 million and $1,744 million, respectively, to the RR Account. The NRRIT
    holds and invests funds not immediately needed to pay benefits under the RRA. The net
    assets of the NRRIT are reported on the RRB’s balance sheet as a non-governmental
    investment. The RRB reports this information based on information provided by the NRRIT
    for that purpose.


3. Fund Balances with Treasury

Fund balances with Treasury at September 30 consisted of:

                                                                              2012          2011
    A. Fund Balances:
            (1) Trust Funds                                               $ 50,897,754   $ 38,858,214
            (2) General Funds                                              188,842,417    190,912,181
            (3) Other Fund Types                                                     0              0

                     Total                                                $239,740,171   $229,770,395

    B. Status of Fund Balance with Treasury (FBWT)
             (1) Unobligated Balance
                 (a) Available                                            $155,436,232   $149,132,322
                 (b) Unavailable                                            37,670,305     41,256,255
             (2) Obligated Balance not yet Disbursed                        46,633,634     39,381,818
             (3) Non-Budgetary FBWT                                                  0              0

                     Total                                                $239,740,171   $229,770,395

    C. Other Information: The above represents cash held in Treasury. Unobligated
       and obligated funds not held in cash are invested in Treasury securities.




                                                       - 70 -
4. Investments

The investments in Treasury securities represent the investments of two of the RRB’s
earmarked funds, the RR and the SSEB Accounts.

                                                  Amounts for Balance Sheet Reporting
                                           Cost           Interest Receivable      Investments Net
Intragovernmental Securities:
    Non Marketable Par Value 2012      $1,630,413,000             $2,391,952        $1,632,804,952

  Non Marketable Par Value 2011        $1,491,827,000             $2,397,312        $1,494,224,312

The balance on September 30, 2012, consisted of investments in 3.000 percent par value
specials (with market value equal to face value) maturing on October 1, 2012. The balance on
September 30, 2011, consisted of investments in 3.000 percent par value specials (with market
value equal to face value) maturing on October 3, 2011. Par value specials mature on the first
working day of the month following the month of issue and have a yield based on the average
yield of marketable Treasury notes with maturity dates at least 3 years away.

The Federal Government does not set aside assets to pay future benefits or other expenditures
associated with the RR and SSEB Accounts. The cash receipts from the railroads for the RR
and SSEB Accounts are deposited in the Treasury, which uses the cash for general government
purposes. Treasury securities are issued to the RRB as evidence of its receipts. Treasury
securities are an asset to the RRB and a liability to the Treasury. Because the RRB and the
Treasury are both parts of the Federal Government, these assets and liabilities offset each other
from the standpoint of the government as a whole. For this reason, they do not represent an
asset or a liability in the U.S. government-wide financial statements.

Treasury securities provide the RRB with authority to draw upon the Treasury to make future
benefit payments or other expenditures. When the RRB requires redemption of these securities
to make expenditures, the government finances those expenditures out of accumulated cash
balances, by raising taxes or other receipts, by borrowing from the public or repaying less debt,
or by curtailing other expenditures. This is the same way that the Federal Government finances
all other expenditures.


5. NRRIT Net Assets

The balance sheet amounts represent the net asset value of NRRIT assets, at fair value, as of
September 30, 2012 and 2011. These figures were provided to the RRB by the NRRIT for the
fiscal years ended September 30, 2012 and 2011.

Readers of these financial statements should be aware that the Railroad Retirement and
Survivors’ Improvement Act of 2001 authorizes the NRRIT to invest railroad retirement assets in
a diversified investment portfolio in the same manner as those of private sector retirement
plans.




                                              - 71 -
6. Accounts Receivable

• Intragovernmental

Accounts receivable - Intragovernmental at September 30 consisted of:

                                                                               2012              2011

   Financial Interchange – Principal                                        $4,194,100,000    $4,084,400,000
   Financial Interchange – Interest                                            132,100,000       142,600,000
   Department of Labor                                                         171,073,952        55,081,547
   CMS – Refund of Medicare Part B Premiums                                        169,000           169,000
   Social Security Administration - OASI/DI Benefits
                   (Old Age and Survivors Insurance/Disability Insurance)               0                  0
   Treasury General Fund – HIRE Act (Tier I)                                            0          4,400,000

    Total                                                                   $4,497,442,952    $4,286,650,547

• Accounts Receivable, Net

Accounts receivable, net at September 30 consisted of:

                                                                                 2012           2011

   Accounts receivable - Benefit overpayments                                $52,594,649     $54,925,842
   Accounts receivable – Past due RUI contributions and taxes                    604,264         592,478
   Accounts receivable – Interest, penalty & administrative costs                496,717         409,477
     Total                                                                   $53,695,630     $55,927,797
   Less: Allowances for doubtful accounts                                     12,269,351      13,062,672

     Net Total                                                               $41,426,279     $42,865,125

The RRB’s September 30, 2012, accounts receivable balance (after deducting currently not
collectible (CNC) receivables but prior to the application of the allowance for doubtful accounts)
of $53,695,630 includes $42,898,885 (80%) in railroad retirement program receivables and
$10,796,745 (20%) in railroad unemployment insurance program receivables. The total
allowance for doubtful accounts is $12,269,351. This includes $9,334,797 (76%) for the railroad
retirement program and $2,934,554 (24%) for the unemployment insurance program
receivables.

The allowance for doubtful accounts for the railroad retirement program was calculated,
excluding debts classified as CNC, as follows: (1) categorizing the accounts receivable by
cause and age, (2) analyzing each category using historical data, (3) determining the
percentage of amounts due the RRB that would probably not be collected, and (4) applying the
determined percentages against accounts receivable.


7. Inventory and Related Property

Operating materials and supplies are valued on the cost basis. The recorded values are
adjusted for the results of physical inventories taken periodically. Expenditures are recorded
when inventories are consumed.




                                                          - 72 -
8. General Property, Plant and Equipment

These assets are stated at cost less accumulated depreciation/amortization. Acquisitions are
capitalized if the cost is $5,000 or more and the service life is 2 years or greater.
Depreciation/amortization is computed on the straight-line method. These assets consisted of:

                                                                              At September 30, 2012
                                             Service                              Accumulated          Net
        Classes of Fixed Assets               Lives                Cost            Depreciation     Book Value
Structures, facilities and leasehold
  improvements                                15 years          $ 2,723,731        $ 2,683,430        $     40,301
ADP software                                   5 years           19,666,348         19,657,571               8,777
Equipment                                   5-10 years            6,337,831          5,861,594             476,237
Internal-Use Software in Development                              1,467,325                  0           1,467,325

                                                                $30,195,235        $28,202,595        $1,992,640



                                                                              At September 30, 2011
                                             Service                              Accumulated          Net
        Classes of Fixed Assets               Lives                Cost            Depreciation     Book Value
Structures, facilities and leasehold
  improvements                                15 years          $ 2,723,731        $ 2,673,319       $      50,412
ADP software                                   5 years           19,615,921         19,602,513              13,408
Equipment                                   5-10 years            4,809,548          4,623,124             186,424
Internal-Use Software in Development                              1,248,235                  0           1,248,235

                                                                $28,397,435        $26,898,956        $1,498,479

9. Liabilities

Liabilities at September 30 consisted of:

                                                                              2012                   2011
  Intragovernmental:
    Other – Unfunded Federal Employees’ Compensation Act
            (FECA) Liability                                              $      755,924         $        670,677

  Public:
    Other – Accrued Unfunded Leave                                        $    6,933,483         $    7,186,594

  Total Liabilities Not Covered by Budgetary Resources                    $    7,689,407         $    7,857,271
  Total Liabilities Covered by Budgetary Resources                         4,915,584,776          5,157,627,460

  Total Liabilities                                                       $4,923,274,183         $5,165,484,731




                                                       - 73 -
• Debt

Intragovernmental debt results from borrowing from Treasury to fund benefit payments from the
SSEB Account.

                                                                              2012                     2011

   Beginning Balance, Principal                                           $3,484,000,000        $3,480,500,000
    New Borrowing                                                          3,734,200,000         3,815,800,000
    Repayments                                                            (3,816,400,000)       (3,812,300,000)
    Ending Balance, Principal                                              3,401,800,000         3,484,000,000
    Accrued Interest                                                          43,803,447            52,280,762

     Total                                                                $3,445,603,447        $3,536,280,762

• Benefits Due and Payable

Benefits due and payable are accrued for all benefits to which recipients are entitled for the
month of September, which, by statute, are not paid until October. Also, liabilities are accrued
on benefits for past periods that have not completed processing, such as benefit payments due
but not paid. The amounts include uncashed checks of $12,798,969 and $12,410,998, at
September 30, 2012 and 2011, respectively. Under Public Law 100-86, the amount of RRB
benefits represented by checks which remain uncashed for 12 months after the check issue
date are credited (including interest thereon) to the accounts from which the checks were
drawn. The principal amount of uncashed checks must remain in a liability account until the
RRB determines that entitlement no longer exists or another check is issued to the beneficiary.

A special workload of approximately 11,509 benefit cases, estimated at $5.7 million, has been
identified and will be processed over the next few years.

• Other Liabilities

Other liabilities at September 30 consisted of:

                                                                                                       2012
                                                        Non-Current             Current                Total

   Intragovernmental:
     Employer Contributions & Payroll Taxes Payable                            $      366,167      $      366,167
     Unfunded FECA Liability                                                          755,924             755,924
      Total Intragovernmental                                                       1,122,091           1,122,091

   Accrued Unfunded Liabilities                                                     6,933,483           6,933,483
   Accrued Payroll                                                                  1,498,378           1,498,378
   Accrued RRB Contributions – Thrift Savings Plan                                     43,519              43,519
   Withholdings Payable                                                                74,428              74,428
   Contingent Liability (see Note 10 for details)                     0                     0                   0
   Capital Lease Liability                                                                  0                   0
   Other                                                                           11,931,193          11,931,193

      Total Other Liabilities                                         0        $21,603,092         $21,603,092




                                                      - 74 -
                                                                                                    2011
                                                       Non-Current           Current                Total

  Intragovernmental:
    Employer Contributions & Payroll Taxes Payable     $             0   $      363,117       $       363,117
    Unfunded FECA Liability                                          0          670,677               670,677
     Total Intragovernmental                                         0        1,033,794             1,033,794

  Accrued Unfunded Liabilities                                       0        7,186,594             7,186,594
  Accrued Payroll                                                    0        1,540,178             1,540,178
  Accrued RRB Contributions – Thrift Savings Plan                    0           41,757                41,757
  Withholdings Payable                                               0           82,523                82,523
  Contingent Liability (see Note 10 for details)           105,000,000       38,790,000           143,790,000
  Capital Lease Liability                                            0                0                     0
  Other                                                              0        3,188,354             3,188,354

       Total Other Liabilities                         $105,000,000      $51,863,200          $156,863,200



10. Commitments and Contingencies

The RRB is involved in the following actions:

   •     A railroad has filed a suit claiming a refund of Railroad Retirement Tax Act or FICA taxes
         paid on moving expenses and interest on supplemental annuity taxes. The RRB’s legal
         counsel has determined that one of the cases was decided and awarded $9 million
         which consists of $1.2 million for the employer’s share, $0.7 million for the employees’
         share and the remaining $7.1 million for the supplemental annuity interest. The amount
         is no longer contingent; therefore, the amount yet to be paid was reclassified to Other
         Liabilities. Another railroad filed suit requesting a refund of approximately $20 million
         (not including interest) representing the employer’s share of taxes previously paid with
         respect to moving and relocation expenses and with respect to stock purchased by
         current and former employees under non-qualified stock options. The likelihood of loss
         of taxes paid on moving expense allowances and employee stock options is reasonably
         possible. Also see Subsequent Events footnote 22.

   •     Several Class I railroads have filed claims for refund of taxes with the Internal Revenue
         Service (IRS). Of the $2.7 billion in claims, the RRB’s legal counsel has determined that
         it is reasonably possible that the RR and SSEB Accounts are contingently liable for an
         estimated amount of $1.3 billion, and the remaining $1.4 billion is remote. Under the
         anti-disclosure provision of the IRS code, we are not permitted to disclose any details
         related to these claims. No provision has been made in the accompanying financial
         statements regarding these claims other than this disclosure.

   •     As of September 30, 2012, the RRB had contractual arrangements which may result in
         future financial obligations of $39.6 million.

   •     There is no contingent liability in fiscal year 2012 for military service credits.




                                                     - 75 -
11. Intragovernmental Costs and Exchange Revenue

                                                                    2012              2011
  Railroad Retirement (RR) Act Program
   Intragovernmental Costs                                    $   153,968,800     $   165,144,079
   Public Costs                                                11,415,154,533      11,051,392,699
       Total RR Act Program Costs                             $11,569,123,333     $11,216,536,778

   Intragovernmental Earned Revenue                           $      13,208,883   $    11,092,913
   Public Earned Revenue                                                      0                 0
       Total RR Act Program Earned Revenue                    $      13,208,883   $    11,092,913

  Railroad Unemployment Insurance (RUI) Act Program
   Intragovernmental Costs                                    $       4,954,846   $     4,743,469
   Public Costs                                                     117,502,878       133,510,527
       Total RUI Act Program Costs                            $     122,457,724   $   138,253,996

   Intragovernmental Earned Revenue                           $               0   $             0
   Public Earned Revenue                                             20,611,899        21,885,559
       Total RUI Act Program Earned Revenue                   $      20,611,899   $    21,885,559

These totals do not include $28,071 and $30,628 of earned revenues not attributable to either
program for fiscal years 2012 and 2011, respectively.

Intragovernmental costs (exchange transactions made between two reporting entities within the
Federal Government) are being reported separately from costs with the public (exchange
transactions made between the reporting entity and a non-Federal entity). Intragovernmental
exchange revenues (exchange transactions made between two reporting entities within the
Federal Government) are reported separately from exchange revenues with the public
(exchange transactions made between the reporting entity and a non-Federal entity).
Intragovernmental expenses relate to the source of goods and services purchased by the
reporting entity, not to the classification of related revenue.


12. Transfers To/From NRRIT

The RRB received a total of $2,026 million and $1,744 million from the NRRIT during fiscal
years 2012 and 2011, respectively. These funds were received into the RR Account. Transfers
were to fund the payment of benefits.


13. Undelivered Orders at the End of the Period

                                                2012         2011

     Undelivered Orders                       $12,038,658   $8,201,017




                                                   - 76 -
      14. Explanation of Differences Between the Combined Statement of Budgetary Resources
          and the Budget of the United States Government

      A reconciliation was completed of budgetary resources, obligations incurred, distributed
      offsetting receipts, and outlays, as presented in the Statement of Budgetary Resources for the
      year ended September 30, 2011, to amounts included in the Budget of the United States
      Government. A reconciliation was not performed for the period ended September 30, 2012,
      since the RRB’s Performance and Accountability Report is published in November 2012, and
      OMB’s MAX system will not have actual budget data available until mid-December 2012.

      The Budget of the United States Government and the RRB’s Statement of Budgetary
      Resources differ because of the following transaction types:


                                                                       Fiscal Year 2011 (in millions)
                                                                                          Distributed
                                                      Budgetary     Obligations            Offsetting
                                                      Resources      Incurred              Receipts       Net Outlays

1.      Combined Statement of Budgetary
          Resources – September 30, 2011                  12,355          12,165                 4,585           7,416
2.      Expenditure Transfers from Trust Funds              (118)
3.      Unobligated Balance, Brought Forward
          October 1, 2010                                   (183)
4.      Recoveries of Prior Year Unpaid Obligations           (1)
5.      Sickness Insurance Benefit Recoveries                (22)
6.      Administrative Expense Reimbursement                 (12)
7.      Cancelled Authority                                    1
8.      Interfund Transfers: Federal Payment
          Obligations – Income Taxes Collected
          on Benefits (0113)                                (698)
9.      Intrafund Transfers: Receipts from the
        Old-Age and Survivors Insurance (OASI)
        Trust Fund                                        (4,110)
10.     Intrafund Transfers: Receipts from the
        Disability Insurance (DI) Trust Fund                (465)

                   Financial Interchange

11.     Accrued Receipts from the OASI and DI
        Trust Funds                                                                                191            (191)
12.     Accrued Transfers to the Federal Hospital
        Insurance Trust Fund                                                                       498            (498)

                          NRRIT

13.     NRRIT Obligations / Outlays                        1,817           1,817                                 1,817
14.     Intrafund Transfers: NRRIT Transfer to
          RRA                                             (1,744)                                1,744          (1,744)
15.     Proprietary Receipts: NRRIT – Gains and
          Losses                                            371                                   (371)            371
16.     Proprietary Receipts: NRRIT – Interest
          and Dividends                                     (512)                                  512            (512)
17.     Rounding                                                                                     1              (1)
18.     Budget of the United States Government
        FY 2011 Actuals                                    6,679          13,982                 7,160           6,658




                                                           - 77 -
15. Social Insurance

•    Surplus/(unfunded obligation) represents combined values for the RR Account,
     SSEB Account, and NRRIT.

•    Estimated future revenue includes tier 1 taxes, tier 2 taxes, income taxes on benefits, and
     financial interchange income, where financial interchange income consists of financial
     interchange transfers plus financial interchange advances from general revenues less
     repayment of financial interchange advances from general revenues.

•    Estimated future expenditures include benefit and administrative costs.

•    Detail may not add to totals due to rounding. Employee and beneficiary status are
     determined as of 1/1/2011, whereas present values are as of 1/1/2012.

    Treasury Securities and Assets Held by the Program

Higher Treasury securities and assets result in lower tax rates and consequently lower future
tax income whereas lower Treasury securities and assets result in higher rates and income.


16. Significant Assumptions

The estimates used in the Statement of Social Insurance and Required Supplementary
Information are based on the assumption that the program will continue as presently
constructed. The calculations assume that all future transfers required by current law under the
financial interchange will be made.

The estimates are also based on various economic, employment, and other actuarial
assumptions. The ultimate economic assumptions are a 7.0 percent investment return, a
2.8 percent annual increase in the cost of living, and a 3.8 percent annual wage increase.

The employment assumption for the Statement of Social Insurance is employment assumption
II, the intermediate employment assumption, as used in the Twenty-Fifth Actuarial Valuation.
Under employment assumption II, starting with an average 2011 employment of 230,000,
(1) railroad passenger employment is assumed to remain level at 45,000, and (2) the
employment base, excluding passenger employment, is assumed to decline at a constant
annual rate of 2.0 percent for 25 years, at a reducing rate over the next 25 years, and remain
level thereafter.

Actuarial assumptions are those published in the Technical Supplement to the “Twenty-Fifth
Actuarial Valuation of the Assets and Liabilities Under the Railroad Retirement Acts as of
December 31, 2010.” This may be found on the RRB’s website, www.rrb.gov.




                                               - 78 -
Actuarial assumptions published in the Twenty-Fifth Actuarial Valuation include:

Table S-1.    2010 RRB Annuitants Mortality Table
Table S-2.    2010 RRB Disabled Mortality Table for Annuitants with Disability Freeze
Table S-3.    2010 RRB Disabled Mortality Table for Annuitants without Disability
              Freeze
Table S-4.    2006 RRB Active Service Mortality Table
Table S-5.    2010 RRB Spouse Total Termination Table
Table S-6.    Probability of a retired employee having a spouse eligible for railroad
              retirement benefits
Table S-7.    1995 RRB Mortality Table for Widows
Table S-8.    1997 RRB Remarriage Table
Table S-9.    2004 RRB Total Termination Table for Disabled Children
Table S-10.   Calendar year rates of immediate age retirement
Table S-11.   Rates of immediate disability retirement and of eligibility for disability
              freeze
Table S-12.   Calendar year rates of final withdrawal
Table S-13.   Service months and salary scales
Table S-14.   Family characteristics of railroad employees assumed for the valuation of
              survivor benefits




                                             - 79 -
     Note 17 Earmarked Funds
                                                         8010                8011              8051.001                 0113               8237               8051.002             8018                               Total
                                                         SSEB                RRA                  RUIA            Federal Payments     Limitation on            RUIA           Limitation on     Eliminations       Earmarked
                                                                                            Benefit Pa~ments       to RR Accounts      Administration      Admin Ex~enses           OIG                               Funds
     Balance Sheet as of September 30, 2012

     Assets

     Fund Balance with Treasury                         $12,873,699          $16,696,962           $3,970,793           $24,889,493         $15,167,549           $269,402        $1,262,271                           $75,130,169
     Investments                                        928,271,039          704,533,913                                                                                                                             1,632,804,952
     NRRIT Net Invested Assets                                            23,641,360,813                                                                                                                            23,641,360,813
     Taxes and Interest Receivable                     4,326,200,000          33,733,088           166,004,879                                  200,000         11,149,701                             (200,000)     4,537,087,668
     Other Assets                                                                                                                             1,971,179                              162,868                             2,134,047

                 Total Assets                          5,267,344,738

     Liabilities Due and Payable                       4,468,784,224         425,144,523            7,476,379                                   431,152             28,288             6,525           (200,000)     4,901,671,091 

     Other Liabilities                                                        11,931,193                                                      8,951,308                              720,591                            21,603,092 


     Total Liabilities

     Unexpended Appropriations                                                                                           24,889,493                                                                                     24,889,493 

     Cumulative Results of Operations                   798,560,514       23,959,249,060           162,499,293                                7,956,268         11,390,815           698,023                        24,940,353,973 


                 Total Liabilities and Net Position


     Statement of Net Cost for the Period
     Ended September 30, 2012
00
0    Gross Program Costs                              $6,754,175,281      $4,649,972,473          $97,215,590          $771,007,122        $125,470,056                          $10,061,867      ($771,430,776)   $11,636,471,613
     Less Earned Revenues                                                                           20,611,899                               12,230,988                            1,402,895           (425,000)        33,820,782

     Net Program Costs                                 6,754,175,281       4,649,972,473           76,603,691           771,007,122         113,239,068                            8,658,972       (771,005,776)    11,602,650,831

     Costs Not Attributable to Program Costs
     Less Earned Revenues Not
                Attributable to Program Costs                                                                                          $         28,071                                                                     28,071

     Net Cost of Operations                           $6,754,175,281      $4,649,972,473           $76,603,691         $771,007,122        $113,210,997                           $8,658,972      ($771,005,776)   $11,602,622,760



     Statement of Changes in Net Position
     for the Period Ended September 30,2012

     Net Position Beginning of Period                  $319,948,490      $22,466,647,474          $40,274,485           $21,045,822          $3,347,267        $11,700,076          $769,122                       $22,863,732,736

     Appropriations Received                                                                                            774,911,855                                                                                    774,911,855
     Expended Appropriations                                                                                            771,007,122                                                                                    771,007,122
     Other Adjustments                                                                                                      (61,062)
     Appropriations Used                                                                                               (771,007,122)

     Taxes and Non-Exchange Revenue                    2,899,565,099       2,672,098,716          188,614,995                                                    25,462,563                        (771,005,776)     5,014,735,597
     Other Financing Sources                           4,333,222,206         (50,847,939)          10,213,504                               117,819,998         (25,771,824)       8,587,873                         4,393,223,818
     Transfers In From NRRIT                                               2,026,000,000                                                                                                                             2,026,000,000
     Change in NRRIT Assets                                                1,495,323,282                                                                                                                             1,495,323,282

     Net Cost of Operations                           (6,754,175,281 )    (4,649,972,473)         (76,603,691 )        (771,007,122)       (113,210,997)                           (8,658,972)     771,005,776     (11,602,622,760)

     Change in Net Position                             478,612,024        1,492,601,586          122,224,808             3,843,671           4,609,001           (309,261)          (71,099)                        2,101,510,730

     Net Position End of Period                        $798,560,514      $23,959,249,060         $162,499,293           $24,889,493          $7,956,268        $11,390,815          $698,023                       $24,965,243,466
      Note 17 Eannarked Funds
                                                         8010                   8011                 8051.001                0113              8237             8051.002            8018                                    Total
                                                         SSEB                   RRA                     RUIA           Federal Payments    Limitation on          RUIA          Limitation on       Eliminations          Earmarked
                                                                                                  Benefit Palments      to RR Accounts     Administration    Admin Ex~enses          OIG                                    Funds
      Balance Sheet as of September 30, 2011

      Assets

      Fund Balance with Treasury                         $12,343,119            $10,221,234               $3,355,602        $21,045,822       $10,843,825          $257,614         $1,178,582                                 59,245,798
      Investments                                        796,827,566            697,396,746                                                                                                                                 1,494,224,312
      NRRIT Net Invested Assets                                              22,146,037,531                                                                                                                                22,146,037,531
      Taxes and Interest Receivable                     4,231,400,000            35,320,360               49,812,785                              683,878         11,525,380            75,000             (758,878)        4,328,058,525
      Other Assets                                                                                                                              1,429,061                              223,235                                  1,652,296

                  Total Assets                          5,040,570,685        22,888,975,871              531168,387          21,045,822        12,956,764        11,782,994          1,476,817             !758,878~       28,029,218,462

      Liabilities Due and Payable                                                                        12,893,902                               422,449             82,918             9,897             (758,878)        5,008,622,529
      Other Liabilities

      Total Liabilities                                 4,720,622,195          422,328,397               12,893,902                             9,609,497             82,918           707,695             (758, 8781       5,165,485,726

      Unexpended Appropriations                                                                                              21,045,822                                                                                        21,045,822
      Cumulative Results of Operations                   319,948,490         22,466,647,474              40,274,485                             3,347,267        11,700,076            769,122                          ~842,686,914


                  Total Liabilities and Net Position   $5,040,570,685       $22,888,975,871             $53,168,387         $21,045,822       $12,956,764       $11,782,994         $1,476,817            ($758,878,       28,029,218,462


      Statement of Net Cost for the Period
      Ended September 30, 2011
:xl
      Gross Program Costs                              $6,517,069,440        $4,523,014,465            $114,311,968        $698,066,236      $129,123,565                          $10,127,455        ($699,540,256)       11,292,192,873
      Less Earned Revenues                                                                               21,885,559                            10,199,716                            1,318,197             (425,000)           32,978,472

      Net Program Costs                                 6,517,069,440         4,523,014,465               92,426,409        698,086,236       118,923,849                            8,809,258         (699,115,256)       11,259,214,401

      Costs Not Attributable to Program Costs
      less Earned Revenues Not
                 Attributable to Program Costs                                                                                                     30,620                                       8                                  30,628

      Net Cost of Operations                           $6,517,069,440        $4,523,014,465             $92,426,409        $698,086,236      $118,893,229                           $8,809,250        ($699,115,256,       11,259,183,773


      Statement of Changes in Net Position
      for the Period Ended September 30, 2011

      Net Position Beginning of Period                  $564,943,363        $23,981,000,165            ($25,394,052)           $546,185        $3,617,351        $8,249,301           $834,834                             24,533,797,147

      Appropriations Received                                                                                               718,650,000                                                                                       718,650,000
      Expended Appropriations                                                                                               698,086,236                                                                                       698,066,236
      Other Adjustments                                                                                                         (64,127)                                                                                          (64,127)
      Appropriations Used                                                                                                  (698,066,236)                                                                                     (698,086,236)

      Taxes and Non-Exchange Revenue                   2,706,368,270          2,726,425,076             151,248,872                                               23,722,467                           (699,115,256)        4,908,649,429
      Other FinanCing Sources                          3,565,706,297            179,283,440               6,846,074                           118,623,145        (20,271,692)        8,743,538                              3,858,930,802
      Transfers In From NRRIT                                                 1,744,000,000                                                                                                                                 1,744,000,000
      Change in NRRIT Assets                                                 (1,641,046,742)                                                                                                                               (1,641,046,742)

      Net Cost of Operations                           (6,517,069,44   °1    (4,523,014,465   1         {92,426,4091       (698,086,236)     (118,893,229)                          (8,809,250)        699,115,256        {11,259,183,7731

      Change in Net Position                            (2441994,873)        (1,514,352,691 1            65,668,537          20!499,637          !270,0841        3!4501775            165,7121                            11,670!064,411 )

      Net Position End of Period                         319,948,490         22,466,647,474              40,274,485          21,045,822         3,347,267        11,700,076            769,122                             22,863,732,736
18. Apportionment Categories of Obligations Incurred: Direct vs. Reimbursable Obligations

All RRB direct and reimbursable obligations are incurred against Category B apportionments.
There are no RRB direct or reimbursable obligations incurred against Categories A or Exempt
apportionments.

The Category B direct obligations are $12,564,445,535 and the reimbursable obligations are
$12,256,457. These are reported under Obligations Incurred on the SBR in the amount of
$12,576,701,992 which combines the direct and reimbursable obligations.

This disclosure agrees with the aggregate of RRB direct and reimbursable obligations as
reported on the RRB’s fiscal year 2012 year-end SF-133, Report on Budget Execution and
Budgetary Resources, and line 2190 in the Statement of Budgetary Resources.


19. Terms of Borrowing Authority Used

The Railroad Retirement Board (RRB), Social Security Administration and Centers for Medicare
and Medicaid Services are parties to a financing arrangement described as the “financial
interchange”.

The financial interchange between the railroad retirement and social security systems is
intended to put the Social Security Old-Age, Survivors, and Disability Insurance (OASDI) and
Hospital Insurance (HI) trust funds in the same position they would have been had railroad
employment been covered under the Social Security and Federal Insurance Contributions Acts.

Financial interchange transfers are made in a lump sum for a whole fiscal year in the June
following the close of a fiscal year. The Railroad Retirement Solvency Act of 1983, as
amended, provided for monthly advances of the financial interchange from the U.S. Treasury
general fund to be repaid when the financial interchange is settled each June. Each
advance/loan is equal to an estimate of the transfer the RRB would have received in the
preceding month if the financial interchange with social security were on an up-to-date basis,
with interest adjustments. The RRB must repay these advances/loans when it receives the
transfer from social security against which the money was advanced.

Section 7(c)(4) of the 1974 Railroad Retirement Act (RRA) as amended provides the rules for
repayment of the financial interchange advances and references Section 7(c)(3) for the interest
rate to be used.

The interest rate on the repayment of the advances is the same as that used in the actual
financial interchange determination from the close of the prior fiscal year until the date of the
transfer.


20. Available Borrowing Authority, End of the Period

The amount of RRB available borrowing authority at the end of the period associated with
financial interchange advances is $3,816,400,000.




                                               - 82 -
21. Legal Arrangements Affecting Use of Unobligated Balances

The portion of RRB trust fund receipts collected in the current fiscal year that exceed the
amount needed to pay benefits or other valid obligations remain in the RRB trust funds as
unobligated balances. These receipts can become available in the current year if needed for
valid obligations. RRB receipts are assets of the trust fund and available for obligation as
needed in the future.


22. Subsequent Events

On November 6, 2012, a United States district court issued a final ruling in favor of a railroad
which could result in a loss to the trust funds in excess of $22 million, exclusive of interest, for
taxes paid on moving expense allowances and employer stock options.

There was an increase of $0.7 billion in NRRIT net assets from the SOSI, January 1, 2012
valuation date and the September 30, 2012 balance sheet date, discussed in Note 15. Other
than these two events, no other material events or transactions have occurred subsequent to
September 30, 2012, that we are aware of. We have evaluated subsequent events through
November 15, 2012, the date the financial statements were released.


23. Adjustment to Unobligated Balance, Brought Forward, October 1, and Obligated Balance,
    Start of the Year

In fiscal year 2012, there is a net adjustment to unobligated balance brought forward of
$4,133,792 and an adjustment to obligated balances of $119,256. These adjustments relate to
a subsequent review of fiscal year 2011 unobligated and obligated balances.




                                                - 83 -
Note 24 Reconciliation of Net Cost of Operations to Budget
For the Years Ended September 30, 2012 and 2011
(in dollars)
                                                                                     2012                 2011
Resources Used to Finance Activities:
Budgetary Resources Obligated
 Obligations Incurred                                                           $12,576,701,992      $12,164,738,483
 Less: Spending Authority from Offsetting Collections and Recoveries               (154,650,508)        (152,926,070)
 Obligations Net of Offsetting Collections and Recoveries                        12,422,051,484       12,011,812,413
 Less: Offsetting Receipts                                                       (5,014,643,867)      (4,584,640,447)
 Net Obligations                                                                  7,407,407,617        7,427,171,966

Other Resources
 Imputed Financing from Costs Absorbed by Others                                      9,851,806           11,246,803
 Other                                                                            1,630,113,284       (1,678,936,742)
 Net Other Resources Used to Finance Activities                                   1,639,965,090       (1,667,689,939)

 Total Resources Used to Finance Activities                                       9,047,372,707        5,759,482,027

Resources Used to Finance Items Not Part of the Net Cost of Operations:
 Change in Budgetary Resources Obligated for Goods,
  Services & Benefits Ordered but not yet Provided 
                                 (3,036,494)            (592,642)
 Resources That Fund Expenses Recognized in Prior Periods 
                                    o            (877,543)
 Budgetary Offsetting Collections & Receipts That Do Not Affect Net 

  Cost of Operations 
                                                                (3,633,371 )          (788,135)
 Resources That Finance the AcquiSition of Assets 
                              (1 ,497,424,767)      1,640,604,217
 Other Resources or Adjustments to Net Obligated Resources 

  That Do Not Affect Net Cost of Operations                                                            3,885,574,000

 Total Resources Used to Finance Items Not Part of the Net Cost of Operations     2,743,987,368        5,523,919,897

 Total Resources Used to Finance the Net Cost of Operations                      11,791,360,075       11,283,401,924

Components of the Net Cost of Operations That Will Not Require or 

Generate Resources in the Current Period: 

Components Requiring or Generating Resources in Future Periods: 

 Increase in Annual Leave Liability 
                                                  (253,111 )            (85,699)
 Other 
                                                                           (134,586,696)          38,354,804
 Total Components of Net Cost of Operations That Will Require or Generate 

   Resources in Future Periods                                                     (134,839,807)          38,269,105

Components Not Requiring or Generating Resources:
 Depreciation and Amortization                                                                               110,645
 Total Components of Net Cost of Operations That Will Not Require
  or Generate Resources                                                               1,211,936              110,645

 Total Components of Net Cost of Operations That Will Not Require or 

  Generate Resources in the Current Period 
                                       (133,627,871 )         38,379,750

Net Cost of Operations                                                          $11,657,732,204      $11,321,781,674




                                                            - 84­
                                          UNAUDITED

Required Supplementary Information

Social Insurance

Payroll taxes paid by railroad employers and their employees are the primary source of funding
for the railroad retirement-survivor benefit programs. Railroad retirement taxes, which have
historically been higher than social security taxes, are calculated, like benefit payments, on a
two-tier basis. Railroad retirement tier 1 payroll taxes are coordinated with social security taxes
so that employees and employers pay tier 1 taxes at the same rate as social security taxes. In
addition, both employees and employers pay tier 2 taxes that are used to finance railroad
retirement benefit payments over and above social security levels. The tier 2 tax rate is based
on the ratio of certain asset balances to the sum of benefit payments and administrative
expenses.

Revenues in excess of benefit payments are invested to provide additional trust fund income.
The NRRIT oversees most investments, including all investments in non-governmental assets.

Additional trust fund income is derived from the financial interchange (FI) with the social security
trust funds, revenues from Federal income taxes on railroad retirement benefits, and
appropriations from general treasury revenues provided after 1974 as part of a phase-out of
certain vested dual benefits.

The financial interchange between the railroad retirement and social security systems is
intended to put the Social Security Administration (SSA) Federal Old-Age, Survivors, and
Disability Insurance (FOASI/DI) trust funds and the Centers for Medicare and Medicaid Services
(CMS) Federal Hospital Insurance (FHI) trust fund in the same position they would have been
had railroad employment been covered under the Social Security and Federal Insurance
Contributions Acts. It follows that all computations under the FI are performed according to
social security law. The amount of benefits payable under the RRA has no effect on the results.

Placing the social security trust funds in the same position they would have been had railroad
employment been covered under social security since its inception involves computing the
amount of social security payroll and income taxes relating to railroad employment and
computing the amount of additional benefits which social security would have paid to railroad
retirement beneficiaries during the same fiscal year. In the computation of the latter amount,
credit is given for any social security benefits actually paid to railroad retirement beneficiaries.
When benefit reimbursements exceed payroll and income taxes, the difference, with an
allowance for interest and administrative expenses, is transferred from the social security trust
funds to the SSEB Account. If taxes exceed benefit reimbursements, a transfer would be made
in favor of the social security trust funds.

On a present value basis, funds provided through the FI are expected to equal $84.2 billion, or
37.5% of the estimated future income of $224.3 billion.

Benefits

Full age annuities are payable at age 60 to workers with 30 years of service. For those with
less than 30 years of service, reduced annuities are payable at age 62 and unreduced annuities
are payable at full retirement age, which is gradually rising from 65 to 67, depending on year of
birth. Disability annuities can be paid on the basis of total or occupational disability. Annuities
are also payable to spouses and divorced spouses of retired workers and to widow(er)s,


                                               - 85 -
                                              UNAUDITED

surviving divorced spouses, partitioned surviving spouses, partitioned surviving divorced
spouses, divorced widow(er)s, remarried widow(er)s, children, and parents of deceased railroad
workers. Qualified railroad retirement beneficiaries are covered by Medicare in the same way
as social security beneficiaries.

Jurisdiction over the payment of retirement and survivor benefits is shared by the RRB and
SSA. The RRB has jurisdiction over the payment of retirement benefits if the employee had at
least 10 years of railroad service, or five years if performed after 1995; for survivor benefits,
there is an additional requirement that the employee’s last regular employment before
retirement or death was in the railroad industry. If a railroad employee or his or her survivors do
not qualify for railroad retirement benefits, the RRB transfers the employee’s railroad retirement
credits to SSA, where they are treated as social security credits.

Program Finances and Sustainability

The RRB must submit to the President and the Congress a report on the actuarial status of the
railroad retirement system. Projections are made of the various components of income and
outgo under three employment assumptions.

The Statement of Social Insurance presents an actuarial analysis of the financial position of the
railroad retirement system as of January 1, 2012. The figures in the table are based on the
Twenty-Fifth Actuarial Valuation extended through calendar year 2086. The present values in
the table are based on estimates of income and expenditures through the year 2086. The
estimates include income and expenditures related to future participants as well as to former
and present railroad employees. The present values are computed on the basis of economic
and demographic assumptions and employment assumption II, the intermediate employment
assumption, as used in the Twenty-Fifth Actuarial Valuation. Under employment assumption II,
starting with an average 2011 employment of 230,000, (1) railroad passenger employment is
assumed to remain level at 45,000, and (2) the employment base, excluding passenger
employment, is assumed to decline at a constant annual rate of 2.0 percent for 25 years, at a
reducing rate over the next 25 years, and remain level thereafter.

Actuarial Estimates: Actuarial estimates of the long-range financial condition of the railroad
retirement program are presented here. Throughout this section, the following terms will
generally be used as indicated:

      •   Income: sources of income are payroll taxes, income taxes, investment income, and
          financial interchange transfers.

      •   Income excluding interest a: income, as defined above, excluding the investment income
          from assets of the trust fund.

      •   Expenditures: benefit payments and administrative expenses.

      •   Cashflow: either (1) income excluding interest or (2) expenditures, depending on the
          context, expressed in nominal dollars.



a
    References to interest income in this section may be considered as referring to total investment income
    including dividends and capital gains.


                                                   - 86 -
                                         UNAUDITED

   •   Net Cashflow: income excluding interest less expenditures, expressed in nominal
       dollars.

The Statement of Social Insurance and the required supplementary information are based on
actuarial and economic assumptions used in the Twenty-Fifth Actuarial Valuation extended
through calendar year 2086, the RRA, and the Railroad Retirement Tax Act. This information
includes:

   (1) actuarial present values of future estimated expenditures for and estimated income from,
       or on behalf of, current and future program participants;

   (2) estimated annual income excluding interest and expenditures in nominal dollars and as
       a percentage of taxable payroll;

   (3) the ratio of estimated annuitants to estimated full-time employees, showing the
       relationship between the program’s benefit recipients and taxpayers; and

   (4) an analysis of the sensitivity of the projections to changes in selected assumptions,
       which is included in recognition of the inherent uncertainty of those assumptions.

Estimates are generally based on a 75-year projection period. Estimates extending far into the
future are inherently uncertain, with uncertainty greater for the more distant years.




                                             - 87 -
                                           UNAUDITED


Cashflow Projections – Chart 1 shows actuarial estimates of railroad retirement annual income,
income excluding interest, and expenditures for 2012-2086 in nominal dollars. The estimates
are for the open-group population, which includes all persons projected to participate in the
railroad retirement program as railroad workers or beneficiaries during the period. Thus, the
estimates include payments from, and on behalf of, those who will be employed by the railroads
during the period as well as those already employed at the beginning of the period. They also
include expenditures made to, and on behalf of, such workers during that period.

As Chart 1 shows, annual expenditures exceed annual income through 2026. By 2027, income
is greater than expenditures. This remains true throughout the remainder of the projection
period. Without investment income, however, annual expenditures are generally greater than
annual income although this is not true in 2030 through 2036 and in 2070 through 2076.
Reasons for this pattern include participant demographics, the assumed drop in railroad
employment, and the automatic tier 2 tax rate adjustment mechanism. The combined balance
of the NRRIT, RR Account, and SSEB Account never becomes negative largely because (i) a
sufficient balance exists at the beginning of the projection period and (ii) tier 2 tax rates respond
automatically to changing account balances.

Percentage of Taxable Payroll – Chart 2 shows estimated annual income excluding interest and
expenditures for the railroad retirement program expressed as percentages of taxable payroll.
Expenditures as a percentage of payroll increase from 2012 through 2019 primarily due to the
anticipated retirement of a large percentage of the current workforce combined with the
projected decline in railroad employment. Except for the income from tier 1 payroll taxes, the
sources of income vary as a percentage of payroll.




                                                - 88 -
                                              UNAUDITED

Sensitivity Analysis – The projections of the future financial status of the railroad retirement
program depend on many economic and demographic assumptions including rail employment,
inflation, wage increase, investment return, age retirement, disability retirement, withdrawal,
active service mortality, beneficiary mortality, total termination, probability of spouse,
remarriage, family composition, disability freeze, service patterns, and salary scales. Because
perfect long-range projections are impossible, this section is included to illustrate the sensitivity
of the long-range projections to changes in certain key assumptions that have the greatest
impact on the results. All present values are calculated as of January 1, 2012, and are based
on estimates of income and expenditures during the projection period 2012-2086.

Employment: Average employment in the railroad industry has generally been in decline for
some years. This decline is expected to continue. Since employment is a key consideration,
projections of income and expenditures using three different employment assumptions have
been made. The Statement of Social Insurance uses employment assumption II, the
intermediate assumption, but this section compares results under the three assumptions. For
all three cases, the average employment for the year 2011 is equal to 230,000. Employment
assumptions I and II, based on a model developed by the Association of American Railroads,
assume that (1) passenger employment will remain at the level of 45,000, and (2) the
employment base, excluding passenger employment, will decline at a constant annual rate
(0.5 percent for assumption I and 2.0 percent for assumption II) for 25 years, at a reducing rate
over the next 25 years, and remain level thereafter. Employment assumption III differs from
employment assumptions I and II by assuming that (1) passenger employment will decline by
500 per year until a level of 35,000 is reached and then remain level, and (2) the employment
base, excluding passenger employment, will decline at a constant annual rate of 3.5 percent for
25 years, at a reducing rate over the next 25 years, and remain level thereafter. Employment
assumptions I, II, and III are intended to provide an optimistic, moderate, and pessimistic
outlook, respectively.

Under employment assumptions I and II, no cashflow problems occur throughout the entire
period. Under employment assumption III, the combined balance of the RR Account, the
NRRIT, and the SSEB Account becomes negative in 2035 and remains so through the rest of
the 75-year period. Table 1 shows the excess of assets and the present value of income over
the present value of expenditures for the three employment assumptions.


                                       Table 1
 Excess of Assets and Present Value of Income over Present Value of Expenditures for
                    Three Employment Assumptions, 2012-2086
                                     (in billions)

     Employment Assumption                        I                 II              III

     Present Value                             $2.0                $1.5           $(1.6)

     Average Tier 2 tax                17.3%               19.9%          22.2%

 a
     Average combined employer/employee tier 2 tax rate is calculated by dividing the present value of
     tier 2 taxes by the present value of tier 2 payroll.




                                                      - 89 -
                                        UNAUDITED




Chart 3a shows the combined balance of the accounts under each of the three employment
assumptions. Note that the combined account balance is positive throughout the entire period
for assumptions I and II but goes negative in 2035 for assumption III and remains so through the
remainder of the 75-year period.

Chart 3b shows the tier 2 tax rate under these employment assumptions. The tax rate reaches
10 percent in 2065 under employment assumption I but then increases again slightly to
12 percent in 2074 and remains at that level through 2086 with the exception of 2084, when it is
14 percent. The tax rate goes down to 12 percent in 2084 under employment assumption II and
remains at that level through 2086. Under employment assumption III, the tax rate reaches the
maximum of 27 percent in 2027, remaining at that level through the remainder of the 75-year
period.




                                             - 90 -
                                          UNAUDITED




The tier 2 tax rate for each year is determined by the average account benefits ratio, which is
the average for the ten most recent fiscal years of the ratio of fair market value of assets in the
RR Account and NRRIT (and for years before 2002, the SSEB Account) to the total benefits and
administrative expenses paid from the RR Account and the NRRIT. Therefore, the tier 2 tax
rate will be affected by employment assumption. The tier 2 tax rate adjustment mechanism
promotes but does not guarantee solvency. The tier 1 tax rate does not vary by employment
assumption.

Investment return: Since investments may include non-governmental assets such as equity and
debt securities as well as governmental securities, it is worthwhile to examine the effects of
future rates of investment return. In addition to the investment return of 7 percent used for our
projections, we show the effect on the combined accounts of an investment return of 4 percent
and an investment return of 10 percent. Table 2 shows the excess of assets and the present
value of income over the present value of expenditures for the three investment return
assumptions. If the tier 2 tax rate were fixed, the actuarial surplus would increase with
increasing investment return. However, the tier 2 tax rate adjusts to changing account
balances, resulting in the highest average tax rate under the 4 percent scenario and the lowest
average tax rate under the 10 percent scenario. Under the 7 percent scenario, the tax rate
adjustment mechanism keeps the system in close actuarial balance. Under the 10 percent
scenario, the tax rate falls to the minimum rate in 2056 and remains at that level.




                                              - 91 -
                                         UNAUDITED



                                       Table 2
 Excess of Assets and Present Value of Income over Present Value of Expenditures for
                  Three Investment Return Assumptions, 2012-2086
                                     (in billions)

  Investment Return Assumption               4%             7%             10%


  Present Value                             $8.3            $1.5            $0.6

  Average Tier 2 tax rate                   21.8%          19.9%           17.0%




Chart 4a shows the combined account balance under the three investment return assumptions
for the projection period. At a 4 percent investment return, the account balance reaches its
lowest value in 2024, although it never becomes negative. After that it starts to increase, except
for a slight decrease in 2052 and 2053. With a 7 percent investment return, the account
balance decreases through 2026 and increases thereafter. A 10 percent investment return
results in a combined balance that increases throughout the projection period. Although the
4 percent scenario shows the lowest account balance at the end of the projection period, the
concurrent use of a 4 percent discount rate results in the highest surplus on January 1, 2012.




                                              - 92 -
                                          UNAUDITED

Chart 4b shows the tier 2 tax rate under the same three investment return assumptions. With a
4 percent investment return, the maximum tier 2 tax rate applies from 2025 through 2045. With the
7 percent investment return, the maximum tax rate applies from 2030 through 2036. With a
10 percent investment return, the maximum tax rate is never applicable, and the minimum tax rate
of 8.2 percent is paid beginning in 2056. As mentioned above, the tier 2 tax rate is determined
based on the ratios of asset values to benefits and administrative expenses, so it will be affected by
investment return, but tier 1 tax rates will not.




Ratio of Beneficiaries to Workers: Chart 5 shows the estimated number of annuitants per
full-time employee under all three employment assumptions. The average number of annuitants
per employee for employment assumption I is highest in 2012. For assumptions II and III, the
ratio is highest in 2021 and 2039, respectively. For all three employment assumptions, the
average number of annuitants per employee declines to between 1.6 and 1.7 by the end of the
projection period. The convergence in number of annuitants per employee at the end of the
projection period results primarily from level employment projected in the latter years under all
three employment assumptions.




                                              - 93 -
UNAUDITED




  - 94 -
RAILROAD RETIREMENT BOARD                                                                                COMBINED 

DISAGGREGATE OF BUDGETARY RESOURCES                                                                      RAILROAD 

FOR THE YEAR ENDED SEPTEMBER 30,2012                                                COMBINED 
        UNEMPLOYMENT 
 LIMITATION ON
(in dollars)                                                                        RAILROAD 
         AND SICKNESS 
 THE OFFICE OF
                                                                                   RETIREMENT 
         INSURANCE 
    INSPECTOR          COMBINED
                                                                                    PROGRAM 
            PROGRAM 
       GENERAL           TOTALS

Budgetary Resources
Unobligated balance brought forward, October 1                                       130,246,191           59,445,591        696,795       190,388,577
Adjustment to unobligated balance brought forward, October 1                          ~92,274,466~         96,408,258              0         4,133,792
   Unobligated balance brought forward, October 1, as adjusted                         37,971,725         155,853,849        696,795       194,522,369
Recoveries of prior year unpaid obligations                                             1,620,588                   0         39,695         1,660,283
Other changes in unobligated balance                                                   (1,574,543)                  0              0        (1,574,543)
Unobligated balance from prior year budget authority, net                              38,017,770         155,853,849        736,490       194,608,109
Appropriations (discretionary and mandatory)                                        8,561,621,834          92,227,793       (139,432)    8,653,710,195
Borrowing authority (discretionary and mandatory)                                   3,768,500,000                   0              0     3,768,500,000
Contract Authority (discretionary and mandatory)                                                0                   0              0                 0
Spending authority from offsetting collections (discretionary and mandatory)          122,146,402          21,286,369                      152,990,225
Total budgetary resources                                                          12,490,286,006         269,368,011                   12,769,808,529


Status of Budgetary Resources
Obligations incurred                                                               12,446,929,539         120,266,071      9,506,382    12,576,701,992
Unobligated balance, end of year:
   Apportioned                                                                            6,286,119       149,101,940        48,172        155,436,231
   Unapportioned                                                                         37,070,348                         599,958         37,670,306
Total unobligated balance, end of year                                                   43,356,467                                        193,106,537
Total Budgetary Resources                                                          12,490,286,006         269,368,011


Change in Obligated Balance 

Unpaid obligations, brought forward, October 1 
                                     977,448,688             8,736,157      556,787        986,741.632
Uncollected customer payments from Federal sources, brought forward, 

October 1 (-) 
                                                                          ~252, 119)                                0            (252,119!
   Obligated balance, start of year (net), before adjustments                         977,196,569                            556,787        986,489,513
Adjustment to obligated balance, start of year                                           (119,256)                   0             0            (119,256)
Obligated balance, start of year (net), as adjusted                                   977,077,313            8,736,157       556,787        986,370,257
Obligations incurred                                                               12,446,929,539          120,266,072     9,506,381     12,576,701,992
Outlays (gross) (-)                                                               (12,451,556,684)        (125,306,166)   (9,409,335)   (12,586,272,185)
Change in uncollected customer payments from Federal sources                               27,790                3,000             0              30,790
Recoveries of prior year unpaid obligations (-)                                        (1,620,588)                   0       (39,695)         (1,660,283)

Obligated balance, end of year
  Unpaid obligations, end of year (gross)                                            971,081,700             3,696,063      614,138        975,391,901
  Uncollected customer payments from Federal sources, end of year                       (224,330)                                             (221,330)
Obligated balance, end of year (net) 
                                               970,857,370


Budget Authority and Outlays, Net 

Budget authority, gross (discretionary and mandatory) 
                            12,452,268,236         113,514,162      9,418,022    12,575,200,420
Actual offsetting collections (discretionary and mandatory) (-) 
                    (122,174,193)        (21,289,368)    (9,557,454)     (153,021,015)
Change in uncollected customer payments from Federal sources (discretionary 

and mandatory) 
                                                                           27,790                                  0            30,790
Budget authority, net (discretienary and mandatory) 
                              12,330,121,833                           (139,432)   12,422,210,195


Outlays, gross (discretionary and mandatory) 
                                     12,451,556,683         125,306,166      9,409,336    12,586,272,185
Actual offsetting collections (discretionary and mandatory) (-) 
                    (122,174,192)        (21,289,368)    (9,557,455)     (153,021,015)
Outlays, net (discretionary and mandatory) 
                                       12,329,382,491         104,016,798       (148,119)   12,433,251,170
Distributed offsetting receipts (-) 
                                                                               0                   (5,014,643,867)
Agency outlays, net (discretionary and mandatory) 
                                                       104,016,798                    7,418,607,303




                                                                                - 95 ­
- 96 -
- 97 -
- 98 -
- 99 -
- 100 -
- 101 -
- 102 -
- 103 -
- 104 -
- 105 -
PAGE INTENTIONALLY LEFT BLANK
OTHER ACCOMPANYING INFORMATION
PAGE INTENTIONALLY LEFT BLANK
- 109 -
- 110 -
- 111 -
- 112 -
- 113 -
                                    Management’s Comments


These are Management’s comments on the Management and Performance Challenges identified by
the Railroad Retirement Board (RRB) Inspector General.

Providing Oversight of Invested Assets of the Railroad Retirement Act Program

In the Statement on Management and Performance Challenges issued October 12, 2012, the RRB’s
Office of Inspector General expressed concern with what it believes to be a lack of oversight of the
National Railroad Retirement Investment Trust and its investment activities carried out pursuant to
the Railroad Retirement and Survivor’s Improvement Act of 2001.

The Railroad Retirement and Survivors’ Improvement Act of 2001 (RRSIA) authorized the
establishment of the National Railroad Retirement Investment Trust (NRRIT) to handle investment of
railroad retirement funds in securities including stocks and bonds. The NRRIT by statute is not a
Federal agency or entity and is separate and apart from the RRB. The NRRIT is headed by a seven
member Board of Trustees comprised of representatives appointed by rail carriers, rail labor, and
seventh member selected by the six members representing rail carriers and rail labor who have the
fiduciary responsibility to prudently invest and manage the assets held in trust by NRRIT. In
enacting the RRSIA, Congress was concerned about too much control over the NRRIT and its
investment activities by the Federal government. As such, responsibility for managing the assets of
NRRIT was given to its seven trustees, but the legislation authorizes the RRB to bring legal action
against the NRRIT or NRRIT officials to compel compliance with the provisions of the Railroad
Retirement Act.

In a memorandum to the Chairman of the RRB dated August 30, 2012, the OIG identified what it
believed to be excessive compensation to investment staff and the independent Trustee, despite a
decline in the net assets of the Trust. The OIG also questioned increased administrative expenses.
The Chairman of the Trust responded to the General Counsel of the RRB that the OIG conclusion
regarding staff compensation was in part triggered by an accounting change required by the IRS
which caused much of the compensation paid in the Trust Fiscal Year 2007 to be included again in
the Trust return for fiscal year 2008. However, the Chairman of the Trust also noted that the current
staff compensation levels reflect independent advice purchased by the Trustees to reduce the rate of
loss of staff to other entities.

The OIG also noted correctly that the NRRIT’s administrative expenses have risen steadily since the
inception of the Trust. However, this increase in costs is attributable to the increasing use of
investment management firms to actively manage the investment of railroad retirement trust funds.
Investments by the NRRIT in the first few years of it existence were made in index funds. Costs
associated with these investments were relatively minor. In recent years, investments have moved
from index funds to actively managed investments by investment managers, currently amounting to
more than 75% of Trust assets. The fees charged by the investment managers comprise more than
84 percent of the total of the administrative costs reported by the NRRIT. While administrative costs
have risen since the beginning of the NRRIT, it may be noted that these costs have remained
relatively constant for the past four years as the NRRIT has moved the majority of its investment
from index funds to actively managed investments. In addition, the total number of employees of the
organization grew from two in 2002 to approximately 20 in 2007, and has since remained at that
level.

The response by the Chairman of the Trust also mentioned that the Congressional Research
Service has judged the overall administrative costs reported by the NRRIT to be very reasonable
considering the size of the portfolio, and to compare favorably with costs of other pension funds of
similar investment complexity. In a 2011 report, CRS found that while the average expense ratio for
all investors was 95 basis points for stock funds; 72 basis points for bond funds, and 26 basis points


                                               - 114 -
for money market funds, the Trust’s Fiscal Year 2010 expense ratio was 33 basis points (i.e.,
expenses were 0.33% of average net assets). After reviewing the legislative history of the
amendment to the Railroad Retirement Act which created the Trust and the structure of the Trust as
independent from the RRB, the RRB General Counsel advised the Board that based on the
Chairman of the Trust’s response, the RRB need take no action regarding the issues raised by the
OIG in the August 2012 memo.

The RRB is fulfilling its responsibilities under the RRSIA. The RRB’s Board Members meet with the
Board of Trustees twice each year to discuss the activities of the NRRIT, and the agency’s General
Counsel participates in telephone conference calls nearly every month with the Chief Executive
Officer/Chief Investment Officer and Counsel to the NRRIT to discuss the business conducted by the
Board of Trustees at their periodic meetings. In addition, staff from the RRB’s Bureau of Fiscal
Operations and Bureau of the Actuary communicate on a regular basis with NRRIT staff as well as
review various reports concerning investment activities and performance prepared by the NRRIT.

Program Integrity for the Occupational Disability Program

The RRB takes all allegations of program fraud and abuse very seriously and actively works to
reduce vulnerabilities in all of its programs where they exist. We have devoted additional time and
resources specifically to ensuring the integrity of the occupational disability program over the past
several years. Our efforts have included carrying out a detailed 5-part plan concerning oversight of
the occupational disability program and the Long Island Rail Road (LIRR); proactively studying
trends in the occupational disability program for the purpose of detecting anomalies and/or patterns
of fraud or abuse; developing and implementing a multi-phase Disability Program Integrity Action
Plan focused on increasing fraud awareness and other fraud detection methods; and responding to
numerous recommendations from the Office of Inspector General (OIG). In the past year, the
agency partnered with the OIG and the Department of Justice on a voluntary disclosure program
related to the ongoing LIRR fraud investigation. We also refer cases to the OIG for investigation
immediately upon the first hint of any potentially fraudulent activity. Lastly, we are finalizing a
proposal to present to the Social Security Administration requesting them to partner with the RRB in
reviewing and comparing disability adjudications at our respective agencies and sharing best
practices to insure proper payments, detect fraud and achieve processing efficiencies. Some of the
OIG’s more recent recommendations regarding the occupational disability program are still under
review as they may involve complex statutory or regulatory changes.

Financial Impact of Unilateral Disability Freeze Cases

As indicated by Strategic Goal II of the agency’s Strategic Plan, the RRB puts a high priority on
safeguarding the trust funds and agency resources. On September 28, 2012, we received a
Management Information Report from the Inspector General which contained two recommendations
dealing with the topic of unilateral disability freezes and their impact on the financial interchange with
the Social Security Administration in situations where a beneficiary’s condition worsens over time.
Since we were unaware of this study until the final report was received, we are currently reviewing
the background on this topic to determine the feasibility and cost-effectiveness of implementing the
recommendations.

Information Technology Security

The Railroad Retirement Board (RRB) takes Information Security very seriously and we continue to
improve our security posture. We are in the process of implementing a Risk Management
Framework that encompasses our continuous monitoring strategy to address OIG concerns. At the
end of fiscal year 2012, the RRB obtained the assistance of a contractor to support our Risk
Management efforts with the expectation that their assistance will mitigate the material weakness.
We are expecting the Risk Management Framework to be implemented by the end of fiscal year
2013.


                                                 - 115 -
Budgetary Reporting

RRB provided training on the preparation of the Statement of Budgetary Resources with the
accountants and budget staff involved in budget execution. Resources covered and provided in the
training included budgetary guidance issued by the Department of the Treasury and the Office of
Management and Budget. We plan to have additional training on budgetary reporting in fiscal year
2013 for the involved accounting and budget staff.

New budgetary reporting controls were developed in fiscal year 2012. These new budgetary
reporting controls were implemented in fiscal year 2012 and included a review process to ensure the
consistency in the recorded amounts. They are being monitored to determine their effectiveness
and whether additional controls are warranted.

Preventing and Detecting Improper Payments

The RRB has consistently focused its efforts on monitoring and reducing improper payments and
has steadily achieved impressive results. As recognized by the Inspector General, the rate of
improper payments under the Railroad Retirement Act decreased from 1.64% in fiscal year 2004 to
.59% in fiscal year 2011. This represents a decrease of 64% over 7 years. We attribute this
accomplishment primarily to increased automation and standardization of work processes, and
ongoing training of staff. We also perform detailed quality assurance studies and follow-up on all
findings indicating that improvements are possible.

The Inspector General also noted that more than 90% of the RRA improper payments are due to
information from external sources, such as changes in the beneficiary’s status that affects
entitlement or eligibility. We agree with the Inspector General that the RRB’s challenge is to obtain
current and accurate information and process it as quickly as possible, and we will continue to work
toward that end.

Disclaimer of Audited Financial Statements

The Inspector General has rendered a disclaimer of audit opinion to the RRB’s financial statements
due to a system peer review rating of NRRIT’s independent auditor Deloitte and Touche. The rating
of Deloitte and Touche’s peer review was a pass with discrepancies. The Inspector General
determined that the deficiencies cited in the report warranted the disclaimer because of the
materiality of the NRRIT’s net assets included in the agency’s total asset figure in the financial
statements.

In order to address the Inspector General’s concerns the agency made inquiries, with the support of
NRRIT, into the results of Deloitte’s and Touche’s peer review report. The results of the inquiry
revealed that NRRIT’s financial statement audit by Deloitte and Touche was not included in the test
by the peer reviewer. There was no implication of NRRIT’s financial statements being deficient or
requiring restatement. Additionally, Deloitte and Touche provided a response to the American
Institute of Certified Public Accountants’ National Peer Review Board on corrective actions taken
and the board accepted the response. These results were shared with the Inspector General’s
office, however, the assessment by the Inspector General remained the same.

Based on the inquiries made by the RRB concerning NRRIT’s financial statement audit and the
results obtained, there were no financial inconsistencies that warranted the audit opinion provided.
We will continue to work with the Inspector General’s office to resolve any further inquiries.




                                               - 116 -
                Improper Payments Information Act (IPIA) Reporting Details
                                (as amended by IPERA)


I. Risk Assessment. Briefly describe the risk assessment(s) performed (including the risk
factors examined, if appropriate) subsequent to completing a full program inventory. List
the risk-susceptible programs (i.e., programs that have a significant risk of improper
payments based on OMB guidance thresholds) identified by the agency risk assessments.
Include any programs previously identified in the former Section 57 of OMB Circular
No. A-11. Highlight any changes to the risk assessment methodology or results that
occurred since the last report.

The RRB administers two benefit payment programs: Railroad Retirement Act (RRA) retirement
and survivor benefits, and Railroad Unemployment Insurance Act (RUIA) benefits. Both were
designated as “high risk” under the former Section 57 of Circular A-11.

In January 2009, the Office of Management and Budget granted a three year relief from
reporting the RUIA program improper payments due to the consistently low level of error over
several years. Therefore, our Performance and Accountability Reports for fiscal years 2009
through 2011 included only our analysis of RRA improper payments.

Since the relief period for RUIA improper payments has expired, we are reporting the level of
improper payments for both programs in this year’s Performance and Accountability Report.

This year’s analysis of RUIA payments indicated an increase in the amount of improper
payments since the analysis was last done in fiscal year 2008. The increase was primarily due
to increased usage of the unemployment program as a result of the economic recession that
occurred during this interim period, as well as the enactment of several pieces of legislation
which increased duration of unemployment benefits. In addition, because several revisions had
to be made to our adjudication and payment systems, there was a delay in implementing the
first piece of legislation, the American Recovery and Reinvestment Act. During this delay,
railroad workers who had been unemployed found employment outside of the railroad industry,
but neglected to inform the RRB of this fact, resulting in improper payments. This became
evident when state wage match investigations, which are our main program integrity activity for
detecting fraudulent claiming of unemployment benefits, revealed a much higher level of activity.
There is typically a three to nine month lag in the information received from the states,
compounding the problem of detecting these improper payments on a timely basis.

We expect that the improper payment rate will decrease over time and return to the levels
previously seen before the recent unemployment legislation was enacted.

The agency used the process described below to calculate the amount of RRA and RUIA
improper payments made in fiscal year 2011.

                   Results of Fiscal Year 2011 Improper Payment Review

                Improper Payment Amt.          Improper Payment Rate         Action Plan or
  Program
                     >$10 million                      >2.5%                Targets Needed?

RRA                       Yes                            No                        No

RUIA                       No                            Yes                       No



                                             - 117 -
II. Statistical Sampling. Any agency that has programs or activities that are susceptible to
significant improper payments shall briefly describe the statistical sampling process
conducted to estimate the improper payment rate for each program identified with a
significant risk of improper payments. Please highlight any changes to the statistical
sampling process that have occurred since the last report.

The agency has an established methodology for identifying improper payments in the RRA and
RUIA benefit payment programs. It is based on determining both the known overpayments and
underpayments, which have since been recovered or paid out, and estimating those which
result from adjudicative error, but have not been identified or corrected. It also uses information
from quality assurance reviews. These reviews employ statistical sampling to study railroad
retirement awards. Also included in the estimated amounts are projections of improper
payments from audits, special studies, and estimates of manual work based on pending
workload referrals.


III. Corrective Actions. Any agency that has programs or activities that are susceptible to
significant improper payments shall describe the corrective action plans for:

a. Reducing the estimated improper payment rate and amount for each type of root cause
identified. Agencies shall report root cause information (including error rate and error
amount) based on the following three categories: Administrative and Documentation errors;
Authentication and Medical Necessity errors; and Verification errors. This discussion must
include the corrective action(s), planned or taken, most likely to significantly reduce future
improper payments due to each type of error an agency identifies, the planned or actual
completion date of these actions, and the results of the actions taken to address these root
causes. If efforts are ongoing, it is appropriate to include that information in this section,
and to highlight current efforts, including key milestones. Agencies may also report root
cause information based on additional categories, or sub-categories of the three categories
listed above, if available.

The root causes of error in the RRA program are summarized according to OMB’s root causes
in the table below.

           Root Cause of Error                Estimated Rate           Estimated Amount
   Administrative and Documentation                4.7%                      $3,106,469
   Authentication and Medical Necessity            3.4%                      $2,237,435
   Verification and Local Administration          91.9%                    $60,273,374
   Total                                          100%                     $65,617,278

Corrective Actions:

Administrative and Documentation: These errors result from improper handling by the
agency’s automated systems or its personnel. Planned corrective actions include:
• development of an enhanced automated retirement payment system to replace the current
   legacy system that processes Retirement Applications, planned for calendar year 2012,
• development of an interface between systems to ensure accurate use of military service in
   the calculation of benefits, tentatively scheduled for completion in calendar year 2012,
• expansion of a Medicare premium collection database to include Part B premium
   withholding history; work is scheduled to begin in fiscal year 2013,


                                              - 118 -
•   changes to ORCS (Overpayment Recovery Correspondence System), which is used to
    prepare overpayment notices and to upload overpayment data to other related agency
    systems (Program Accounts Receivable and Automated System to Recover Overpayments).
    ORCS is being automated to interact with mainframe programs to ensure that the most
    current data is retrieved and used in the development of RRA overpayment recovery.
    Current plans are to complete this automation initiative by the end of fiscal year 2012.

Authentication and Medical Necessity: Very few of the agency’s improper payments fall into
this category. There are no planned corrective/preventative actions.

Verification and Local Administration: These errors result from changes coming from
outside the agency, particularly changes in the beneficiary’s status which affect entitlement or
eligibility either temporarily or permanently, and changes in service and compensation typically
due to work. Our challenge is to obtain the information and process it as quickly as possible.

The initiatives to minimize this specific group of improper payments are:
• The RESCUE (Recalculate for Service and Compensation Updated to EDMA) system
   evaluates employer-reported changes to employee service and compensation records and
   adjusts annuities, if needed. RESCUE was implemented in fiscal year 2006 and evaluated
   record changes posted in January 2006. In fiscal year 2007, the system evaluated
   adjustments posted prior to January 2006 and identified specific RRA improper
   underpayments and paid out additional benefits due, resolving many of the improper
   payments that were included in previous years’ estimates. However, a significant manual
   workload resulted from this initiative. As of September 30, 2011, 13,997 of these referrals
   (11,180 for active cases and 2,817 for terminated cases) were on hand. These backlogged
   cases are handled whenever any other work needs to be done on the case. RESCUE
   referrals are also processed using overtime funds as resources permit.
• RESCUE is currently run several times a year so that annuity adjustments for service and
   compensation changes are made timely and properly for those records that can be handled
   automatically. Those that cannot be processed by RESCUE are referred for manual
   handling and are included in the current workload. As of September 30, 2011, there were
   13,877 of these current referrals. The agency also uses overtime funding in the short term
   for this workload.
• The RRB is also addressing the RESCUE backlog by hiring and training claims examiner
   staff which will eventually be able to handle these complex referrals. This is a long-term
   process which will take several years before we see a significant impact on these workloads.
• SPEED (System Processing Excess Earnings Data) is an automation initiative designed to
   process post-entitlement annuity adjustments in both retirement and survivor cases that
   result from excess earnings and work deductions. SPEED allows the RRB to adjust annuity
   payments for earnings on a timely basis, which minimizes any underpayments or
   overpayments that may result from changes in earnings. SPEED Phases 1 through 5 are
   currently in production. Phase 6 is divided into two parts: Survivor Processing (Phase 6.1)
   and Retirement Processing (Phase 6.2). Phase 6 Retirement is expected to initiate or
   adjust regular and/or Last Pre-retirement Non-Railroad Employer (LPE) work deductions
   when an estimated work report is entered. Phase 6 Survivor is expected to download
   survivor current year earnings estimates from the survivor payments system, create an
   estimate report, suspend annuity (if necessary), calculate withholding, establish a
   reinstatement call-up and release a notification letter to the annuitant. Current plans are to
   complete survivor 6.1 by the end of calendar year 2012, while retirement 6.2 is expected to
   be completed in calendar year 2013.
• Electronic Data Processing (EDP Policing) Enhancements – This project will address the
   internal handling and mechanical matching of earnings information received from our data
   match with the Social Security Administration. The project, which began in fiscal year 2012,
                                             - 119 -
    involves the automation and capture of earnings information stored on the On-Line
    Calculations (ROC) system. ROC is an on-line system for calculating and paying retirement
    annuities. Earnings information on ROC is only stored for three months and then purged.
    The new processing will extend the retention period and create additional data files for
    matching against recent activity received via the LPE earnings monitoring process. We will
    also update the LPE process to capture the latest monthly earnings and average monthly
    earnings amounts. The information will be used in the EDP process to monitor earnings
    information, eliminate redundant information, and reduce the number of records referred to
    the claims adjudication units.
•   Our annual improper payments analysis indicates that a delay in the reporting of a
    beneficiary’s death is a major cause of improper payments. To better inform our customers
    of the requirements for reporting a death and the consequences of a delay in reporting, the
    RRB implemented the following communication enhancements in May 2012:
         Established a new prompt on the RRB’s toll-free phone line to provide information on
            how to report a death and what to do with benefit payments received after the date of
            death.
         Added detailed instructions to the death reporting FAQ on the agency’s website,
            www.rrb.gov. This additional information includes how to report a death, what to do
            with payments received after the date of death, and a link to the nearest RRB field
            office that can assist in death reporting and returning payments.

The root causes of error in the RUIA program are summarized according to OMB’s root causes
in the table below.

            Root Cause of Error              Estimated Rate          Estimated Amount
    Administrative and Documentation               12%                     $1,155,669
    Authentication and Medical Necessity               0%                            0
    Verification and Local Administration          88%                     $8,095,230
    Total                                        100%                      $9,250,899

The program integrity effort over the RUIA benefit payments is already at a very high level,
keeping RUIA improper payments at a relatively low level. Because of this there is little room
for improvement, and no new agency initiatives are planned for RUIA.

As noted in section I, there was an increase in RUIA improper payments in this year’s analysis.
We believe the RUIA improper payment rate will gradually return to its previous low level.
Based on an analysis of historical trends and current available data we incrementally reduced
our projected percentage of improper payments for the RUIA program.

As discussed in section I, some of the RUIA improper payments can be attributed to the delay in
our state wage matches. This delay could be eliminated if the RRB had access to the National
Directory of New Hires. We believe using this database could be very beneficial, allowing us to
obtain additional information not available through our current matching programs with the
states and to obtain it in a timely manner. However, at this time, the RRB does not have legal
authority to access the database and the administrative costs of participating in that program
are prohibitive. Making this database accessible to all agencies would greatly improve our
detection and prevention of RUIA improper payments.




                                             - 120 -
b. Grant-making agencies with risk-susceptible grant programs shall briefly discuss what
the agency has accomplished in the area of funds stewardship past the primary recipient.
Discussion shall include the status of projects and results of any reviews.

Not applicable to RRB.


IV.     a) and b) Program improper payment reporting.

The table below is required for each reporting agency.

                Improper Payment (IP) Reduction Outlook FY 2010 – FY 2015
                                        ($ in millions)

                 FY 10                                FY 11                           FY 12
                               FY 10        FY 10                  FY 11   FY 11                 FY 12   FY 12
  Program      $ Outlays                            $ Outlays                       $ Outlays
                               IP %          IP $                  IP %     IP $                 IP %     IP $
                (actual)                             (actual)                      (estimated)

 RRA           $10,780.2       0.58%        $62.6   $10,946.5      0.59%   $65.6   $11, 355.8    0.59%   $67.0


 RUIA                    Reporting Relief              $129        7.2%    $9.3      $126.4      5.2%    $6.6


                 FY 13                                 FY 14                          FY 15
                               FY 13        FY 13                  FY 14   FY 14                 FY15    FY 15
 Program       $ Outlays                             $ Outlays                      $ Outlays
                               IP %          IP $                  IP %     IP $                 IP %     IP $
              (estimated)                           (estimated)                    (estimated)

 RRA           $11,722.8       0.59%        $69.2   $12,055.3      0.59%   $71.1   $12,393.1     0.59%   $73.1

 RUIA           $125.8          4.5%        $5.7      $130.6       3.0%    $3.9      $134.7      2.5%    $3.4


      Note: The absolute value of the overpaid and underpaid dollars and the rates is shown—the figures
      are not netted.

At the time this report was prepared, the latest actual data available was for fiscal year 2011
(shown in bold in the chart).

For fiscal year 2011, RRA actual overpayments were $51,316,843 and actual underpayments
were $14,300,435.

RUIA actual overpayments were $8,501,470 and actual underpayments were $749,429.

The estimates for fiscal year 2012 through 2015 are based on the December 2011 OMB budget
review estimates.


V.     Recapture of Improper Payments Reporting.

a. An agency shall discuss payment recapture audit (or recovery auditing) efforts, if
applicable. The discussion should describe: the agency’s payment recapture audit
program; the actions and methods used by the agency to recoup overpayments; a
justification of any overpayments that have been determined not to be collectable; and any
conditions giving rise to improper payments and how those conditions are being resolved
(e.g., the business process changes and internal controls instituted and/or strengthened to
prevent further occurrences). If the agency has excluded any programs or activities from

                                                         - 121 -
review under its payment recapture auditing program (including any programs or activities
where the agency has determined a payment recapture audit program is not cost-effective),
the agency should list those programs and activities excluded from the review, as well as the
justification for doing so (i.e., a discussion of the analysis conducted to determine that a
payment recapture audit program would not be cost-effective). Include in your discussion
the dollar amount of cumulative recoveries collected beginning with FY 2004.

It is not feasible for the RRB to implement a formal payment recapture audit program. We do
have a robust, multi-faceted review process in place that is an effective approach for evaluating
payment accuracy in the RRA and RUIA programs and identifying and preventing improper
payments. Taken as a whole, our full range of current activities constitutes an effective
alternative to a formal payment recapture program. However, despite all the agency’s best
efforts to prevent improper payments, some will always occur, due to lack of timely information,
etc. In overpayment situations, the agency is diligent in its recovery efforts.

The RRB’s account receivable balance for the RRA program at the end of fiscal year 2011 was
$51,339,861. This balance includes debts classified as currently not collectible. We estimate
that approximately 77.1 percent of the RRA will be collected and the remaining 22.8 percent of
the RRA debt will eventually be closed as uncollectible. For the period of fiscal years 2004
through 2011, the RRB recovered $315,866,420 in RRA program receivables.

The RRB’s account receivable balance for the RUIA program at the end of fiscal year 2011 was
$15,039,699. This balance includes debts classified as currently not collectible. We estimate
that approximately 66.6 percent of the RUIA receivable balances will be collected and 33.4%
will eventually be closed as uncollectible. It should be noted that uncollectible RUIA debts may
be reinstated for recovery by offset when a debtor files an application for retirement benefits.
For the period of fiscal years 2004 through 2011, the RRB recovered $267,751,686 in RUIA
program receivables.

The RRB’s collection program is in full compliance with the Debt Collection Improvement Act of
1996. Recoveries are made through offset of benefits, reclamation and return of erroneous
benefit payments, and direct payment from debtors. Fraudulent payments are referred to the
OIG for prosecution through the Department of Justice. Delinquent accounts are referred to
Treasury for cross-servicing and offset of Federal payments.

d.        Table 6

                   Overpayments Recaptured Outside of Payment Recapture Audits
                                           ($ in millions)

                                                                                         Cumulative       Cumulative
                                       Amount       Amount      Amount       Amount
                                                                                           Amount           Amount
       Agency Source                  Identified   Recovered   Identified   Recovered
                                                                                          Identified      Recovered
                                        FY 11*      FY 11**      FY 10*      FY 10**
                                                                                        FY 04 - FY 11*   FY 04 - FY11**
Various, including post
payment quality reviews,
special evaluations OIG        RRA     $49.2         $43.0        $45.3       $40.9        $360.3           $315.9
reviews/audits, reports from
the public, monitoring
programs, and agency-
identified errors. No          RUIA    $36.1         $30.3        $31.5       $31.0        $274.7           $267.8
breakdown between these
sources is available.


*Amounts limited to established overpayments for fiscal year(s) identified.

**Recoveries include debts established prior to fiscal year(s) identified.


                                                        - 122 -
VI. Accountability. Any agency that has programs or activities that are susceptible to
significant improper payments shall describe the steps the agency has taken and plans to
take (including timeline) to ensure that agency managers, accountable officers (including the
agency head), programs, and States and localities (where appropriate) are held accountable
for reducing and recovering improper payments. Specifically, they should be held
accountable for meeting applicable improper payments reduction targets and establishing
and maintaining sufficient internal controls (including an appropriate control environment)
that effectively prevents improper payments from being made and promptly detects and
recovers any improper payments that are made.

Paying benefits accurately and timely, and providing prudent stewardship over agency trust
funds are the agency’s two strategic goals. Agency managers have links to those goals in their
performance plans. In addition, we have added two new goals, one aimed at minimizing
improper payments and the other focused on maximizing recovery efforts, to our fiscal year
2012 performance plan.


VII.   Agency information systems and other infrastructure.

a. Describe whether the agency has the internal controls, human capital, and information
systems and other infrastructure it needs to reduce improper payments to the levels the
agency has targeted.

The agency has established effective internal controls aimed at minimizing improper payments.

Although the agency has limited staff and expects further attrition of experienced personnel, the
RRB has been able to meet the challenge of minimizing improper payments for both the RRA
and RUIA programs. Neither benefit program has “significant” improper payments as defined by
law.

In order to prevent and reduce the already low levels of improper payments the RRA and RUIA
program generates, information systems need to be developed or modified as described in the
project initiatives discussed in section III.a above.

b. If the agency does not have such internal controls, human capital, and information
systems and other infrastructure, describe the resources the agency requested in its most
recent budget submission to Congress to establish and maintain the necessary internal
controls, human capital, and information systems and other infrastructure.

In fiscal years 2010, 2011 and 2012 the agency requested funding for its System Modernization
project. The project is a multi-year effort to modernize the agency’s automation systems.
System Modernization, when complete, will contribute to achieving the agency’s target
information technology architecture, and will help the agency meet its performance goals,
including improved accuracy of benefit payments and stewardship of the trust funds. In fiscal
year 2013 the agency’s budget submission did not include, due to fiscal funding constraints,
funding for system modernization specifically. However, work has continued using internal
resources on internal software improvement projects. Modernization will help reduce
redundancy, improve processing accuracy and speed, and transition our computing
environment to more modern technology platform and methodologies.



                                             - 123 -
In addition, information technology infrastructure provides a critical foundation for the agency’s
mission and business processes. This includes desktops, notebooks, servers, printers, routers,
scanners and other significant components. The agency has a long-term strategic goal to
systematically replace all IT components according to industry standards in order to provide a
stable technology environment. As funding is made available, IT equipment at its headquarters
facility and field offices is replaced in accordance with the agency’s IT Equipment Replacement
Policy. This ensures that the agency will provide the most efficient, reliable and secure services
to its customers.


VIII. Barriers. Describe any statutory or regulatory barriers, which may limit the agencies’
corrective actions in reducing improper payments and actions taken by the agency to
mitigate the barriers’ effects.

None.


IX. Additional Comments. Discuss any additional comments, if any, on overall agency
efforts, specific programs, best practices, or common challenges identified, as a result of
IPERA implementation.

The RRB has made concerted efforts to reduce improper payments over the years. Payment
accuracy rates are at consistently high levels and the return on investment for program integrity
activities has been high as well. Both have been set as annual performance goals and reported
each year since the Government Performance and Results Act has been in effect. The agency
monitors progress on implementing recommendations from the quality assurance process, and
is vigilant about pursuing OIG recommendations which impact the quality and timeliness of
payments. The agency has also worked closely with the OIG in referring potential fraud cases
for its investigation and prosecution. However, continued loss of experienced staff and the long
lead time to hire and train staff to handle the complicated manual work generated as a result of
systems limitations presents an ongoing challenge to making further significant reductions in the
levels of improper RRA payments. The agency hopes to be able to maintain adequate staffing
so that it can continue this important effort.




                                             - 124 -
 Summaries of Financial Statement Audit and Management Assurances

Summary of Financial Statement Audit

Audit Opinion                                                  Disclaimer
Restatement                                                        No

     Material Weaknesses                Beginning           New           Resolved       Consolidated      Ending
                                         Balance                                                           Balance
Information Technology Security
– Risk Management Framework                   1                                                              1
Information Technology Security
– Configuration Management*                   1                                                              1

Non-Integrated Subsystems                     1                                 1

Budgetary Reporting                           1                                                              1
Total Material Weaknesses                     4                                                              3


Summary of Management Assurances

                 Effectiveness of Internal Control over Operations (FMFIA § 2)
Statement of Assurance                                   Qualified

      Material Weaknesses            Beginning       New       Resolved        Consolidated   Reassessed    Ending
                                      Balance                                                               Balance
Information Technology Security
– Risk Management Framework               1                                                                      1
Information Technology Security
– Configuration Management*               1                                                                      1

Non-Integrated Subsystems                 1                        1

Budgetary Reporting                       1                                                                      1

Total Material Weaknesses                 4                                                                      3


          Conformance with Financial Management System Requirements (FMFIA § 4)
Statement of Assurance Systems conform




 * Formerly referred to as Information Security – Applications and Services.




                                                        - 125 -
PAGE INTENTIONALLY LEFT BLANK
APPENDICES
PAGE INTENTIONALLY LEFT BLANK
                                   Appendices

Glossary of Acronyms and Abbreviations


A

AABR                       Average Account Benefits Ratio
ABR                        Account Benefits Ratio
ACSI                       American Customer Satisfaction Index
ARRA                       American Recovery and Reinvestment Act of 2009

B

BPD                        Bureau of the Public Debt

C

CGI                        Consultants to Government and Industry
CMS                        Centers for Medicare & Medicaid Services
CNC                        Currently Not Collectible

D

DBP Account                Dual Benefits Payments Account
DOL                        Department of Labor

E

EDMA                       Employment Data Maintenance
ERP                        Economic Recovery Payments
ERS                        Employer Reporting System

F

FACTS II                   Federal Agencies’ Centralized Trial-Balance System
FASAB                      Federal Accounting Standards Advisory Board
FBWT                       Fund Balance With Treasury
FECA                       Federal Employees’ Compensation Act
FFS                        Federal Financial System
FHI                        Federal Hospital Insurance
FI                         Financial Interchange
FICA                       Federal Insurance Contributions Act
FISMA                      Federal Information Security Management Act
FMFIA                      Federal Managers’ Financial Integrity Act
FY                         Fiscal Year
FOASI/DI                   Federal Old-Age and Survivors Insurance/Disability Insurance

G

GPRA                       Government Performance and Results Act




                                         - 129 -
I

IPERA         Improper Payments Elimination and Recovery Act
IPIA          Improper Payments Information Act
IRMAA         Income-Related Monthly Adjustment Amount
IRS           Internal Revenue Service
IT            Information Technology
IVR           Interactive Voice Response

L

LAN           Local Area Network
LPE           Last Pre-retirement Non-Railroad Employer

M

MCRC          Management Control Review Committee
MMA           Medicare Prescription Drug, Improvement and Modernization
              Act of 2003

N

NRRIT         National Railroad Retirement Investment Trust

O

OIG           Office of Inspector General
OMB           Office of Management and Budget
OPM           Office of Personnel Management

P

P&AR          Performance and Accountability Report
PII           Personally Identifiable Information
POA&M         Plan of Action and Milestones

R

RESCUE        Recalculate for Service and Compensation Updated to EDMA
RR            Railroad Retirement
RRA           Railroad Retirement Act
RR Account    Railroad Retirement Account
RRB           Railroad Retirement Board
RRSIA         Railroad Retirement and Survivors’ Improvement
              Act of 2001
RUI           Railroad Unemployment Insurance
RUIA          Railroad Unemployment Insurance Act
RUI Account   Railroad Unemployment Insurance Account




                          - 130 -
S

SFFAS      Statement of Federal Financial Accounting Standards
SI         Sickness Insurance
SPEED      System Processing Excess Earnings Data
SSA        Social Security Administration
SSEB       Social Security Equivalent Benefit
SSP        Shared Service Provider

T

Treasury   Department of the Treasury
Trust      National Railroad Retirement Investment Trust

U

UI         Unemployment Insurance
USC        United States Code
USPS       United States Postal Service

V

VoIP       Voice over Internet Protocol

W

WHBAA      Worker, Homeownership and Business Assistance Act of 2009




                       - 131 -
Railroad Retirement Board
Board Members, Inspector General, and Executive Committee



                                Board Members

        Chairman                                  Michael S. Schwartz
        Labor Member                              Walter A. Barrows
        Management Member                         Jerome F. Kever


                          Office of Inspector General

        Inspector General                         Martin J. Dickman


                             Executive Committee

        Director of Programs/Senior               Dorothy A. Isherwood
           Executive Officer
        Chief Actuary                             Frank J. Buzzi
        Chief Financial Officer                   George V. Govan
        Chief Information Officer                 Terri S. Morgan
        Director of Administration                Keith B. Earley
        General Counsel                           Karl T. Blank
        Director of Field Service                 Martha M. Barringer




                                      - 132 -
For additional copies of this report, please contact:
         Railroad Retirement Board 

         Bureau of Fiscal Operations 

         844 North Rush Street, 5th Floor 

         Chicago, Illinois 60611-2092 

         Telephone : (312) 751-4590 

         Fax: 312-751-7171 

         Available on the Internet at: www.rrb.gov 





                                                        :
